<html>
<title> - CYBERSECURITY: PROTECTING AMERICA'S CRITICAL INFRASTRUCTURE, ECONOMY, AND CONSUMERS HEARING BEFORE THE SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION SEPTEMBER 13, 2006 Serial No. 109-137 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/ congress/house U.S. GOVERNMENT PRINTING OFFICE 31-464 PDF WASHINGTON : 2007</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
       CYBERSECURITY: PROTECTING AMERICA'S CRITICAL INFRASTRUCTURE, 

                           ECONOMY, AND CONSUMERS 


                                 HEARING

                                BEFORE THE

           SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                OF THE 

                     COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                            SECOND SESSION


                          SEPTEMBER 13, 2006

                          Serial No. 109-137

      Printed for the use of the Committee on Energy and Commerce



Available via the World Wide Web:  http://www.access.gpo.gov/
                                                  congress/house



                    U.S. GOVERNMENT PRINTING OFFICE

31-464 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON ENERGY AND COMMERCE

JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas
MICHAEL BILIRAKIS, Florida
  Vice Chairman
FRED UPTON, Michigan
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
NATHAN DEAL, Georgia
ED WHITFIELD, Kentucky
CHARLIE NORWOOD, Georgia
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
JOHN B. SHADEGG, Arizona
CHARLES W. "CHIP" PICKERING,  Mississippi 
  Vice Chairman
VITO FOSSELLA, New York
ROY BLUNT, Missouri 
STEVE BUYER, Indiana
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
C.L. "BUTCH" OTTER, Idaho
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee
JOHN D. DINGELL, Michigan
  Ranking Member
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
TED STRICKLAND, Ohio
DIANA DEGETTE, Colorado
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
TOM ALLEN, Maine
JIM DAVIS, Florida
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas


BUD ALBRIGHT, Staff Director
DAVID CAVICKE, General Counsel
REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET
FRED UPTON, Michigan, Chairman
MICHAEL BILIRAKIS, Florida
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
ED WHITFIELD, Kentucky
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
CHARLES W. "CHIP" PICKERING,  Mississippi 
VITO FOSSELLA, New York
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
JOHN SULLIVAN, Oklahoma
MARSHA BLACKBURN, Tennessee
JOE BARTON, Texas
  (EX OFFICIO)
EDWARD J. MARKEY, Massachusetts
  Ranking Member
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
MIKE DOYLE, Pennsylvania
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
JOHN D. DINGELL, Michigan
  (EX OFFICIO)


CONTENTS


Page
Testimony of:

Powner, David A., Director, Information Technology Management 
Issues, U.S. Government Accountability Office	

13
Foresman, Hon. George W., Undersecretary for Preparedness, U.S. 
Department of Homeland Security	

39
Moran, Kenneth P., Director, Office of Homeland Security, Enforcement 
Bureau, Federal Communications Commission 

51
Weafer, Vincent, Senior Director, Symantec Security Response, 
Symantec Corporation	

61
Kurtz, Paul B., Executive Director, Cyber Security Industry Alliance	
71
Clinton, Larry, Chief Operating Officer, Internet Security Alliance	
79
Additional material submitted for the record:

Kenney, Jeannine, Senior Policy Analyst, Consumers Union, submission 
for the record	

111
Powner, David A., Director, Information Technology Management 
Issues, U.S. Government Accountability Office, response for the 
record	

119
Weafer, Vincent, Senior Director, Symantec Security Response, 
Symantec Corporation, response for the record	
122
Kurtz, Paul B., Executive Director, Cyber Security Industry Alliance, 
response for the record	

128
Clinton, Larry, Chief Operating Officer, Internet Security Alliance, 
response for the record	

135
Foresman, Hon. George W., Undersecretary for Preparedness, U.S. 
Department of Homeland Security, response for the record 

138


CYBERSECURITY: PROTECTING AMERICA'S CRITICAL INFRASTRUCTURE, ECONOMY, 
AND CONSUMERS


WEDNESDAY, SEPTEMBER 13, 2006

HOUSE OF REPRESENTATIVES,
COMMITTEE ON ENERGY AND COMMERCE,
SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET,
Washington, DC.


	The subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Fred Upton (Chairman) presiding.
	Members present:  Representatives Upton, Stearns, Shimkus, 
Bass, Walden, Terry, Blackburn, Barton (ex officio), Markey, 
Gonzalez, Inslee, Eshoo, and Dingell (ex officio).
	Staff present:  Kelly Cole, Counsel; Howard Waltzman, Chief 
Counsel for Telecommunications and the Internet; Jaylen Jensen, 
Senior Legislative Analyst; Anh Nguyen, Legislative Clerk; and 
Johanna Shelton, Minority Counsel. 
	MR. UPTON.  Good morning.  I would like to welcome our 
witnesses today, as well as welcome back our subcommittee members.  
Today's hearing is about cybersecurity and what our Government and 
the private sector are doing to prevent and mitigate attacks on 
our Internet infrastructure. 
	I liken cybersecurity and the threat to our Internet 
infrastructure to what we've seen occur on the Gulf Coast.  For 
years we were worried that the levees in New Orleans were not strong 
enough to withstand a Category 5 hurricane.  When Hurricane Katrina 
blew through the Gulf Coast, and the eventuality that we all knew 
was a possibility became a reality: We saw the levees break; we 
saw the devastation that such a storm could wrought. 
	Similarly, we know that our Internet infrastructure is 
subject to attack every day.  The unfortunate reality is that there 
will come a day when this country experiences a debilitating 
Internet disruption.  
	The question we face now is: will we be ready?  The lesson 
that we have learned from Hurricane Katrina is that we must be 
ready.  That is why we are here today. 
	Normally, these types of hearings are held after a major 
incident, after it, but thankfully, we are in a position to improve 
our current system, to examine what steps are being taken, and what 
steps are needed to further fortify the Information Superhighway.  
	Today's hearing will examine the steps being taken in the 
public and private sectors to make us ready.  We will hear the 
disappointing report from the GAO that we are not quite prepared 
for such an attack.  I hope that today's hearing will help to 
improve our readiness and to increase the coordination among 
government agencies, as well as among government and private 
sector entities to protect our Internet infrastructure from a 
major disruption. 
	I thank the witnesses for appearing today.  I look forward 
to their testimony.  I particularly appreciate their ability to send 
up the testimony last night so that I could see it before I went 
home. 
	[The prepared statement of Hon. Fred Upton follows:] 

PREPARED STATEMENT OF THE HON. FRED UPTON, CHAIRMAN, SUBCOMMITTEE 
ON TELECOMMUNICATIONS AND THE INTERNET

	Good Morning.  I would like to welcome our witnesses today 
as well as welcome back our subcommittee Members. 
	Today's hearing is about cybersecurity, and what our 
government and the private sector are doing to prevent and mitigate 
attacks on our Internet infrastructure. 
	I liken cybersecurity and the threat to our Internet 
infrastructure to what we've seen occur on the Gulf Coast.  For 
years we worried that the levies in New Orleans were not strong 
enough to withstand a Category 5 hurricane.  Then Hurricane Katrina 
blew through the Gulf Coast, and the eventuality that we all knew was a possibility became a reality: we saw the levies break, and we saw the devastation that such a storm could wrought.  
	Similarly, we know that our Internet infrastructure is 
subject to attack every day.  The unfortunate reality is that there 
will come a day when this country experiences a debilitating 
Internet disruption.  
	The question we face now is: will we be ready?  The lesson 
we've learned from Hurricane Katrina is that we must be ready.  
	That is why we are here today.  Normally, these types of 
hearings are held after a major incident.  But thankfully, we are 
in a position to improve our current system, to examine what steps 
are being taken and what steps are needed to further fortify the 
information superhighway.  
	Today's hearing will examine the steps being taken in the 
public and private sectors to make us ready.  We will hear the 
disappointing report from the GAO that we are not quite prepared 
for such an attack.  I hope that today's hearing will help to 
improve our readiness and to increase the coordination among 
government agencies as well as among government and private 
sector entities to protect our Internet infrastructure from a 
major disruption. 
	I thank the witnesses for appearing today and I look 
forward to their testimony. 

	MR. UPTON.  With that, I will yield to the Ranking Member 
of the subcommittee, gentleman from Massachusetts, Mr. Markey. 
	MR. MARKEY.  Thank you, Mr. Chairman, very much.  I want 
to commend you for calling this hearing this morning on 
cybersecurity.  
	This subcommittee has a long history on cybersecurity.  We 
held a hearing, in this subcommittee, for instance, in 1993 where 
we demonstrated in this room cyber attacks on the United States 
Navy Pacific fleet command, on NASA's mission control, and on the 
Kremlin.  We knew in 1993, well before we enacted the 
Telecommunications Act, that individuals would use the Internet 
for nefarious purposes.  Today, we revisit the issue, knowing 
that the Internet is even more prevalent than ever, and that more 
individuals, businesses, and critical infrastructure, public 
safety, hospitals, and government agencies rely upon it.  
	Unquestionably, a major disruption of the Internet can 
invoke dire consequences in an emergency.  In addition, successful 
cyber attacks can cause harm to individuals when security is 
compromised in a way that leads to identify theft, fraud, or 
extortion.  American consumers pay dearly for such compromises 
to their privacy and security each year.  So-called bot networks 
where computers are essentially hijacked by Internet-based software 
implanted in your computer without your consent are used as vehicles 
for spam and fraud and denial of service attacks.  These acts, 
along with computer virus attacks, have negative financial impacts 
across the country that are estimated in the billions of dollars.  
	The Federal Communications Commission plays a vital role 
in preparing and responding to cyber attacks because of its 
responsibility over our Nation's telecommunications infrastructure. 
 The Network Reliability and Interoperability Council, for example, 
was convened by the FCC in response to this subcommittee's inquiry 
into the massive Bell Atlantic telephone outage in 1991, which was 
caused by software glitches in digital switching systems.  That 
council is tasked with helping to prevent Internet disruptions 
from occurring, and has developed a list of best practices for 
Internet disaster recovery in emergency situations. 
	The Department of Homeland Security is tasked with the 
lead responsibility for facilitating response and recovery efforts 
surrounding major Internet disruptions.  The Government 
Accountability Office report from June of this year concluded that 
although the Department of Homeland Security has begun several 
initiatives addressing cybersecurity and Internet security, these 
efforts are neither complete nor are they comprehensive.  As a 
member of the Homeland Security Committee since its establishment 
3 years ago, I remain concerned about the Department's lack of 
significant progress in the area of cybersecurity.  
	Obviously, many are concerned about cyber threats from 
al Qeada.  Certainly, cyber terrorism is something that is likely 
to be in al Qeada's playbook, and we should be vigilant against 
such threats.  Yet, beyond the daily threats to cybersecurity from 
hackers and spammers attempting to profit from fraud, the present 
threat appears to be from China.  Numerous published reports 
highlight how China is actively probing our Internet-based 
infrastructure.  Last year, the Washington Post, for example, 
highlighted how websites in China are being used heavily to target 
computer networks in the Defense Department and other U.S. 
agencies. 
	So based on the GAO's report, we clearly are still without 
an adequate plan for cybersecurity, and we need to do a better job 
preparing ourselves, not just for future threats, but for present 
practices from those who may target Americans for fraud or 
terrorism. 
	This is a timely hearing, and again, I want to commend 
Chairman Upton for holding this hearing, and thank our witnesses 
for their time and efforts. 
	MR. UPTON.  I now recognize for an opening statement the 
Chairman of the full committee, Mr. Barton from Texas. 
	CHAIRMAN BARTON.  Thank you, Chairman Upton, for holding 
this hearing.  
	Following the anniversary of September 11, 2001, today's 
hearing takes on added importance.  Cybersecurity is both a timely 
issue to consider, and important issue to consider.  Following the 
events of 9/11, we learned a great deal about our country's 
vulnerabilities.  As a result, there have been ongoing, systemic 
reviews surrounding our Nation's critical infrastructure, most of 
which fall within the jurisdiction of this committee.  Just as we 
have taken steps to protect our electricity and drinking water, 
it is also important to ensure that our information systems, 
telecommunications networks, and Internet infrastructure are 
protected from those that wish to do us harm. 
	In light of the public and private reliance on the 
Internet for commerce, communications, and education, I have 
requested the Government Accountability Office to complete a 
report on our preparedness for a major Internet disruption.  
Although, thankfully, we have never seen catastrophic Internet 
disruption, such an event is not out of the realm of possibility. 
 The conclusion of the GAO is that recovering from a major 
Internet disruption would be very difficult.  Roles of 
responsibility among government agencies are not fully defined, 
and coordination among the vast numbers of affected entities, 
both public and private, is not occurring on a satisfactory 
scale, according to the GAO. 
	Imagine our country without a functioning Internet, even 
for a little bit.  Most of us have lived to adulthood without 
the Internet, but it is now a big part of our daily lives.  Some 
people probably think they are exempt from the impact of the 
Internet, but you would almost have to live in a cave to be truly 
unaffected.  You benefit if you have a job, see a doctor, drive 
a car, or eat a meal, and the list goes on and on.  Jobs, growth, 
and opportunity in America without an Internet would not 
disappear, but they would be dramatically tougher to achieve.  
Life, business, and the economy would not tumble into a new Dark 
Age, but it would be a dimmer and poorer life for all of us.  
That is exactly the outcome envisioned by a man who does live 
in a cave, Osama bin Laden.  
	Protecting our Internet is not simply a goal this country 
should aim to meet.  This is an imperative that the United States 
must achieve.  I am anxious to hear from the Department of 
Homeland Security what steps are being pursued to remedy the 
problems described by the GAO report.  Also, I am interested in 
hearing from the private industry witnesses about what they see 
as the most critical issues and how they believe that we can best 
resolve them.  
	I want to thank you, Chairman Upton.  I would like to point 
out that Chairman Stearns's subcommittee also has some jurisdiction 
in this area, but I thank both of you for addressing this very 
important issue. 
	With that, I yield back. 
	[The prepared statement of Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON 
ENERGY AND COMMERCE 

	Thank you, Chairman Upton, for holding this hearing.  Just 
following the five-year anniversary of September 11th, today's 
hearing on cybersecurity is both timely and important. 
	Following the events of September 11th, we learned a great 
deal about our country's vulnerabilities.  As a result, there have 
been ongoing, systematic reviews surrounding our nation's 
critical infrastructure, most of which fall within the jurisdiction 
of this Committee.  Just as we have to take steps to protect our 
electricity and drinking water, it is also vitally important to 
ensure that our information systems, telecommunications networks, 
and Internet infrastructure are protected from those who wish to 
do us harm.
	In light of the public and private reliance on the Internet 
for commerce, communications, and education, I requested the 
Government Accountability Office to complete a report on our 
preparedness for a major Internet disruption.   Although this 
country has, thankfully, never seen a catastrophic Internet 
disruption, such an event is not out of the realm of possibility.  
The conclusion of the GAO is that recovering from a major Internet 
disruption would be difficult.  Roles of responsibility among 
government agencies are not fully defined, and coordination among 
the vast number of affected entities, both public and private, 
is not occurring on a satisfactory scale. 
	Imagine America without a functioning Internet, even for 
a little while.  Most of us lived to adulthood without the Internet, 
but it is now an unnoticed part of our lives.  Some people probably 
think they're exempt from the impact of the Internet, but you'd 
have to live in a cave to be truly unaffected.  You benefit if you 
have a job, see a doctor, drive a car or eat a meal, and the list 
goes on and on.  Jobs, growth and opportunity in America without 
an Internet would not disappear, but they'd be dramatically 
tougher to achieve.  Life, business and the economy would not 
tumble into a new Dark Age, but it would be a dimmer and poorer 
one for all of us.    That is exactly the outcome envisioned for 
us by a man who does live in a cave. 
	Protecting our Internet infrastructure is not simply a goal 
this country should aim to meet.  This is an imperative that the 
United States must achieve.  I am anxious to hear from the 
Department of Homeland Security what steps are being pursued to 
remedy the problems described by GAO.  Also, I am interested in 
hearing from our private industry witnesses about what they see 
as the most critical issues and how they believe we can best 
resolve them. 
	Thank you again, Chairman Upton.  I look forward to hearing 
from our witnesses. 

	MR. UPTON.  I recognize the Ranking Member of the full 
committee, Mr. Dingell from the great State of Michigan. 
	MR. DINGELL.  Mr. Chairman, we are from a great State.  
Thank you for those kind words. 
	First of all, Mr. Chairman, thank you for holding this 
hearing, and I commend you for making cybersecurity a priority for 
this subcommittee.  
	Cyber attacks against our Nation's information infrastructure 
grow in sophistication and in number every day.  A failure by the 
Government to plan for physical and cyber damage to the Internet 
could be devastating to both our national security and our economic 
stability.  
	Cyber criminals are attacking online operations and 
infrastructure thousands of times a day, with increasingly targeted 
and malicious attacks.  Moving beyond these notorious wide scale 
attacks of the past, these perpetrators seem bent on more calculated 
invasions designed to access and misuse corporate, personal, or 
government information.  With a significant and growing level of 
our Nation's economic activity occurring over networked connections, 
a major physical or cyber breakdown of the Internet could wreak 
havoc on our economy.  But a loss of the public's trust in the 
digital economy would likewise ripple across every industry and 
severely damage the Nation's overall economic health. 
	Given the range of threats and vulnerabilities, this hearing 
provides an excellent opportunity to understand on a broad level 
what is being done to secure cyberspace.  How well prepared are the 
Government and the private sector to respond to and to recover from 
a major Internet disruption and from other cyber threats, and what 
is it that we should do about these problems? 
	The public sector is a holder of great responsibilities, 
but the private sector is at the forefront in the defense against 
cyber attacks, and it is vital that corporate management 
appropriately invests in cybersecurity.  Do corporations, large 
and small, have the necessary commitment, information, and tools 
to protect against cyber intrusions and restore systems that have 
been compromised?  The information technology sector is deploying 
tools to help businesses and consumers manage cyber risks, but 
they need a lot of help, and this is one of the places the 
Government comes in.  The Federal government must take a leading 
role in working with the private sector to secure cyberspace. 
	What steps has the Government, particularly the Department 
of Homeland Security, DHS, taken in regard to protecting against 
and recovering from a major cyber incident, whether from cyber 
warfare or from a natural disaster?  Is cybersecurity receiving 
the proper level of attention within the Department, or is there 
more that can and should be done? 
	The Government Accountability Office reports that the role 
of the Government in planning for Internet recovery remains 
unclear.  According to GAO, years after its formation, DHS is 
falling short on its efforts to secure cyberspace.  GAO's recent 
report on Internet recovery provides a list of items upon which 
the Department must focus its attention.  Curiously, more than 
a year after announcing, with more than a little fanfare, the 
creation of an Assistant Secretary for Cybersecurity and 
Telecommunications, that DHS position, along with others, 
remains vacant.  This is a noticeable and a lengthy absence of 
cybersecurity leadership, and it conveys a clear lack of 
appreciation for our Nation's real and mounting cyber threats. 
	The American people should not have to wait for a massive 
cyber disaster to bring the necessary level of government attention 
to cyber risks.  Companies on the front lines are clamoring for 
more leadership from the Government in securing cyberspace.  
Perhaps this is because the private sector knows full well that 
the costs of inaction in preparing for and recovering from a 
cyber disaster could be catastrophic to our national and economic 
security. 
	Mr. Chairman, this hearing is a very important one.  Let us 
hope that it helps us get some answers, but let us also hope that 
it enables us to jog the Government into a more vigorous effort at 
addressing these problems, and perhaps filling an empty appointment 
or two at DHS. 
	Thank you. 
	MR. UPTON.  Mr. Terry. 
	MR. TERRY.  Thank you, Mr. Chairman, for holding this 
hearing.  I would just like to associate myself to all of the 
remarks that have been made from this kiosk, and I yield back. 
	MR. UPTON.  Especially the remarks about the great State of 
Michigan, we are glad to have-- 
	MR. TERRY.  With that exception. 
	MR. UPTON.  Mr. Stearns. 
	MR. STEARNS.  Thank you, Mr. Chairman.  Obviously, all of us 
are glad that you are holding this hearing.  As Mr. Barton pointed 
out, my Subcommittee on Commerce, Consumer Protection, and Trade, 
we have had seven hearings on privacy and we have dealt a lot with 
data security, and we are also concerned with cybersecurity. 
	As the Government and private sector become more reliant on 
widespread interconnectivity, protecting both the public and 
private computer systems and the critical operations and 
infrastructure they support is more critical than ever before. 
	Although the Bush Administration, the Department of Homeland 
Security, DHS, have begun a variety of initiatives to protect the 
Internet infrastructure, obviously, much work needs to be done.  
According to a recently released GAO report, the efforts by DHS 
to fulfill its responsibilities for developing an integrated 
public, private plan for Internet recovery are neither complete 
nor comprehensive.  DHS has developed a high level plan for 
infrastructure protection and incident response, but the components 
of these plans addressing Internet infrastructure are not yet 
complete. 
	DHS has started initiatives to improve response, such as 
working groups to facilitate coordination and exercises in which 
government and private industry practice responding to cyber events, 
but GAO notes progress on these initiatives have been limited and 
they often lack timeframe for completion.  
	My colleagues, much of the United States' critical 
infrastructure is potentially vulnerable to cyber attacks.  
Industrial control computer systems involved in this infrastructure 
are specific points of vulnerability, as cybersecurity for these 
systems has not been previously perceived as a very high priority. 
 Many international terrorist groups now actively use computers 
and the Internet to communicate, and several may develop or 
acquire the necessary technical skills to eventually direct a 
coordinated attack against computers in the United States.  A 
cyber attack intended to harm the U.S. economy would likely 
target computers that operate the civilian critical 
infrastructure and our government agency. 
	While there is no published evidence that terrorist 
organizations are currently planning a coordinated attack against 
computers, computer system vulnerabilities persist worldwide and 
initiators of the random cyber attacks that plague computers on the 
Internet remain largely unknown today.  Reports from security 
organizations show that random attacks are now increasingly 
implemented through the use of automated tools called bots that 
direct large numbers of these compromised computers to launch 
attacks through the Internet as swarms.  The growing trend towards 
the use of more automated attack tools has also overwhelmed some 
of the current methodologies used for tracking Internet cyber 
attacks.  
	The potential consequences of this are critical, and range 
from temporary loss of service to catastrophic infrastructure 
failure affecting multiple States for an extended duration.  The 
consequences of attack could vary widely.  In addition, DOD has 
also observed that the number of attempted intrusions into military 
networks has gradually increased.  
	Mr. Chairman, this uncertainty highlights the necessity of 
this hearing and I thank you for holding it.  I look forward to 
hearing from our witnesses. 
	MR. UPTON.  Mr. Shimkus. 
	MR. SHIMKUS.  Thank you, Mr. Chairman. 
	I will just brief and say thank you for coming to the 
panelists.  I thank the Chairman for asking for the report in 2005. 
	In July, we suffered some pretty horrific storms in the 
St. Louis metropolitan area.  Over three-quarters of a million 
people were without power for many days.  My home was without power 
for 5 days.  I think that allowed the public to understand how 
connected we are through the computer, through Internet, through 
electricity, and the like.  The public really needs to think what 
we can do collectively.  And I think what these storms showed the 
public in the St. Louis metropolitan area is what they had to do 
themselves to prepare.  That is really the same message that we 
talked about in Katrina and other major disasters.  What are the 
individual citizens doing to help protect themselves in the case 
of attacks?  This is cybersecurity, but we do rely more and more 
on technology, and the public needs to be prepared to--how to do 
their own work, and that is what I will be asking about later on. 
	Thank you, Mr. Chairman.  I yield back. 
	MR. UPTON.  Thank you.  That concludes the opening 
statements by the members of the subcommittee.  
	[Additional statement submitted for the record follows:] 

PREPARED STATEMENT OF THE HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF CALIFORNIA 

	Thank you Mr. Chairman, and thanks to the witnesses for 
joining us today. 
	As a member of the House Intelligence Committee, I take very 
seriously the range of threats to our country from terrorists and 
other enemies, including threats to our basic infrastructure 
including our telecommunications networks and the Internet. 
	In the 21st Century, no part of our national infrastructure 
is more important than our technological infrastructure and 
communications networks. 
	Former Cybersecurity Czar Richard Clarke once described the 
potential for a telecom disaster as an "electronic Pearl Harbor."  
CRS has estimated a cyber attack could produce an economic blow 
exceeding $200 billion. 
	This is undoubtedly a shared responsibility of government, 
the telecommunications industry, businesses, and consumers, and 
critical gaps in security remain unaddressed at every level. 
	I'm increasingly concerned that cybersecurity is not 
receiving the attention it requires from the federal government. 
	In the wake of 9/11 the Administration has slowly 
diminished responsibility for and visibility of cybersecurity 
matters at the federal level.  Instead, they have focused almost 
exclusively on threats to air safety and border security.  These 
are critical threats to our national security but they are not the 
only ones.  We must attend to all critical sectors, including 
cybersecurity. 
	The position of cyber security czar once resided at the 
White House and reported directly to the President, but after 
Richard Clarke's resignation in 2003, the position was relegated 
to a mid-level position in the Department of Homeland Security. 
	In July 2005, after significant pressure from Congress and 
the private sector, DHS Secretary Chertoff announced the creation 
of an Assistant Secretary for Cyber Security and 
Telecommunications.  The Assistant Secretary would have the 
authority to set policy and develop public-private partnerships 
with industry to improve national cybersecurity. 
	But in the year since the position was announced, the 
Administration has yet to even nominate someone to fill it. 
	Clearly, we cannot expect national leadership in 
cybersecurity without an individual to lead the effort.  I hope 
the President will act soon to appoint someone to assume this 
vital function. 
	I also believe much of the responsibility for America's 
cybersecurity lies with the private sector and individual citizens. 
	Many of the most potent viruses and worms that afflict our 
computer networks are able to do so only because the vast majority 
of personal computers are not secure, thus becoming the unwitting 
distribution network for destructive programs. 
	Businesses and individuals must be vigilant in maintaining 
appropriate security on their networks and personal computers, and 
utilize sound security practices. 
	The federal government should play a leadership role in 
promoting effective security standards and practices and assisting 
private and public institutions in reaching out to individual users 
to protect themselves from cyber attacks. 
	Data security legislation unanimously endorsed by this 
Committee would provide significant government leadership in 
endorsing and promoting robust security systems and standards, and 
I hope the House will consider our bill before Congress adjourns. 
	We have to do better than react to an "electronic Pearl 
Harbor."  I look forward to working with my colleagues to make sure 
that we do everything we can to protect our nation's vital computer 
and communications networks. 

	MR. UPTON.  At this point, we will hear the testimony by 
our distinguished panel.  We are joined by Mr. David Powner, the 
Director of Information Technology Management Issues from the 
United States Government Accountability Office; Mr. George Foresman, 
Under Secretary for Preparedness of the United States Department of 
Homeland Security; Mr. Ken Moran, Director of the Office of Homeland 
Security of the Enforcement Bureau of the FCC; Mr. Vincent Weafer, 
Senior Director of Symantec Corporation from California; Mr. Paul 
Kurtz, Executive Director of Cybersecurity Industry Alliance; and 
Mr. Larry Clinton, CEO of Internet Security Alliance. 
	Gentlemen, your testimony is made part of the record in 
its entirety.  We would like you to take not more than 5 minutes to 
summarize it, at which point we will have questions from members of 
panel. 
	Mr. Powner, we will start with you.  Welcome. 

STATEMENTS OF DAVID A. POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
MANAGEMENT ISSUES, U. S. GOVERNMENT ACCOUNTABILITY OFFICE; HON. 
GEORGE W. FORESMAN, UNDER SECRETARY FOR PREPAREDNESS, U. S. 
DEPARTMENT OF HOMELAND SECURITY; KENNETH P. MORAN, DIRECTOR, 
OFFICE OF HOMELAND SECURITY, ENFORCEMENT BUREAU, FEDERAL 
COMMUNICATIONS COMMISSION; VINCENT WEAFER, SENIOR DIRECTOR, 
SYMANTEC SECURITY RESPONSE, SYMANTEC CORPORATION; PAUL B. KURTZ,
 EXECUTIVE DIRECTOR, CYBERSECURITY INDUSTRY ALLIANCE; AND LARRY 
CLINTON, CHIEF OPERATING OFFICER, INTERNET SECURITY ALLIANCE 

	MR. POWNER.  Chairman Upton, Ranking Member Markey, Chairman 
Barton, and members of the subcommittee, we appreciate the 
opportunity to testify on our Internet Reconstitution Report that 
we recently completed at your request.  
	Federal law and policy calls for critical infrastructure 
protection activities and establishes DHS as our Nation's focal 
point.  Among its many responsibilities is to work with the private 
sector to develop an integrated public private Internet recovery 
plan.  To date, no such plan exists.  Today, at your request, I 
will briefly discuss the growing threats to the Internet, where 
our Nation is in its efforts to develop this plan, and 
recommendations to both DHS and the Congress to facilitate public 
and private efforts to recover the Internet when major disruptions 
occur. 
	First, threats.  Criminal groups, foreign intelligence 
services, hackers, and terrorists are threats to our Nation's 
computers and networks.  A recent intelligence report on global 
trends forecasts that terrorists may develop capabilities to 
conduct both cyber and physical attacks against infrastructure 
modes, including the Internet.  In fact, the Internet has been 
targeted and attacked, and private sector companies who own the 
majority of the Internet infrastructure deal with cyber and 
physical disruptions on a regular basis.  For example, viruses 
and worms are often used to launch denial of service attacks 
that result in traffic being slowed or stopped.  Several recent 
cyber attacks highlight the importance of having robust Internet 
recovery plans, including a 2002 coordinated denial of service 
attack that targeted all 13 Internet route servers.  
	For most of these attacks, the Government did not have a 
role in recovering the Internet; however, recent physical attacks 
like 9/11 and Katrina highlight the need for public/private 
coordination associated with Internet recovery. 
	DHS has begun a variety of initiatives to fulfill its 
responsibility for developing an integrated public/private plan, 
but these efforts are not yet complete or comprehensive.  
Specifically, DHS has developed high level plans for infrastructure 
protection and national disaster response, but components of 
these plans that are to address Internet recovery are incomplete 
and inadequate.  In addition, the National Response Plan cyber 
annex does not reflect the National Cyber Response coordination 
group's current operating procedures.  DHS has started a variety 
of initiatives to tackle this problem, including working groups 
to facilitate response, and exercises to practice recovery 
efforts; however, these efforts are immature and the relationships 
among groups like the Internet disruption working group and others 
are not evident. 
	Regarding the challenges that have impeded progress, first, 
it is unclear what government entity is in charge, what the 
Government's role should be, and when it should get involved.  
Expanding on each of these: DHS's National Cybersecurity Division 
and the National Communications System have overlapping 
responsibilities.  In addition, there is lack of consensus about 
the role that DHS should play.  The Government is pursuing large 
scale plans with the NIPP and the National Response Plan, while 
the private sector wants more of an assist or tactical role from 
the Government that our report lays out in detail.  Finally, 
triggers that clarify when the Federal government should get 
involved are unclear. 
	Second, our Nation is working in a legal framework that 
doesn't specifically address the Government's role and 
responsibilities in the event of an Internet disruption.  In 
addition, the Katrina recovery efforts showed that the Stafford 
Act can create a roadblock when for-profit companies that own and 
operate critical infrastructure need Federal assistance during 
national emergencies. 
	Third, the private sector is reluctant to share information 
with DHS because it does not see value in sharing, does not 
necessarily trust the Government, and views DHS as an organization 
lacking effective leadership.  
	To address these inadequacies, my statement includes nine 
specific recommendations to DHS, including determining who should 
be in charge, given the convergence of voice and data 
communications, developing a plan that is consistent with what 
the private sector infrastructure owners need during a time of 
crisis, and incorporating lessons learned from incidents and 
exercises. 
	In summary, Chairman Upton, exercises to date in a recently 
issued report by the Business Roundtable found that both the 
Government and the private sector are poorly prepared to effectively 
respond to cyber events.  Although DHS has various initiatives 
underway, these need to be better coordinated and driven to 
closure.  Until this happens, the credibility of the Department 
will not be where it needs to be to build effective public/private 
relationships needed to effectively respond to major Internet 
disruptions. 
	This concludes my statement.  I would be pleased to respond 
to any questions. 
	[The prepared statement of David A. Powner follows:] 

PREPARED STATEMENT OF DAVID A. POWNER, DIRECTOR, INFORMATION 
TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE 

	MR. UPTON.  Thank you. 
	Mr. Foresman.
	MR. FORESMAN.  Mr. Chairman, Ranking Member Markey, and 
members of the subcommittee, thank you for the opportunity to appear 
today to discuss cyber and telecommunication security.  You have 
my written statement and I offer it for the record. 
	I would like to briefly highlight several points. 
	First, there has been much discussion about the Department's 
ability to find and hire a qualified individual to serve as the 
Assistant Secretary for Cyber and Telecommunications Security.  I 
want to be very clear.  This has been and remains a top priority 
for the Department.  We are in the final stages of a security 
process review for a candidate that we feel is very well qualified.  
We look forward to announcing the candidate with Congress very soon. 
I am confident this individual will continue to build on the progress 
that is being made every day in our cyber and telecommunications 
security efforts. 
	Second, today, the Department is releasing its After Action 
report from our recent government private sector national and 
international cybersecurity exercise, Cyber Storm.  This report 
will measurably advance refinements to operational protocols.  Its 
lessons will not simply be documented, they will be implemented. 
	Third, telecommunication networks and information technology 
activities are both mutually dependent and interdependent, and they 
have converged.  By the end of this year, we will complete our 
efforts to collocate together the U.S. Computer Emergency Readiness 
Team and the National Coordination Center for Telecommunications to 
improve operational coordination.  This means better coordination 
among all levels of government, better and stronger relationships 
between government, and the private sector during threats and actual 
events.  
	Secretary Chertoff said last week in his speech that reflected 
on five years since 9/11 the way to protect the critical 
infrastructure is "in partnership with Federal, State, and local 
officials, and with the private sector folks who actually own the 
things that we are trying to protect."  This collaboration is key 
to our approach to protecting telecommunications and the Nation's 
cyber infrastructures.  
	Last month, our cybersecurity experts worked quietly with 
their counterparts at Microsoft to address a critical software 
vulnerability.  Microsoft was competent in their partnership with 
DHS and quickly brought the vulnerability to our attention.  While 
Microsoft worked over several weeks to develop a patch, our U.S. 
cert was quietly and effectively monitoring Internet activity to 
ensure the vulnerabilities were not being exploited.  At the same 
time, the Department was working domestically and internationally 
and with our private sector partners to mitigate terrorist threats 
associated with the British airline plot.  These concurrent actions 
are two of many examples of the day-to-day public/private sector 
activity taking place in the Department's preparedness efforts. 
	Maintaining these types of collaborations remains, as you 
know, a multi-dimensional challenge.  From personal computers in 
homes, to vast networks, to control systems, to the Internet, 
cyber and telecommunications security presents enormous challenges. 
 These challenges are obvious: prioritizing our work, partnering 
for effective collaboration, balancing security and economic 
considerations, and most notably, increasing the understanding. 
	The other witnesses today will add clarity to these points 
from varying perspectives, but I think it is safe to say there is 
no one before you today that does not share the belief that 
protecting America's cyber and telecommunications systems is as 
critical to national security as it is to citizens' security.  I 
want to be clear.  Progress is being made every day, and there is 
more to be done.  Mr. Chairman and members of the committee, as 
you well know, the security of America's cyber and 
telecommunications systems do not lend themselves to surrounding 
one building with heavily armed police officers or simply mandating 
an action and we will be safe.  Simply put, there is no magic bullet. 
	The success of our national cyber and telecommunications 
security efforts depends on unity of purpose and continuing 
public/private sector collaboration.  This is serious business and 
we at the Department are serious about the business.  We look 
forward to continuing discussions with this committee, with the 
Congress on the wide range of policy issues that we must confront 
together if we are going to measurably advance our efforts to 
secure the Nation's cyber assets and its telecommunications 
assets. 
	Thank you, and I look forward to your questions. 
	[The prepared statement of Hon. George W. Foresman 
follows:] 

PREPARED STATEMENT OF THE HON. GEORGE W. FORESMAN, UNDER SECRETARY 
OF PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY 

	Good morning, Mr. Chairman and Members of the Subcommittee.  
Thank you for inviting me to speak about cyber security and the 
recovery and reconstitution of critical networks. 
	Our Nation's communications and information infrastructure 
will support profound improvements in the security of our homeland 
in the next 20 years.  States, communities, and our private sector 
partners are already finding innovative ways to prevent terrorism 
and protect critical infrastructure by leveraging information 
technology.  As I outline further below, the Federal government 
is similarly deploying innovative programs that significantly raise 
the level of preparedness in this critical area. 
	Our vision and philosophy for the future build upon 
accomplishments of the past several years - critical infrastructure 
businesses, home users, and government at all levels have a greater 
understanding of the threat posed by malicious software. The 
communications and information technology sectors have deployed new 
tools to help these constituents manage cyber risks. 
	However, at the core of our vision and philosophy is a strong 
belief that the Department of Homeland Security (DHS) must 
increasingly guard against more virulent attacks and cyber 
disruptions - whether caused by a terrorist attack or natural 
disaster. We must prevent cyber incidents of national significance. 
	In this testimony, I will outline three strategic goals to 
execute this vision, and examples of current and future programs 
 that will move us forward to these objectives. 


Assistant Secretary for Cyber Security and Telecommunications 
	As a preliminary matter, allow me to outline the steps the 
Department is currently taking while working with the White House to 
actively pursue qualified candidates for the post of Assistant 
Secretary for Cyber Security and Telecommunications.  I am 
personally engaged in the process of selecting the new Assistant 
Secretary and, in the interim, am providing program direction 
pending the post being filled permanently.  Because of the 
importance of this mission, all parties want to ensure that the 
individual appointed to this position possesses the right 
combination of skills, experience, and leadership necessary to 
succeed.  
	To supplement my own personal involvement in strategy, the 
Assistant Secretary for Infrastructure Protection has been serving 
as the Acting Assistant Secretary for Cyber Security and 
Telecommunications.  As such, he has been actively engaged in 
overseeing operational programs, program reviews, governance 
structure, and has participated in government/industry forums to 
further the advancement of this important new office as well as 
the strategic goals that I will outline shortly. 
	Regardless of when this position is filled, the mission 
of the Department of Homeland Security (DHS), the National Cyber 
Security Division (NCSD), and the National Communications System 
(NCS) remain clear. The absence of a permanent Assistant Secretary 
for Cyber Security and Telecommunication has not had an impact on 
NCSD's or NCS's critically important work.  

Strategic Vision and Philosophy 
	Our vision and philosophy for cyber security and recovery 
reflects the expanding importance of our communications and 
information infrastructure in all walks of life.  As you know, a 
failure to consider and deploy effective strategies could adversely 
affect homeland and national security, public health and welfare, 
and our economic security.  Policies that advance a safe and 
secure communications infrastructure promote public trust and 
confidence, project stability to those who wish us harm, and 
foster valuable relationships between the public and private 
sectors. 
	We fully recognize the challenges inherent in our 
preparedness responsibilities.  We are faced with difficult 
choices and options.  We must think about risks to the 
communications and information infrastructure in new and creative 
ways.  We must prioritize resources, and make hard decisions where 
resources are limited. 
	We must also continue to partner strategically with the 
communications and information technology sectors as well as other 
experts outside of the Federal government.  As we focus on the 
potential for catastrophic cyber disasters, our partnerships are 
becoming more diverse and sophisticated, reflecting the different 
technology, business, and policy decisions that must be made.  
These partnerships also entail strengthening cooperation across the 
government and, at a minimum, finding ways to cultivate support 
outside of the Department where expertise clearly exists.  Whether 
public or private, the partnerships must deliver real and measurable 
value in light of the catastrophic damages that can occur in the 
absence of smart collaboration.  
	Finally, we must reinforce a culture of preparedness and 
increasingly shift from a reactive to a proactive stance.  In sum, 
we must prepare by promoting effective security strategies that 
evolve as the threat evolves.  

Three Strategic Goals 
	In responding to these challenges, the Preparedness 
Directorate is executing three strategic priorities.  (1) We are 
preparing for cyber incident of national significance; (2) we are 
working to forge more effective partnerships; and (3) we are working 
to foster a culture of preparedness to prevent cyber incidents 
and mitigate damage when disruptions occur. 

 First, we must prepare for a large scale cyber disaster. 
	Our primary strategic goal is to prepare for high-consequence 
incidents. These would include, for example, a widespread disruption 
involving the Internet or critical communications infrastructure, 
whether from an attack or natural disaster. 
	Now, as the Department matures we are preparing for large 
scale cyber disasters. Our strategic intentions are ambitious and 
will require resolution of multiple impediments, such as: 
 Identifying incidents and providing early warning;  
 Deploying Federal assets and services more efficiently to mitigate 
damages where disruptions occur; 
 Responding to the speed of attacks and disruptions, which will 
require new technologies and skill sets in our workforce; and 
 Maximizing the use of tools that promote and integrate privacy 
protections as well as real-time security needs. 

	The Preparedness Directorate has several important programs 
already underway to prepare for a cyber incident of national 
significance.  The Office of Cyber Security and Telecommunications 
has established an Internet Disruption Working Group (IDWG) to 
address the resiliency and recovery of Internet functions in the 
event of a major cyber incident.  The IDWG is not examining all 
risks, but is focusing on and identifying measures that government 
and its stakeholders can take to protect against nationally 
significant Internet disruptions.    
	These proposed measures may yield heightened expectations, 
roles, and responsibilities for the United States Computer Emergency 
Readiness Team (US-CERT). 

 Second, we must continue to forge more effective partnership 
arrangements.  
 Our second strategic goal is to improve the Department's 
partnership programs and practices.  Homeland Security Presidential 
Directive 7, the Administration's policy on critical 
infrastructure protection, explicitly   recognizes the importance 
of partnerships, which are essential for many sound reasons.  In 
the cyber security arena, the Department is working to nurture 
existing partnerships and establish new relationships with three 
key stakeholder communities: (1) the private sector; (2) Federal 
departments and agencies and State, local, and tribal governments; 
and (3) academia.
	Private Sector Partnerships.  Industry owns, operates, and 
controls the bulk of the communications and information 
infrastructure, so collaborating with industry to prepare for and 
respond to catastrophic cyber disasters is a strategic priority.  
	In "The Federal Response to Hurricane Katrina: Lessons 
Learned," the White House pinpointed specific problems experienced 
by infrastructure owners in restoring communications services.  
The report additionally described interdependencies between the 
critical infrastructure sectors, such as energy and transportation, 
that impact restoration of communications services. Our vision for 
the future, and emphasis on close collaboration with the private 
sector, follows directly from these lessons learned. 
	In our partnerships, the government must deliver real 
value to our private sector partners, who are clearly committed 
to a collaborative approach.  Smart, effective partnerships demand 
that we: 
 Understand how the private sector will prepare for and respond to 
cyber disasters - and where the government can complement industry 
practices; 
 Leverage state of the art technologies to improve preparedness and 
response and sustain privacy protections; 
 Promote pools of knowledge and subject matter expertise for 
reconstituting communications and information infrastructure; and 
 Ensure close coordination of Preparedness Directorate functions, 
such as those provided by NCSD and NCS, 
   Government Partnerships. The Department is similarly committed to 
enhancing partnership arrangements across the Federal government and 
with State, local, and tribal governments.  We will continue to 
explore innovative ways to leverage skill sets outside of the 
Department as part of our strategy for cyber-preparedness and 
response. We currently partner with Multi-State Information Sharing 
and Analysis Center (MS-ISAC), as well a key operational 
information technology and communications officials in the states, 
and we are strengthening those partnerships for recovery and 
reconstitution efforts. 
	Partnerships with Academia.  The Department is serious 
about partnering aggressively with experts in academia. To date, 
the Department has included academia in partnership discussions; 
however, in order to lay a foundation for more effective cyber 
response capability, we must seek guidance from academia on a range 
of more complex problems.  As an example, we expect to learn more 
from academia on such matters as challenges with insurance and 
risk transfer for the critical infrastructure sectors as well as 
business case arguments for catastrophic preparedness. These areas 
promote public and private sector collaboration.   

Third, we must create a culture of preparedness - both to prevent a 
cyber disaster and to mitigate damages if widespread disruptions 
occur. 
	Our third and final strategic goal seeks to influence how we 
prepare for security challenges in the coming decade. As with our 
other strategic priorities, this goal demands a focused and 
disciplined approach in several areas. At a minimum, we are 
structuring programs to: 
  Clearly outline preparedness organizations, relationships, and 
expectations:  One of the Preparedness Directorate's strategic 
priorities is to clearly set forth all aspects of "doctrine" in 
accordance with legislative and Presidential direction. To create a 
long-term culture of preparedness, we are developing clear 
organizational doctrine, which memorializes strategic policies, 
clarifies roles and responsibilities, and defines measures of 
accountability. 
 Promote a shared way of life that measurably improves preparedness 
for a catastrophic cyber disaster: Finally, we are focusing our 
energies on cyber-preparedness. Our programs in the coming years 
will seek to inculcate to change behavior as we continue to leverage 
our government partners to help continue efforts in these other 
areas.   Awareness and education in the past decade have focused 
on large segments of the population, including home users and 
students in K-12. We hope to develop additional awareness programs 
that look more carefully at catastrophic cyber risk and continue to 
leverage our government partners to help advance our efforts in 
these other areas.  

Organizational Framework  
	The three strategic goals outlined above will require clear 
 organizational directions and programs. 
	HSPD-7 directs the Department to establish an organization 
dedicated to cyber security.  The Preparedness Directorate's 
National Cyber Security Division (NCSD) has been that organization 
since it was created in June 2003.  Since its inception, the NCSD 
has taken on the broad mandate of HSPD-7 and those provided in the 
President's National Strategy to Secure Cyberspace, in its mission 
to work collaboratively with private, public and international 
entities to secure cyberspace and America's cyber assets. 
	The NCSD is just one of the valuable preparedness resources 
within the Department. As part of the Preparedness Directorate, the 
NCSD works closely with the Office of the Manager of the National 
Communications System (NCS), which addresses national security and 
emergency preparedness (NS/EP) telecommunications.  These two 
entities comprise what is now the Office of Cyber Security and 
Telecommunications. The Office of Cyber Security and 
Telecommunications works closely with the Office of Infrastructure 
Protection to ensure that the ever increasing interconnected nature 
of physical and cyber security is integrated throughout our 
overall preparedness efforts. 
	The National Communications System consists of 23 Federal 
departments and agencies with assets, resources, requirements 
and/or regulatory authority regarding national security and 
emergency preparedness (NS/EP) communications.  Established 
pursuant to Executive Order 12472, the community is administered 
by DHS as Executive Agent and Manager and it supports the Executive 
Office of the President (the National Security Council, the Homeland 
Security Council, the Director of the Office of Science and 
Technology Policy and the Director of the Office of Management and 
Budget) in the coordination of the planning for and provision of 
national security and emergency preparedness communications for 
the Federal government under all circumstances, including crisis 
or emergency, attack, recovery and reconstitution. 
	Executive Order 12472 also mandates inclusion of an 
industry component, the National Coordinating Center (NCC) for 
Telecommunications, or NCC Watch, a joint industry/Government body 
operating a 24 hour, 7-day a week watch center to coordinate NS/EP 
communications activities.  The NCC Watch has a unique relationship 
with members of the private telecommunications sector in the 
Communications Information Sharing and Analysis Center (ISAC).  
The Communications ISAC provides an opportunity for private sector 
industry to partner with government to exchange information and 
coordinate restoration of communications assets and services 
during emergencies.  In this role, the NCC Watch communicates 
daily and shares a web-portal with NCSD (US-CERT) on cyber related 
issues.    
	To meet its mission, the NCSD is focused on leading a cyber 
risk management program, and building and enhancing the National 
Cyberspace Response System.  To address these priorities, the NCSD 
is engaged in a public-private partnership which is incorporated 
into all of NCSD's programs.  This is especially critical since 
the vast majority of our national assets and critical infrastructure 
are owned and operated by the private sector.   

National Cyber Risk Management Program 
	The National Cyber Risk Management Program reflects the 
Department's overall strategic approach that is focused on risk 
management, as outlined in the National Infrastructure Protection 
Plan (NIPP).  The NIPP incorporates the Department's overall risk 
management framework to assess and reduce our cyber risk, and 
improve our planning for response, recovery, and reconstitution 
of our critical networks.  
 The Department released the NIPP on June 30 of this year after 
consultation with industry.  The NIPP formalizes the collaboration 
between government and industry through the Sector Partnership Model 
with Sector Coordinating Councils (SCC) and Government Coordinating 
Councils (GCC) working together to address risk by analyzing 
consequences, vulnerabilities, and threats.  
* The NIPP provides a unifying structure for protection of the 
Nation's 17 critical infrastructure and key resources (CI/KR) 
sectors designated in HSPD-7, including the Information Technology 
Sector and the Internet.  The NIPP calls upon each sector to develop 
a Sector Specific Plan based on the risk management framework.  DHS 
is the Sector Specific Agency (SSA) responsible for both the 
Information Technology Sector and the Communications Sector, and 
assists other sectors with the cyber elements of their 
infrastructure.  The NCSD works closely with the IT Sector 
Coordinating Council, which was formally launched in January of 
this year.  The IT-SCC and IT-GCC are working together on the IT 
Sector Specific Plan, which will be completed at the end of the 
year.  
 In order to accomplish the risk management objectives of the NIPP, 
we have been working closely with the private sector to build the 
framework required.  To facilitate the development of this 
partnership, the Department has established the Critical 
Infrastructure Partnership Advisory Council (CIPAC). The CIPAC 
comprises representatives from each of the critical infrastructure 
and key resources (CI/KR), sectors, SCCs, and GCCs, and provides a 
mechanism for the information exchange and collaboration between 
industry and government that is so crucial to understanding the 
risk we face. The Council also prioritizes the protective 
measures that need to be taken to reduce that risk. 

	As we develop the IT Sector Specific Plan and deepen our 
collective understanding of the cyber risks in other sectors, we 
are building the foundation for the development of a national cyber 
risk assessment.  Working with our government and private sector 
partners, we are taking steps, such as developing attack scenarios 
and conducting red cell workshops and exercises, to identify what 
we are most concerned about in cyberspace, and then using that 
information to build our response and mitigation plans.  As part 
of our risk management efforts, we have three priority mitigation 
programs. 
	First, as discussed above, the Office of Cyber Security 
and Telecommunications has established an IDWG to address the 
resiliency and recovery of Internet functions in the event of a 
major cyber incident.  The IDWG is working with government, private 
sector, academic and international security experts to examine 
risks, improve preparedness and situational awareness, and identify 
measures that we can take to protect against nationally significant 
Internet disruptions.  The IDWG conducted a tabletop exercise in 
June to examine the kinds of scenarios that would have significant 
impact on the Internet, understand when information exchange between 
the public and private sector is mutually beneficial, and to 
determine what roles and responsibilities industry and government 
should assume in responding to and recovering from such disruptions. 

	Second, the NCSD is collaborating with the national 
laboratories for its Control Systems Security Program to bring 
together government, industry, and academia to address the threats 
and vulnerabilities of the process control systems that remotely 
operate and control access to many of our critical infrastructure 
assets and systems.  To support the Program, NCSD has established a 
US-CERT Control Systems Security Center, which is an assessment and 
incident response facility located at Idaho National Laboratory.  
The department also partners with the industry sectors that utilize 
process control systems in their operations through the Process 
Control Systems Forum, or "PCSF".  The PCSF met recently in San 
Diego and furthered its work to accelerate the security of control 
systems, provide a venue for sharing perspectives on cross-sector 
security issues, and facilitate solution-driven collaborative 
workshops.  
	Through the Process Control Systems Forum (PCSF), the 
Department also partners with the industry sectors that utilize 
process control systems in their operations.  The PCSF met recently 
in San Diego and furthered its work to accelerate the security of 
control systems, provide a venue for sharing perspectives on 
cross-sector security issues, and facilitate solution-driven 
collaborative workshops.  
	The third risk mitigation effort is NCSD's Software 
Assurance Program that seeks to reduce software vulnerabilities, 
minimize exploitation, and address ways to improve the routine 
development of trustworthy software products and tools to analyze 
systems for hidden vulnerabilities. In collaboration with 
industry, academia, and government partners, the Department's 
approach to addressing software assurance identifies the following 
as keys to success: 
 People - education and training for developers and users 
 Processes - practical guidelines and best practices for the 
development of secure software 
 Technology - tools for evaluating software vulnerabilities and 
quality 
 Acquisition - specifications and guidelines for acquisition and 
outsourcing 
	To further its efforts, the Software Assurance Program holds 
semi-annual Software Assurance Forums with other Federal agencies, 
industry, academia, and international entities to facilitate 
ongoing collaboration and progress. As part of the program, NCSD has 
launched "Build Security In" to raise awareness and foster 
collaborative efforts. 
	The Office of Management and Budget (OMB) has recently 
designated NCSD as the Managing Agency for the Information Systems 
Security Line of Business.  As part of NCSD's work with the Federal 
government, NCSD is currently working to establish a Program 
Management Office for this government-wide initiative which has 
an overarching goal of improving the effectiveness and consistency 
of systems security across the Federal enterprise.  This effort will 
reduce costs through consolidation and standardization of resources. 
DHS will be working closely with partner agencies in overseeing 
the implementation of information systems security products and 
services. 
In order to reduce our collective cyber risk we need to raise 
awareness of cyber security vulnerabilities and understand what we 
must do as individuals to create a collective, shared secure cyber 
infrastructure. 
	NCSD's awareness program leverages partnerships with the 
Multi-State Information Sharing and Analysis Center (MS-ISAC) and 
the National Cyber Security Alliance (NCSA), as well as our own 
National Cyber Alert System to reach state and local governments, 
small businesses, home users, and K-12 and higher education 
audiences. October is National Cyber Security Awareness Month.  
In October 2005, together with our state government and industry 
partners, we reached millions of Americans with a public service 
announcement, a satellite media tour on how to avoid identity 
theft in cyberspace, a national cyber awareness webcast for fourth 
and fifth graders, and many other activities.  We look forward to 
making this year's campaign even more successful.  
	Cyber space is borderless, and as such, managing cyber risk 
needs to take into account international activities.  NCSD has an 
international affairs program that seeks to address cyber security 
globally through cooperation and collaborative action toward 
building and leveraging the relationships needed to prevent, protect 
against, respond to and recover from cyber incidents and reduce 
overall cyber risk.  

National Cyberspace Security Response System 
	There are three elements to the National Cyberspace Security 
Response System: the U.S. Computer Emergency Readiness Team 
Operations, or "US-CERT Ops"; the National Cyber Response 
Coordination Group, or "NCRCG"; and our regional preparedness and 
recovery efforts. 
	The first key element, US-CERT, was established in 2003 
as a partnership between the Department and the public and private 
sectors to protect the nation's critical infrastructure and 
coordinate defense against and responses to cyber attacks.  The 
US-CERT public website, http://www.us-cert.gov, the secure portal 
for stakeholders, and the National Cyber Security Alert System, 
provide timely, actionable information to technical and 
non-technical users.  We encourage each of you to sign up for 
the US-CERT cyber alerts by going to http://www.us-cert.gov.  
	NCSD/US-CERT has an Operations component, which manages 
many aspects of the Cyberspace Security Response System, including 
situational awareness, incident handling and response, malicious 
code analysis, and strategic operations.  Under Federal Information 
Security Management Act guidelines, OMB requires all Federal 
civilian agencies to notify US-CERT of any data breaches, 
unauthorized access, or suspicious activity, including the loss 
of personally identifiable information within one hour of discovery.  
	US-CERT maintains a 24x7 secure Watch center; acts as a 
trusted third party to assist in the responsible disclosure of 
vulnerabilities; develops and participates in regional, national, 
and international level exercises; supports forensic investigations 
with recursive analysis on artifacts; provides malware (software 
that is designed to infiltrate or damage a computer system, without 
the owner knowing) analytic and recovery support for government 
agencies; coordinates Federal programs of computer emergency 
response teams and Chief Information Security Officer peer groups 
for sharing cyber incident information, best practices, and other 
cyber security information; and, collaborates with national and 
international computer security incident response teams both in 
the US and abroad.  US-CERT's efforts in these and additional 
areas build our cyber situational awareness capabilities that allow 
us to prepare for and defend against cyber attacks, while also 
enhancing our ability to respond to the attacks. 
	US-CERT has established the Government Forum of Incident 
First Response Teams (GFIRST), a community of Federal agency 
incident response teams, which comprises the government's critical 
group of cyber first responders.  GFIRST meets regularly, and we 
have hosted two GFIRST conferences to enhance information sharing 
and collaborative efforts to secure government cyberspace.  
US-CERT provides an Internet Health Service tool to GFIRST members 
through the US-CERT secure portal.  IHS is a web-based application 
that provides members with access to several commercially available 
Internet and security products for use in building their situational 
awareness capabilities through the monitoring of their respective 
networks and the overall health of the Internet.  In addition, as 
part of our Situational Awareness Program, US-CERT also leverages 
information technology for the automated sharing of critical 
information across the Federal government and analysis of traffic 
patterns and behavior.  
	US-CERT has developed a set of informational resources 
that it provides to our public and private sector stakeholders, 
including alerts, vulnerability notices, current activity 
reports, Federal Information Notices provided to the GFIRST 
community and Critical Infrastructure Information Notices provided 
to the private sector Information Sharing and Analysis Centers.  
In addition, US-CERT runs the National Cyber Alert System and the 
public website reference above, which provide cyber security tips, 
guidance, and other resource materials to technical and 
non-technical audiences. 
	The second key element of the National Cyberspace Security 
Response System is the National Cyber Response Coordination Group, 
or "NCRCG".  NCSD co-chairs the NCRCG with its counterparts in the 
Department of Justice and the Department of Defense.  The NCRCG 
includes 13 agencies with responsibility for and capabilities in 
cyber security matters and works to coordinate national response 
activities to incidents of national significance. The NCRCG meets 
monthly to prepare for cyber issues through tabletop exercises and 
working groups. 
	In addition to the IDWG's efforts and US-CERT Operations 
incident handling and analysis functions, the NRP's Emergency 
Support Function 2 (ESF-2) for Communications, led by NCS, is a 
critical component of advanced planning and ensuring coordinated 
recovery efforts.  When ESF- 2 is activated, the Manager of the 
NCS ensures appropriate NS/EP communications support to operations 
conducted under the NRP.  As part of ESF-2, NCSD works closely 
with NCS on preparing for recovery and reconstitution of 
critical communications networks and services.  In preparation for 
this year's hurricane season, we have held ESF-2 training and 
exercise sessions with participation by many Federal agencies and 
organizations.  We have created and published an ESF-2 Operational 
Plan and a Standard Operating Plan for ESF- 2 supporting agencies 
to enhance understanding across the spectrum of public and private 
sector entities that participate in recovery and reconstitution 
efforts.  We have hired two Regional Communications Coordinators 
for Federal Regions IV and VI communications pre planning with 
state emergency planners.  The NCS has also created more analytical 
tools for predictive and post-impact analysis. 
	One of the critical parts of ESF-2 is a management function 
to coordinate and facilitate the handling of private sector 
donations for recovery and reconstitution efforts in the immediate 
aftermath of a disaster such as Hurricane Katrina.  We are working 
with our private sector stakeholders and state and local government 
partners to establish a set of requirements for such donations in 
order to match those needs with the products and services 
available.  
	The third key element of the National Cyberspace Security 
Response System is our regional preparedness and recovery efforts. 
Our regional efforts have greatly improved DHS's ability to 
incorporate the work of our government and private sector 
stakeholders at both the state and local levels.   The Pacific 
Northwest Economic Region and the Gulf Coast Region are 
increasingly coordinating their efforts as a result of exercises 
held in the respective regions, and we are working with them to 
continue their preparedness planning for both cyber security 
events, and manmade or natural disasters that have a cyber 
impact.  In addition, we are working with our industry stakeholders 
in the IT-SCC and IT Information Sharing and Analysis Center) to 
develop plans for industry assistance in the event of an 
incident that requires surge support to recover and reconstitute 
critical IT systems.  These efforts depend greatly on our 
partnerships with the full spectrum of affected industries, 
state and local government stakeholders, and the emergency 
response community. 

Recent Success Stories 
	I would like to take this opportunity to highlight two 
recent success stories in our comprehensive cyber security 
efforts.  First, we conducted the first National Cyber Exercise 
organized and sponsored by the Federal government.  Conducted in 
February 2006, "Cyber Storm" was the largest multinational, 
cross-sector cyber exercise to date and assessed policies and 
procedures associated with a cyber-related incident of national 
significance, as outlined in the National Response Plan's Cyber 
Annex.  The exercise tested, for the first time, the full range 
of cyber-related response policy, procedures, and communications 
methods required in a real world crisis.  
	Cyber Storm exercised the responses of over 100 public and 
private agencies, associations, and corporations in over 60 
locations and five countries.  It achieved collaboration in crisis 
response at operational, policy, and public affairs levels, 
including participation of more than 30 private sector corporations 
and associations in the planning, executing, and after action 
analysis of a federally funded and congressionally mandated 
emergency response exercise. As mentioned earlier, Cyber Storm 
exercised the NCRCG as the principal Federal mechanism for 
coordinating the national response to a cyber incident of national 
significance. Cyber Storm demonstrated the close cooperation and 
information sharing needs across Federal agencies, across 
boundaries, and between the public and private sectors.  
	First, the exercise reinforced the importance of defining 
roles and responsibilities, processes and procedures and having 
strong communications and coordination among the cyber community.  
In addition, it highlighted the importance of coordinating and 
integrating incident communications and public affairs outreach.  
Unlike a physical, self-announcing incident, a set of cyber attacks 
such as those imagined in the Cyber Storm scenario are not 
immediately apparent, either in occurrence or attribution.  The 
correlation of multiple incidents proved challenging for our 
players, and only further demonstrated the importance of 
public-private relationships and the need to provide on-going 
training activities, discussions, and exercises to further build 
those relationships to strengthen our collective response to a 
cyber incident. 
	A second accomplishment falls in the international arena.  
At the end of June, we successfully hosted here in Washington 
the second multilateral conference on the development of an 
International Watch and Warning Network, or "IWWN", among 15 
countries in the Americas, Europe, and Asia Pacific.  The country 
participants included representatives from their government 
critical information infrastructure protection organizations, 
their computer security incident response teams, and their law 
enforcement agencies with responsibility for cyber crime. The 
IWWN was established in 2004 to foster international 
collaboration on addressing cyber threats, attacks, and 
vulnerabilities.  The June conference established a clear path 
forward for the IWWN community to enhance global cyber 
situational awareness and incident response capabilities and 
marked the launch of a secure Internet portal to facilitate 
ongoing international information sharing as well as coordination 
during cyber incidents. 
	
The Road Ahead 
	As we further develop our programs and leverage our recent 
successes, there are some efforts we need to undertake in the near 
term with our industry and agency partners to better prepare 
ourselves to respond to, and recover from, cyber incidents. These 
efforts include, but are not limited to: 
 Further integration of the cyber security and telecommunications 
efforts in the Department and with industry to reflect increasing 
convergence in the sectors; 
 Clearer articulation of roles and responsibilities in the 
public-private partnership for information sharing and incident 
response through coordinated concept of operations and standard 
operating procedures; 
 Development of the IT Sector Specific Plan in the NIPP risk 
management framework; 
 Development of a national cyber risk assessment based upon the 
cross sector cyber component of the NIPP risk management framework; 
 Share aggregated situational awareness across the civilian 
agencies, the military, the international community, and the private 
sector; and 
 Further collaboration between US-CERT Operations and the Department 
of Defense's Joint Task Force-Global Network Operations to leverage 
our respective expertise and capabilities toward common cyber 
security objectives. 

	These action plans have defined benchmarks and milestones to 
drive and track our progress in each of these areas. 

Conclusion 
	The National Cyber Security Division has established its 
mission and priority objectives, developed a strategic plan, and 
undertaken significant steps to implement its strategic plan across 
the programs outlined here.  In this ever-evolving environment, we 
know that the target will shift to accommodate new threats, new 
vulnerabilities, and new technologies.  We need to be flexible enough 
to adjust our efforts to meet these new challenges.  
	Our progress to date is tangible: we have a construct for 
public-private partnership; we have a track record of success in our 
cyber operations; we have established relationships at various 
levels to manage cyber incidents; we have built international 
communities of interest to address a global problem; and we have 
tested ourselves at a critical development stage and will continue 
to examine our internal policies, procedures, and communications 
paths in future exercises.  We are building on each of these 
achievements to take further steps to increase our cyber 
preparedness and improve our response and recovery capabilities. 
	I would like to thank the Subcommittee for its time today 
and I appreciate this opportunity to bring further transparency 
to these important cyber security priorities. 

	MR. UPTON.  Mr. Moran. 
	MR. MORAN.  Thank you.  Good morning, Chairman Upton, 
Mr. Markey, and distinguished members of the subcommittee.  My name 
is Ken Moran.  I serve as the Director of the Federal 
Communications Commission's Office of Homeland Security.  In that 
role, I am responsible for coordinating the Commission's policies 
and activities with respect to homeland security and emergency 
preparedness. 
	The importance of effective communications cannot be 
overstated, especially during emergencies.  The attacks of 
September 11 and the unprecedented devastation caused by Hurricane 
Katrina remind us to be prepared for both natural and manmade 
disasters.  Effective response to a disaster, regardless of its 
cause or lack of advanced notice, is tied to the ability of first 
responders and commanding control authorities and the public to 
communicate.  Immediate, secure, and reliable communications are 
needed across all platforms. 
	Today, I am testifying about the Network Reliability 
and Interoperability Council, known as the NRIC, a Federal advisory 
committee chartered by the Commission.  I will also share some of 
the lessons the Commission learned from its experiences in dealing 
with Hurricanes Katrina, Rita, and Wilma.  
	This subcommittee's attention to cybersecurity issues comes 
at an important time in the development of broadband and IP-based 
networks.  Communications traffic is increasingly migrating to 
these high speed packet based technologies.  With the rollout of 
these technologies, we are seeing a network security environment 
very different from that of public switch telephone network, or 
PSTN.  Unlike the PSTN, Internet based communications systems 
are decentralized and far more open.  As a result, they present 
new and difficult challenges in order to deliver the expected high 
level of reliability and security. 
	The Network Reliability and Interoperability Council 
examines ways to improve and strengthen the Nation's critical 
communications networks.  NRIC members agree on best practices 
through a process of consensus and adopts solutions that are field 
tested.  In recent years, NRIC subject matter experts contributed 
thousands of hours in study and dialog that resulted the 
identification of best practices that address business continuity, 
physical security, and public safety communications.  In fact, over 
200 best practices address cybersecurity issues.  The Commission 
is actively promoting both the awareness and the implementation of 
these best practices. 
	Last fall, Hurricane Katrina caused an enormous amount of 
damage to the communications infrastructure.  The Commission 
chartered an independent committee called the Katrina Panel to 
analyze the impact that Katrina had on critical infrastructure to 
examine the overall recovery effort and to recommend ways for 
improvement.  In June of this year, the Katrina Panel completed 
its work and produced a report with a number of important 
recommendations.  The Commission subsequently released a notice 
seeking comment on these recommendations.  Here are a few. 
	The Federal Government should encourage and work with each 
communications sector to develop and publicize readiness checklists. 
State and local authorities should keep a reserve supply of 
communications equipment, including IP gateways, for quick 
restoration in communications functionality.  The FCC should serve 
as the single point of contact within the Federal Government for 
communications data collection.  The FCC should work with the 
Department of Homeland Security and the Congress to improve the 
credentialing processes and have critical infrastructure providers 
treated as emergency responders under the Stafford Act. 
	In large measure, the functioning of the Internet is 
dependent on communications networks that carry packet-based 
information through both wired and wireless systems.  These 
communication networks support e-commerce measured in billions of 
dollars per year.  They enable many new communications applications, 
including the use of voice over the Internet, and they help first 
responders use IP solutions for interoperability.  
	The Commission is actively engaged in promoting the 
development of new technologies to ensure that robust, reliable, 
and readily restorable communications networks exist to lead our 
Nation into the future.  
	I would be pleased to answer your questions.  Thank you. 
	[The prepared statement of Kenneth P. Moran follows:] 

PREPARED STATEMENT OF KENNETH P. MORAN, DIRECTOR, OFFICE OF HOMELAND 
SECURITY, ENFORCEMENT BUREAU, FEDERAL COMMUNICATIONS COMMISSION 

	MR. UPTON.  Mr. Weafer.
	MR. WEAFER.  Mr. Chairman, Ranking Member Markey, 
distinguished members of the subcommittee, thank you for inviting me 
here today to testify about protecting our Nation's critical 
infrastructure from cyber attacks.  My name is Vince Weafer and 
I'm the Senior Director of Symantec Corporation.  
	I commend the committee for bringing attention to this 
critical issue of the threat of potential cyber attacks against our 
Nation's information infrastructure.  I would like to provide you 
with the current assessment of the vulnerabilities of our Nation's 
critical infrastructure and share with you some insights of how 
cyber crime is undermining consumer trust and confidence in using 
the Internet for commerce. 
	Before I turn to the substance of my testimony, I would 
like to provide some background on Symantec.  We are a local leader 
in information security.  Symantec provides solutions that assure 
security, availability, and integrity to our customer's 
information.  Headquartered in Cupertino, California, Symantec 
employs over 15,000 professionals and has operations in over 40 
countries. 
	I am responsible for Symantec's Security Response global 
research teams, whose research provides rapid response to the latest 
Internet security attacks.  Our global intelligence network consists 
of over 40,000 sensors monitoring the computer activity in over 180 
countries.  We operate four security operation centers worldwide, 
in the United States, here in Alexandria, England, Germany, and 
Australia.  Each provides preemptive managed protection to 
potential cyber threats 24/7.  In short, if there is a class of 
threat on the Internet, Symantec knows about it. 
	The important message regarding our Nation's cybersecurity 
landscape is that threats in our critical infrastructure are 
absolutely real, and without a doubt growing in intensity and 
volume.  The question is not if or when, but when will we be 
attacked; how severe will that attack be? 
	Today's cyber threat landscape has changed.  Internet 
attacks these days are not the large scale fast-moving virus or worm 
pandemics that we saw with frequency just a couple of years ago.  
Consider this:  from 2002 to 2004, there was almost 100 medium to 
high severity attacks.  Last year, there were only six, and this 
year, there have been none. 
	What happened? 
	Well, we have certainly made significant headway in 
containing these sort of threats, but the very nature of the risk we 
face has also changed.  Cyber crime is now the dominating security 
threat we are seeing today.  In the past, cyber attacks were largely 
designed to destroy data and gain notoriety, but today's attacks 
are increasingly designed to silently steal information for profit 
or advantage.  Fraud, intelligence gathering, and gaining access to 
vulnerable systems are the motivation behind today's attacks.  
	How do many of these threats arrive in the consumer's 
computer?  A lot do so through botnets, programs that provide 
attackers unauthorized and secret control of the computer.  Botnets 
are the engines that drive most of the criminal activity we see 
today, as their use distributes spam, phishing, malicious code, 
as well as storage for illegal material.  Many of these botnets are 
created on systems owned by home users, small businesses, and even 
some large corporations.  
	Symantec releases a biannual Internet security threat 
report, or ISTR, which includes a worldwide analysis of Internet 
attacks, which review known threats, vulnerabilities, and security 
risks.  The findings consistently reveal that a strong growth in 
cyber crime software built for the purpose of committing online 
scams, stealing information, bots, keystroke loggers, spyware, 
adware, and Trojan horses. 
	Attackers are not focusing just on GAN systems, but the 
exploitable web browsers and also on the weaknesses of Web servers 
and Web applications themselves.  Bots are contributing to the rise 
in cyber crime threats in the United States, having the highest 
percentage of bot commander control servers in the world.  There 
has been an increase in modular malicious code, which initially 
possesses limited functionality, but is designed to update itself 
with new, more damaging capabilities.  
	With all of these threats and vulnerabilities that exist 
on today's Internet, it is difficult to quantify the economic impact 
of cyber crime, but according to the cyber crime costs about $47 
billion to U.S. businesses last year.  A report by the Congressional 
Research Service also found that cyber attack targeted firms suffer 
stock price decrease of about 1 to 5 percent in the days after 
attack, which translates into shareholder loss of between $50 and 
$200 million. 
	Over the past year, more than 53 million records of 
Americans' private, personal information, an average of over 142,000 
times per day, have been hacked into, lost, stolen, or otherwise 
compromised from digital databases.  The cost of these breaches is 
astounding.  According to the Federal Trade Commission, identity 
thefts cost businesses annually $48 billion, and last year, 
consumers lost $680 million.  But more damaging than loss of money 
is a lost of trust and confidence by consumers in the Internet.  
That is why we can't risk losing the public's trust in online 
commerce, but we are.  According to a survey conducted by the 
Conference Board, 41 percent are purchasing less online because 
of security concerns, and a survey by the Cybersecurity Alliance 
found that 32 percent of respondents strongly believe their 
financial information gets stolen. 
	Congress can help fight cyber crime and cyber terrorism by 
investing in cyber safety education, awareness, increase funding 
for cyber R&D, passing strong national data breach law, extending 
international cyber crime law enforcement efforts, and requiring an 
Internet reconstitution plan for the U.S. government. 
	I would be happy to elaborate on these points and any 
questions the committee may have.  Thank you. 
	[The prepared statement of Vincent Weafer follows:] 

PREPARED STATEMENT OF VINCENT WEAFER, SENIOR DIRECTOR, SYMANTEC 
SECURITY RESPONSE, SYMANTEC CORPORATION 

Summary of Points for Vincent Weafer Testimony 

 It's vitally important that we pay attention to the threats to our 
nation's security including the clear and present danger of 
potential cyber attacks against our nation's information 
infrastructure. 
 An attack against the U.S. that combines both cyber and physical 
elements could be particularly devastating.  The threats to our 
critical infrastructure are absolutely real and, without a doubt, 
growing.  
 Cybercrime is the dominant security threat we're seeing today and 
there's been a marked increase in the use of "crimeware," or 
software used to conduct cybercrime. 
* Cybercrime is undermining consumer trust which in turn is eroding 
the publics' confidence in performing commerce over the Internet. 
There are economic consequences that cyber attacks are having on 
the U.S. economy. 
 The cyber threat landscape has changed.  In the past, cyber 
attacks were largely designed to destroy data or gain notoriety, but 
today's attacks are increasingly designed to silently steal data 
for profit or advantage, without leaving behind the system damage 
that would be noticeable. 
 Symantec's most recent Internet Security Threat Report (ISTR) found 
that the last 6 months have seen growth in attack trends, bot 
infections denial of service attacks, malicious code such as Trojans 
and phishing attacks. 
 Symantec's ISTR found that attackers are moving away from large, 
multiple purpose attacks against traditional security devices such 
as firewalls and routers. Instead, they are focusing their efforts 
on smaller regional businesses using combination of employee and 
end user desktops and Web applications to steal corporate, 
personal, financial, or confidential information. 
 Programs that provide attackers with unauthorized control of a 
computer, known as bots, also contribute to the rise in cybercrime 
threats. Symantec identified an average daily total of 57,717 
active bot network computers per day or a total of 4,696,903 
distinct active bot network computers over the six month period. 
In the first six months of 2006, the United States had the highest 
percentage of bot command-and-control servers with 42% of the 
worldwide total.  As a result of this fifty-eight percent of all 
spam detected worldwide originated in the United States 
 If we fail to create a trusted digital environment, we won't just 
slow the growth of e-business, but of all business.  And this is 
the real hidden threat today - not some massive cyber attack, but 
the loss of consumer confidence in the digital world. 
 It is difficult to quantify the economic impact of cyber crime but 
according to the FBI's 2005 Cyber Crime Survey cyber crime costs 
about $67 billion to U.S. firms over the last year.  
 The cost of these breaches, in terms of time and money, is 
astounding.  According to the Federal Trade Commission identity 
theft costs businesses $48 billion annually, and last year cost 
consumers $680 million in losses.  On top of that, identity theft 
victims collectively spent almost 300 million hours trying to 
repair damage.  
 In this country, we need one, national data-breach law.  The 
business community must join together with Congress to push for 
comprehensive privacy legislation.  
Overview
	Chairman Upton, Ranking Member Markey, distinguished members 
of the Subcommittee: Thank you for inviting me here today to testify 
about protecting our nation's critical infrastructure and the 
opportunity to provide you with an overview of the current cyber 
threat landscape.  My name is Vincent Weafer and I am the Senior 
Director of Security Response for Symantec Corporation.  
	I'd like to begin by commending the Subcommittee for 
bringing attention to this critical issue.  It's vitally important 
that we pay attention to the threats to our nation's security 
including the clear and present danger of potential cyber attacks 
against our nation's information infrastructure.  
	Our society's increasing dependence on computers means that 
the disruption of our networks whether due to nation-states, 
terrorists, criminals, or simply pranksters could seriously impair 
public safety, national security, economic prosperity and, more 
generally, our way of life. An attack against the information 
technology backbone of one of our nation's so-called critical 
infrastructures such as communications services, energy, financial 
services, manufacturing, water, transportation, health care, and 
emergency services could disrupt Americans physical and economic 
well-being and have a worldwide impact. An attack against the 
U.S. that combines both cyber and physical elements could be 
particularly devastating, such as a physical attack against a 
building combined with disruption of the telecommunications 
infrastructure needed to provide emergency services to the 
physically affected area. 
	Accordingly, I would like to devote my testimony today to 
two issues.  I would first like to provide this Subcommittee with 
Symantec's updated assessment of our nation's cyber security 
landscape and discuss the vulnerabilities of the U.S. 
information infrastructure to cyber attacks.  
	Second, I'd like to discuss the considerable negative impact 
that cybercrime is having on undermining consumer trust which in 
turn is eroding the publics' confidence in performing commerce 
over the Internet. Finally, I will discuss the economic consequences 
that cyber attacks are having on the U.S. economy. 

Background on Symantec 
	Before I turn to the main substance of my testimony, I would 
like to provide you background on Symantec Corporation.  Symantec is 
the global leader in information security.  We provide solutions to 
help individuals and enterprises assure the security, availability 
and integrity of their information.  Symantec's Norton brand of 
products is the worldwide leader in consumer security and problem 
solving solutions.  Headquartered in Cupertino, California, 
Symantec employs over 15,000 professionals and has operations in 
more than 40 countries.   
	I am responsible for the Symantec Security Response global 
research teams.  My mission is to advance the research into the new 
Internet security threats and to provide the most trusted and rapid 
response to today's complex threats, security risks and cyber 
attacks.  Symantec Security Response protects a variety of 
businesses, consumers and government agencies from the latest 
security threats.  Symantec Security Response consists of dedicated 
intrusion experts, security engineers, virus hunters, and global 
technical support teams that provide our customers with 
comprehensive, global, 24x7 Internet security expertise to guard 
against today's complex Internet threats. 
	Symantec gathers our research from our "Global Intelligence 
Network" which consists of more than 40,000 sensors monitoring 
activity on computers in more than 180 countries.  We gather data 
from over 120 million computer systems that use Symantec's anti-virus
 products and probe over 2 million decoy email accounts.  Symantec 
also operates 4 cyber Security Operations Centers spread across the 
globe -including Alexandria, Virginia; London, England; Munich, 
Germany; and Sydney, Australia - each dedicated to relentlessly 
searching the Internet for potential cyber threats 24 hours a day, 
365 days a year to provide managed, pre-emptive protection for our 
customers.  If there is a class of threat on the Internet Symantec 
knows about it. 

State of the Nation's Cyber Security Landscape 
	As the company representative of the security technology 
industry on this morning's panel, I want to stress an important 
message about our nation's cyber security landscape:  First, the 
threats to our critical infrastructure are absolutely real and, 
without a doubt, growing.  The question is not if or even when 
we'll be attacked but how severe will the attack be.  
	Today, I stand before you to say that the threat has 
changed. 
	The main risks to information these days are not the 
large-scale, fast-moving virus or worm pandemic type attacks that 
we saw with frequency just a couple years ago. Consider this: from 
2002 to 2004, there were almost 100 medium-to-high risk attacks. 
Last year, there were only six and so far in 2006, there have 
been none. 
	What happened? 
	We've made significant headway in containing and repelling 
these sorts of threats. And an equally big part is that the very 
nature of the risks we face has changed.   In the past, cyber 
attacks were largely designed to destroy data or gain notoriety, 
but today's attacks are increasingly designed to silently steal 
data for profit or advantage, without leaving behind the system 
damage that would be noticeable to a user.  
	Fraud, intelligence gathering and gaining access to 
vulnerable systems are the motivation behind many of today's 
attacks. The attackers are not interested in notoriety. They're 
interested in flying below the radar, using lower profile, more 
targeted attacks, attacks that propagate at a slower rate in order 
to avoid detection and thereby increase the likelihood of 
successful compromise.  Instead of exploiting vulnerabilities 
in servers, as traditional attacks often did, these threats tend 
to exploit vulnerabilities in client-side applications that require 
a degree of user interaction, such as word processing and 
spreadsheet programs. A number of these have been zero-day 
vulnerabilities. These types of threats also attempt to escape 
detection in order to remain on host systems for longer periods 
so that they can steal information or provide remote access.  
They're increasingly interested and capable of perpetrating silent, 
highly-targeted attacks to steal sensitive personal, financial, 
and operational information using data mining techniques to 
identify the victims and improve the effectiveness of the 
attack. 
	Cybercrime is the dominating security threat we're seeing 
today and there's been a marked increase in the use of "crimeware". 
Crimeware is software built with the purpose of committing online 
scams and stealing information; it includes (but is not limited to) 
bots, keystroke loggers, spyware, backdoors, and Trojan horses or 
software used to conduct cybercrime.  
	Symantec just compiled the latest cyber threat data for our 
tenth Internet Security Threat Report, or ISTR, which is widely 
acknowledged to be the most comprehensive analysis of security 
activity for today's information economy.   The Report includes an 
analysis of network based attacks on the Internet with a review 
of known threats, vulnerabilities, and highlights of malicious 
 code and additional security risks.  Symantec has provided this 
Report semi annually since 2002.  
	The ISTR also offers security best practices for consumers 
and businesses to help them protect against current and emerging 
cyber crime threats.  Symantec's ISTR found that the last 6 months 
have seen growth in attack trends, bot infections denial of service 
attacks, malicious code such as Trojans and phishing attacks. 
	Symantec's ISTR found that attackers are moving away from 
large, multiple purpose attacks against traditional security 
devices such as firewalls and routers. Instead, they are focusing 
their efforts on regional targets, desktops and Web applications 
that may allow an attacker to steal corporate, personal, 
financial, or confidential information; this information could 
then be used for additional criminal activity.  Attackers are 
focusing not just on the end users systems via exploitable 
browser vulnerabilities, but also on weaknesses in the web 
servers and web applications. They can use that weakness to drop 
malicious code such as a keyboard logger onto a users system, 
when the unwitting and unprotected user browses or 'drives-by' 
the compromised Web site. This attack impacts both the end user 
privacy, as well as the brand name of the company whose Web 
presence has been compromised.
	Programs that provide attackers with unauthorized control 
of a computer, known as bots, also contribute to the rise in 
cybercrime threats. Symantec's March 2006 Internet Security Threat 
Report identified an average of 9,163 infected computers each 
day-bot networks are being increasingly used for criminal activities 
such as DoS-based extortion attempts.  We believe we will see a 
continuing growth trend in the area of botnet infected computers. 
During that period, the United States had a very high percentage 
of the bot command-and-control servers worldwide.  Symantec expects 
this trend to continue. 
	Botnets are the engine that drives most of the criminal 
activity, as they get used by to distribute Spam, Phishing messages, 
malicious code as well as storage for illegal material. Many of 
these botnets are created on systems owned by home users, small 
businesses and even some large corporations. 
	Symantec estimates that the measurement above is only 
capturing a portion of global activity and that the actual infection 
numbers are likely to be much higher. In our March 2006 Internet 
Security Threat Report Symantec identified an average of 1,402 DoS 
attacks per day-a 51 percent increase over the previous reporting 
period. Our Reports consistently show that the United States was 
the target of the most DoS attacks, accounting for over half of 
the worldwide total. 
	We believe that this growth trend will continue as attackers 
leverage an increasing number of Web-based application and browser 
vulnerabilities. 
	In Symantec's March 2006 ISTR, we saw, attacks directed at 
Web application technologies increase-69 percent of the 
vulnerabilities reported to Symantec affected Web application 
technologies, a 15 percent increase over the previous reporting 
period.  The new report does see a significant amount of attacks 
targeted.  We found that Web application technologies, which rely 
on a browser for their user interface, present an easier target for 
attackers due to their availability over commonly allowed protocols 
such as HTTP. 
	Symantec has also consistently seen an increase in modular 
malicious code, which initially possesses limited functionality but 
is designed to update itself with new, more damaging capabilities. 
Modular malicious threats often expose confidential information 
that can then be used in identity theft, credit card fraud, or 
other criminal financial activities.  According to our March 2006 
ISTR, malicious code that could reveal confidential information 
rose from 74 percent of the top 50 malicious code samples last 
reporting period to 80 percent this period-an increase of 6 
percentage points. Symantec expects this growth to continue to 
increase in future reporting periods. 
	These criminals are targeting all sorts of organizations. 
By leveraging the vast number of new vulnerabilities, the 
potential introduction of entirely new and more destructive forms 
of malicious code and cyber attacks tools represents a 
substantial future risk. Our law enforcement, military and 
national security agencies face an even more sophisticated threat 
with all of these new vulnerabilities, zero day attacks and highly 
targeted attacks.  
	Right now, more than 20 nations possess dedicated computer 
attack programs - and that number doesn't include terrorist 
organizations.1 Cyber warfare is a part of their war plans. 
	Indeed, in the first half of 2004, DoD experienced more 
than 150 hostile intrusion attempts per day. In the first half of 
2005, that number was up to more than 500 a day.2 
	More specifically, cybercriminals could attack our computer 
systems in a variety of ways, causing serious consequences 
including: (1) compromising the integrity of data, such as deleting 
records of financial institutions; (2) breaching the confidentiality 
of data, such as obtaining information from power and energy plants 
which can then be used to plan a physical attack; and (3) acting 
as weapons of mass disruption to take-down key Internet nodes 
whose failure would then lead to a cascading effect, meaning 
wide-ranging disruption of other parts of our critical 
infrastructures, or more likely impacting our ability to respond 
to a physical event. 

The Economic Impact of Cyber Attacks and the Undermining of U.S. 
Consumer Confidence in Using the Internet for Commerce 
	Unless a trusted relationship exists between businesses and 
consumers the risks associated with online transactions will 
become unacceptable.  So, the expectations are high.  And, the 
stakes are enormous. 
	Across industries, companies have built into their business 
models the efficiencies of these new digital technologies - such as 
real-time tracking of packages and online commerce.  The continued 
expansion of the digital lifestyle is already built into almost 
every company's assumptions for growth - and underpins the 
assumptions for the global economy. 
	Think about what would happen if banks were forced to stop 
all online banking and go back to the days of long lines at teller 
windows.  The costs would be enormous.   Today, it costs a 
bank $10 when a consumer originates a loan online.  That cost 
jumps to more thank $200 when the loan is originated through a 
branch office. 
	We can't go back to the old way of doing business - and, 
that's why creating confidence in the digital world is everybody's 
job.  For the individual company, failure to protect their 
customers' information will result in customers simply taking 
their business someplace else, to someone they can trust.  And 
they won't necessarily turn to the company around the corner.  In 
the global economy, security can be a competitive advantage - or 
disadvantage.  If consumers can't trust businesses from our 
country, they'll look all over the world for the one's they believe 
they can trust.  In such a world, security guarantees are very 
likely to trump the comfort of the local brand. 
	If we fail to create a trusted digital environment, we won't 
just slow the growth of e-business, but of all business.  We won't 
just hurt the digital economy, but the economy as a whole.  And 
this is the real hidden threat today - not some massive cyber 
attack, but the loss of consumer confidence in the digital world. 
	The IT industry has made huge strides these past few years, 
and from the evidence at hand we've made significant headway in 
controlling large-scale, fast moving viruses and worms.  The broad 
adoption of best security practices and defense in-depth 
strategies, deployment of firewall, antivirus, and intrusion 
detection software and the progress operating system vendors have 
made in improving the security of their operating system platforms 
have made this possible.  Mitigating the large scale virus and worm 
challenge is a major accomplishment but those are yesterday's 
problems.  
	Today we face a bigger challenge.  As vendors and 
enterprises have adapted to the changing threat environment this 
has resulted in more targeted malicious code and targeted attacks 
aimed at client-side applications, such as Web browsers, email 
clients, and other applications. These applications are used to 
communicate over networks and interact with Web-based services 
and applications and Web sites. Today's threats are silent and 
highly targeted.  They take advantage of the naivet� and 
inexperience of many online users.  For example, attackers set 
up fake Web sites with relative ease and dupe people into offering 
up financial information or making a donation to a bogus charity.  
And of course, there are the large scale data breaches - some 
innocent, some inside jobs, and some the work of skilled 
criminals - that have made identity theft a growing threat to the 
digital lifestyle. 
	For six consecutive years, identity theft has topped the 
annual list of consumer complaints collected by the Federal Trade 
Commission.  Over the past year more than 52 million records of 
Americans' private personal information - an average of 142,000 
per day - have been hacked into, lost, stolen or otherwise 
compromised from digital databases.  
	The cost of these breaches, in terms of time and money, is 
astounding.  According to the Federal Trade Commission identity 
theft costs businesses $48 billion annually, and last year cost 
consumers $680 million in losses.  On top of that, identity theft 
victims collectively spent almost 300 million hours trying to repair 
damage.  
	It is difficult to quantify the economic impact of cyber 
crime but according to the FBI's 2005 Cyber Crime Survey cyber crime 
costs about $67 billion to U.S. firms over the last year.  A Report 
by the Congressional Research Service found that investigations 
into the stock price impact of cyber-attacks show the identified 
target firms suffer losses of 1%-5% in the days after an attack.  
For the average New York Stock Exchange corporation, price drops 
of these magnitudes translate into shareholder losses of between 
$50 million and $200 million. 
	But more damaging than the loss of money is the loss of 
trust and confidence by consumers in the Internet economy which so 
many of our nation's businesses depend upon.  We can't risk losing 
the public's confidence in online e-commerce but consumers are 
beginning to rethink doing business on the Internet.  
	In the first six months of 2006, the home user sector was 
the most highly targeted sector, accounting for 86% of all targeted 
attacks.  According to a survey of more than 10,000 households 
conducted by the Conference Board, 41 percent are purchasing less 
online because of security concerns.  And according to a survey 
by the Cyber Security Industry Alliance, 32 percent of respondents 
strongly believe that their financial information may get stolen 
online.  
	We can't allow this trust to continue to erode.  We can't 
continue to lose the public's confidence and expect to continue the 
robust digital lifestyle that we've come to enjoy.  Trust 
ultimately, is the foundation of the online world. 
	But we have a long way to go in educating consumers.  For 
example, a study by Small Business Technology Institute (SBTI) 
entitled, "Small Business Information Security Readiness," reveals 
a real lack of appreciation of the true economic impact of 
information security incidents and a lack of knowledge of cyber 
threats.  Additionally, they find a lack of forward planning and 
matching investment required to maintain the security necessary 
to protect small businesses.  Shockingly this study found that 
over 74 percent of small businesses perform no information 
security planning whatsoever. Such a lack of knowledge and 
awareness is inhibiting the wide adoption of adequate information 
security protection. 

Recommendations
	Let me now discuss some actions that we believe Congress can 
improve our cyber security. 

I. Awareness and Education
	Educating our consumers, our small businesses, the operators 
of the critical infrastructure and all levels of government on the 
importance of protecting our systems is essential. We need a broad 
awareness campaign that reaches out to all users of the Internet. 
	The growing use of always-on broadband connections by home 
users and small businesses represents a significant amount of 
computing power, which left unprotected can be taken over and used 
as zombie machines to damage our networks and the hinder the 
commerce and services that flow through them. 
	At the least, these home users should deploy a minimum 
protection of firewall and anti-virus technology. The remote or 
wireless-connected worker is also becoming more prevalent and can 
unknowingly open up a corporate network to potential vulnerabilities 
and attack through unprotected connections. 
	Enterprises and government agencies should engage their 
employees in security awareness programs to ensure better protection 
of their systems. Whether it's reminding them not to post their 
passwords on a yellow sticky pad on their computer, or enacting 
corporate best practices to change those passwords on a regular 
basis making them difficult to break. 
	In an effort to better educate consumers, Symantec will 
participate in the October National Cyber Security Awareness Month 
initiative organized by the National Cyber Security Alliance (NCSA). 
As a founding sponsor of the NCSA, Symantec will also support the 
NCSA's national public service announcement campaign to promote 
online security among individuals, small businesses and schools. 
	The NCSA is a non-profit, public-private partnership 
consisting of businesses, consumer groups, government agencies and 
educational institutions dedicated to raising the awareness of 
cyber security issues and best practices. The NCSA provides tools 
and resources to empower home users, small business, and schools 
to stay safe online. More information about the organization and 
the October National Cyber Security Awareness Month can be found 
at www.staysafeonline.info. 
	At the enterprise and organizational level, the issue of 
IT security has for too long been an administrator or a CIO issue. 
This needs to change. Cyber security needs the attention of the 
CEO and the boardroom. Only then can we institute the necessary 
cultural change and focus enough attention and resources to truly 
address this issue.  We urge the Committee to provide much needed 
resources to the agencies under its jurisdiction such as the 
Federal Trade Commission, the Department of Commerce and the 
Federal Communications Commission to promote cyber education to 
help better inform consumes of cyber threats. 

II. Cyber Crime
	We need to realize that protecting the Internet is really a 
global issue, one that requires better international cooperation. 
First, we need better resources for law enforcement to work on 
computer forensics, and we need cooperation from industry to 
assist prosecutors in building cases. Second, the ratification of 
the Council of Europe's cyber crime treaty is a good starting point 
but now that this framework is in place we need additional resources 
for international cybercrime enforcement, training funds and a 
single point of contact in the U.S. to coordinate such efforts. 
Third, industry should reach across borders when appropriate, to 
share information on best practices, threats and vulnerabilities, 
in order to gain a measure of early warning of potential attacks.  
Finally there should be a single point of contact in government so 
that those leaders can communicate at a peer level in times of major 
cyber attack.  

III. Research and Development 
	Today, industry and government tends to look at the more 
immediate threats to our cyber infrastructure, rather than a holistic 
view of encompassing threats of today and tomorrow. It is a view that 
needs to change. As mentioned earlier, flash threats may be on us in 
the near future and we must be more proactive in our cyber security 
practices focusing on behavior blocking and better patch management, 
including the use of fast, safe and non-disruptive patching. Given 
the shrinking time from discovery to exploit, we should engage in 
projects like real-time vulnerability scanning, management and 
patching and we must do it together in partnership; industry 
government and academia alike.  The Federal Government must focus 
on funding cybersecurity R&D to meet the constantly evolving threats 
that face our nation's critical infrastructure.  And the Government 
must also lead by example, securing its own systems through the use 
of reasonable security practices. 

IV. Clearly Defined Internet Response and Reconstitution Policy 
	The federal government needs a clearly defined Internet 
response and reconstitution policy for all agencies and departments. 
 Public and private organizations that would oversee recovery of 
the Internet have unclear or overlapping responsibilities, resulting 
in too many institutions with too little interaction and 
coordination. Also, existing organizations and institutions charged 
with Internet recovery should have sufficient resources and 
support. For example, little of the National Cyber Security 
Division (NCSD)'s funding is targeted for support of cyber 
recovery. 

V.  Secure Digital Control Systems for Physical Infrastructure 
	Our nation relies on a digitally controlled utility and 
commercial infrastructure such as the electrical transmission 
grid, oil and natural gas, water, waste water, chemicals, 
telecommunications, transportation, banking and finance - and 
many critical manufacturing processes.  Remote control of 
distributed critical infrastructure occurs with Supervisory 
Control and Data Acquisition (SCADA) systems.  These systems are 
designed to be open and interoperable; but their increasing use 
of the Internet for communications makes them vulnerable to cyber 
attack.  Such attacks could have devastating consequences such 
as endangering public health and safety, according to the 
Government Accounting Office.  We urge Congress to pass legislation 
to form a task force of key government agencies, appropriate 
regulators, experts in the cyber security field, and representatives 
from utilities and suppliers to meet and recommend concrete actions 
to improve the security of control systems supporting critical 
infrastructure. 

VI. Direct a Federal Agency to Track Costs Associated with Cyber 
Attacks
	No one in the field is satisfied with our present ability to 
measure the costs and probabilities of cyber attacks.  There are no 
standard methodologies for the cost measurement, and study of the 
frequency of attacks is hindered by the reluctance of organizations 
to make public their experiences with security breaches.  The lack 
 of a methodology or measurement program also prohibits knowing 
how much national efforts to improve cyber security are working.  
We urge Congress to pass legislation directing the federal 
government to work with private industry on a methodology to 
measure the true cost of cyber attacks, and to track those 
associated costs as part of ongoing national economic assessment. 

VII. Pass a National Data Breach Law and Consider Comprehensive 
Privacy Reform 
	The business community must join together with Congress to 
push for comprehensive privacy legislation.  Some governments have 
already stepped to the plate.  However, up until now, the U.S. 
government has been reactive - dealing with important parts of 
the issue on a piecemeal basis.   Currently, U.S. privacy 
regulations focus on sensitive areas such as financial and health 
information and protecting children online.  It's an approach 
that, ultimately, will result in a number of different confusing 
regulations.  In light of the growth of identity theft and the 
rise of invasive threats like spyware, we need a comprehensive 
response that ensures that information is protected at every step 
along the way. 
	In this country, we need one, national data-breach law.  
Instead of the quilt of state laws, we need one federal law that 
protects all consumers from data breaches and requires businesses 
to put in place some type of reasonable security measures.  We 
urge Congress to pass a national data breach law this year that 
would require notification of affected consumers and would provide 
tough enforcement policies. 

Conclusions
	In closing, let me issue this challenge to industry, 
government and the individual users: We must take cyber security 
more seriously and we must do it together. 
	The increasing prevalence of blended threats and the 
potential for even more fast-spreading and damaging exploits is a 
serious threat to our nation's information infrastructure and the 
economic benefits that we derive from it. We need strong 
leadership from industry and government to promote awareness and 
education on cyber security, more resources for law enforcement to 
investigate and prosecute cyber criminals, strong research and 
development partnerships to tackle the challenges of future threats 
to the Internet, and more vigilance from business and governments 
by putting resources and support behind a proactive IT security 
program. 
	But most importantly we all as individual users of the 
Internet need to do our part, to protect cyber space. Experience 
shows that effective implementations of security solutions cost 
in the range of 6-8% of overall IT budgets. Few corporations 
outside of the finance sector, or government departments, have 
allocated such levels of funding to this critical need. It is time 
that we put our resources to work to minimize the risk of a 
serious disruption of our national cyber infrastructure. 
	Thank you and I look forward to your questions.

	MR. UPTON.  Mr. Kurtz.
	MR. KURTZ.  Thank you, Mr. Chairman and other members of 
the committee.  It is a pleasure to be here this morning.  
	You have asked me to comment on a very broad topic: to look 
at the importance of cybersecurity, not just as it relates to our 
critical infrastructures, but across America's economy and for all 
consumers. 
	Cyber systems are our newest and most pervasive 
infrastructure.  They drive and organize every facet of our 
collective and individual lives, from national and economic 
security to personal health and well-being.  And yet, we do not 
have a strategic national capability to assess how well most 
critical systems are protected and what the consequences are if 
they fail.  There is little strategic direction or leadership 
from the Federal government in the area of information security.  
Insuring the resiliency and integrity of our information 
infrastructure and protecting the privacy of our citizens should 
be a higher priority for the Government.  We must move beyond 
philosophy and statements of aspiration to defining priorities 
in programs. 
	CSI believes that the Government has a responsibility to 
lead, set priorities, coordinate, and facilitate protection 
response.  Let me be clear.  This is not a call for regulation 
and intervention.  This is a call for leadership.  It is myopic 
to assume that DHS has exclusive government responsibility for 
the entire continuum of security across the information 
infrastructure and for all threats. 
	When we think about the potential impact of cyber threats 
and attacks on our overall economy, for consumers as a whole we 
must acknowledge that we have a strategic national interest in 
cybersecurity and that a much broader review of cybersecurity is 
required and extended beyond DHS. 
	We face various forms of cyber attacks every day, and 
within businesses.  Every day, thousands of citizens have their 
sensitive personal information compromised through data breaches, 
phishing campaigns, Internet fraud, and other cyber crimes.  As 
a result, consumers do not have confidence that they should in 
the Internet.  A major cyber disruption could prevent companies 
from operating critical systems, possibly for sustained periods 
of time.  This means the planes may not fly, goods and services 
may not be distributed, power and gas may not be available, and 
all this would potentially have a devastating impact on our 
economy and national security. 
	In preparing for how to respond to a significant cyber 
event, the critical unanswered question is what is a suitable role 
for the Government, including DHS, DOD, and FCC, in facilitating, 
recovering, and reconstitution from an incident of national 
significance?  The Federal government must engage in a serious 
inquiry of the following questions.  What is an incident of 
national significance and what is the process for determining such 
an event?  What are its ramifications?  What obligations do the 
private sector entities have to obey a DHS directive or another 
entity's directive?  Who would resolve conflicting demands for 
scarce cyber resources, such as bandwidth?  What authorities should 
DHS, DOD, and FCC have to help the Nation recover from cyber 
attacks?  We must take a holistic view.  United States needs a 
strategic national information assurance policy. 
        We have a chart over to your right that you might take a 
look at.  What I have tried to do here is identify a cycle, if 
you will, for responding, preparing to cyber attacks or cyber 
difficulties.  It is an overly simplistic chart.  I will say 
that right up front, you know.  You could add Department of 
Energy and Treasury, but the point here is that several agencies 
have a role and responsibility in this process, and it would be 
helpful if the White House would assert a greater level of 
coordination and support for these activities as well.  This 
problem clearly extends beyond DHS.  DHS has significant issues 
that it is trying to resolve, and it would help if the White 
House would step in and ensure greater level of coordination. 
	DHS, working with other agents, needs to articulate a 
chain of command for recovery and reconstitution.  In addition, 
DHS needs to articulate an emergency communications system that 
works, even when standard communications interconnectivity is 
disrupted.  Emergency communications entail more than simply 
establishing a resilient mechanism for allowing people to talk; 
it requires advance identification for the right people being 
able to use the right language to talk, and I will note that Under 
Secretary Foresman's report that was released today talks about 
some of these issues. 
	A summary of our recommendations: consider the need for a 
government-wide strategic national information assurance policy; 
increase attention to cybersecurity; appoint a leader.  Everybody 
has talked about the need for an Assistant Secretary for Cyber 
and Telecommunications.  I don't need to dwell on that more.  Plan 
to prevent or minimize a cyber attack of major significance.  Plan 
to work with the private sector to recover from a major disaster.  
And I have to urge the Congress to take the step and pass a national 
bill to secure sensitive, personal information. 
	Thank you. 
	[The prepared statement of Paul B. Kurtz follows:] 

PREPARED STATEMENT OF PAUL B. KURTZ, EXECUTIVE DIRECTOR, CYBER 
SECURITY INDUSTRY ALLIANCE 

Introduction:
	Chairman Upton, Congressman Markey and Members of the 
Subcommittee, thank you for the opportunity to testify today.  My 
name is Paul Kurtz and I am Executive Director of the Cyber Security 
Industry Alliance (CSIA). 
	CSIA is the only advocacy group dedicated to ensuring the 
privacy, reliability and integrity of information systems through 
public policy, technology, education and awareness.  The 
organization is led by CEOs from the world's top security providers 
who offer the technical expertise, depth and focus needed to 
encourage a better understanding of security issues.  It is our 
belief that a comprehensive approach to ensuring the security and 
resilience of information systems is fundamental to global 
protection, national security and economic stability. 
	Before joining CSIA, I served at the White House on the 
National Security Council and Homeland Security Council.  On the 
NSC, I served as Director of Counterterrorism and Senior Director 
of the Office of Cyberspace Security.  On the HSC, I was Special 
Assistant to the President and Senior Director for Critical 
Infrastructure Protection. 
	You have asked me to comment on a very broad topic - to 
look at the importance of cyber security not just as it relates 
to our critical infrastructures, but across America's economy and 
for all consumers.  Later today I will testify before the House 
Homeland Security Committee on a narrow but important piece of 
your much broader inquiry - cyber security and recovery of our 
critical infrastructure - so I particularly appreciate the chance 
to begin that dialogue at the 50,000 foot level you posit.  
	Right now no one in government is really looking at the 
macro-level.  The fact is that cyber systems are our newest and 
most pervasive infrastructure.  They drive and organize every facet 
of our collective and individual lives from national and economic 
security to personal health and well-being - and yet we do not 
have a strategic national capability to assess how well the most 
critical systems are protected, and what the consequences are if 
they fail.  Currently, there is little strategic direction or 
leadership from the federal government in the area of information 
security.  Ensuring the resiliency and integrity of our 
information infrastructure and protecting the privacy of our 
citizens should be higher on the priority list for our government. 
CSIA believes the government has a responsibility to lead, set 
priorities, and coordinate and facilitate protection and response. 

DHS has a central role in protecting critical cyber infrastructure 
from massive attack, but government must consider economic 
consequences and impact to our citizens in a more comprehensive and 
systematic way. 
	Clearly DHS has a vital and central role - HSPD 7 designates 
the Department of Homeland Security as a focal point for 
infrastructure protection, including cyber security.  [We'll get 
to how well, or poorly, they are doing in just a moment.]  But it 
is myopic to assume DHS has exclusive government responsibility for 
the entire continuum of security across all information 
infrastructures, and for all threats.  DHS should, indeed must be 
accountable for coordinating the protection of our most critical 
infrastructures from serious attack or devastation.  But when we 
think about the potential impacts of cyber threats and attacks on 
our overall economy, or for consumers as a whole, we must 
acknowledge that we have a strategic national interest in cyber 
security that is much broader than the mandate of DHS or the 
immediate challenges it faces.  We face various forms of cyber 
attacks and efforts to exploit faulty software code every day.  
Businesses routinely fight against unauthorized intrusions, whether 
for sport, industrial espionage, or more nefarious reasons.  
Companies incur significant costs to keep up with ever-more 
sophisticated efforts to compromise their systems, ultimately 
we all bear these costs.  And every day, thousands of citizens 
have their sensitive personal information compromised through data 
breaches, phishing campaigns, Internet fraud and other cyber 
crimes.  As a result, consumers do not have trust and confidence 
in online services and e-commerce, with significant economic results 
for many industries. 
	The truth is that a major cyber disruption could prevent 
companies from operating critical systems, possibly for sustained 
periods of time.  This means that planes may not fly, goods and 
services may not be distributed, power and gas may not be 
available, and all of this would have a potentially devastating 
impact on our economy and our citizens.  
	Most importantly, DHS must consider and articulate how it 
will work with the private sector to respond to and recover from a 
massive failure of information technology systems - whether from a 
cyber attack or a natural disaster.  In preparing for how to 
respond to a significant cyber event, the unanswered question 
affecting all is:  What is a suitable role for DHS as well as 
other key federal agencies, including DoD and the FCC, in 
facilitating recovery and reconstitution from a cyber "incident 
of national significance"?   The Federal government must engage 
in a serious inquiry of the following questions:  
 What is an "incident of national significance" and what is the 
process for determining such an event and its legal significance? 
 What obligations do private sector entities have to obey 
directives from DHS, or other agencies? 
 Who would resolve conflicting demands for scarce cyber 
resources? 
 What enforcement power does DHS, DOD, and the FCC have to help the 
nation recover from a cyber disaster? 

	These are tough questions, and raise complex policy issues 
which extend beyond DHS.  

We must take a holistic view - the United States needs a Strategic 
National Information Assurance Policy 
	The bottom line is that protecting our cyber infrastructure 
is not just DHS's problem.  In large measure, because our cyber 
infrastructure is almost exclusively owned and operated by the 
private sector, the front line defense is the investment made by 
infrastructure providers on behalf of their customers.  But, in 
addition to DHS, many key departments and agencies have key roles 
in protecting our cyber infrastructure: 
* The Department of Commerce has a key role.  The Department of 
Commerce advocates for technological innovation and has 
responsibility to develop and promote measurements, standards, 
and technology to enhance productivity, trade, and the quality of 
life. This includes conducting research to advance the U.S. 
technology infrastructure and supporting the development of 
technologies for broad national benefit.1  The Under Secretary for 
Technology Administration has the lead in developing and promoting 
information security standards and in leading research and 
development efforts to enhance privacy and security.  There is much 
more Commerce could do.  For example, Commerce currently does not 
measure consumer or business confidence in the information 
infrastructure or the costs of attacks or disruptions.   Commerce, 
in partnership with DHS, could support increased adoption of 
insurance.   Currently, many insurance companies are reluctant to 
enter this market because of a lack of actuarial data.   
 The Federal Trade Commission has a key role.   The FTC's 
Enforcement Division conducts a wide variety of law enforcement 
activities to protect consumers online, including: (1) ensuring 
compliance with administrative and federal court orders entered in 
consumer protection cases; (2) conducting investigations and 
prosecuting civil actions to stop fraudulent, unfair or deceptive 
marketing and advertising practices; and (3) enforcing consumer 
protection laws, rules, and guidelines.2 
 The U.S. Department of Justice has a key role.  The Computer 
Crime and Intellectual Property Section (CCIPS) within DOJ's 
Criminal Division is responsible for combating computer and 
intellectual property crimes worldwide. CCIPS' Computer Crime 
Initiative is a comprehensive program designed to combat 
electronic penetrations, data thefts, and cyber attacks on 
critical information systems. CCIPS prevents, investigates, and 
prosecutes computer crimes by working with other government 
agencies, the private sector, academic institutions, and foreign 
counterparts.3 
 The Federal Communications Commission has a key role.  Charged 
with regulating interstate and international communications, the 
 FCC has established the following objectives:
 To evaluate and strengthen measures for protecting the Nation's communications infrastructure.
 To facilitate rapid restoration of the U.S. communications 
infrastructure and facilities after disruption by a threat or attack.
 To develop policies that promote access to effective communications 
services by public safety, public health, and other emergency and 
defense personnel in emergency situations. 4
 The Department of Defense has a key role.  DoD gives highest 
priority to securing its national security systems. The Defense 
Information Systems Agency (DISA) provides a seamless, secure and 
reliable web of communications networks, computers, software, 
databases, applications, and other capabilities to meet the 
information processing and transport needs of DoD. DISA also 
ensures the integration and interoperability of command and 
control, communications, computers and intelligence systems.5 
 The Office of Management and Budget has a key role.  The government 
has a critical need to ensure critical Federal IT systems are 
resilient; after all, our citizens rely on our government not to 
let them down.  Under the Federal Information Security Management 
Act (FISMA), OMB is responsible for developing and overseeing 
the implementation of government-wide policies, principles, and 
standards, as well as providing guidance for the federal 
government's information technology security program.6 
 White House Coordination.  The President's staff must ensure 
seamless coordination across Federal agencies and ensure sufficient 
attention and fiscal resources are allocated to the issue. 
 Congress has a key role.   Congress must exercise its traditional 
role.   This Committee, for example, has worked hard to enact 
effective legislation to protect sensitive personal information; 
Congress should act before the end of the session to pass data 
security legislation. 

A graphical depiction of this discussion is noted below: 

	Clearly, as a nation we have a strategic national interest 
in making sure that we understand the risks across all our cyber 
infrastructures and who is accountable for their resilience to 
attack. We urge policy makers to consider the need for a strategic 
national information assurance policy, developed in consultation 
with industry, operating across all of government.    The policy 
would address many of the questions I have posed. 


DHS needs to specify steps to prevent and/or minimize a massive 
cyber attack or telecommunications disaster 
	My remaining testimony will reflect on DHS's effectiveness 
to-date, because the bottom line is that cyber security is 
receiving inadequate attention from DHS.  Of particular urgency is 
the need for DHS to specify how it and the private sector would 
coordinate actions if a massive cyber attack were to occur.  
	Last week in his updated national strategy for 
 counterterrorism, President Bush declared that "America is safer 
but we are not yet safe."  The reality of physical terror occurring 
in the United States has riveted our attention since the attacks on 
September 11, 2001.  Prevention of any physical incident of horror 
has since been priority one. 
	The President's reminder for vigilance clearly applies to 
threats against our physical well-being, but his admonition should 
also apply to cyber security.  Since 9/11, responsibility for 
coordinating federal efforts on national safety shifted to the 
Department of Homeland Security.  DHS has predictably reacted to a 
myriad of security challenges by focusing first on immediate 
physical threats and natural disasters.  This focus is 
understandable, but it has also impeded progress toward stronger 
national cyber security.  As a result, the United States remains 
unprepared to defend itself against a massive cyber disruption or 
to systematically recover and reconstitute information systems 
after such an event.  However, by realistically refining the 
Department's role in national cyber security, DHS can escalate cyber 
security efforts along with efforts to prevent physical terror in 
America. 
	National coordination of cyber security is the purview of 
the Department of Homeland Security, and its related leadership 
position is Assistant Secretary for Cyber Security and 
Telecommunications.  This new position was established in July 
2005 by Secretary Chertoff specifically to elevate the importance 
of cyber security in relation to DHS's main focus on physical 
security.  Unfortunately, fourteen months later, the Assistant 
Secretary position is unfilled, which reflects the low priority 
DHS still has toward cyber security.  No one is in charge to lead 
efforts to protect information infrastructure against cyber attacks 
or to lead response and recovery. 
	For example, currently members of the IT sector are working 
with DHS on a sector specific plan as required under HSPD-7 and the 
National Infrastructure Protection Plan.  While we have made 
progress, there has been little to no senior-level attention to the 
plan at DHS, as well as several other agencies.  The plan seeks to 
hammer out many of the questions I posited earlier. 

DHS has not specified how it will work with the private sector to a 
cyber incident of national significance 
	The Cyber Incident Annex of the National Response Plan, 
published January 6, 2005, states that the federal government 
plays a significant role in managing intergovernmental (federal 
state, local and tribal), and, where appropriate, public and 
private coordination in response to cyber incidents of national 
significance.  DHS is well aware that the private sector "runs 
the show," which may account for its encouragement of 
public-private partnerships.  However, the Government Accounting 
Office recently reported that progress on those initiatives is 
limited, some lack time frames for completion, and relationships 
between these initiatives are unclear.7 
	Consequently, DHS needs to articulate a chain-of-command for
 each step of recovery and reconstitution.  For example, the DHS's 
U.S. Computer Emergency Readiness Team (US-CERT) may be aware of a 
network attack, but the North American Network Operators Group 
(NANOG) is the operational forum for backbone/enterprise 
networking.  
	In addition to chain-of-command, DHS needs to articulate an 
emergency communications system that works even when standard 
telecommunications and Internet connectivity are disrupted.  
Emergency communications entail more than simply establishing a 
resilient mechanism allowing people to talk.  It also requires 
advance identification of the right people from appropriate 
organizations who speak the "same language" for establishing 
rapid recovery and reconstitution of national systems. 
	These are but a few of the details that must be articulated 
and agreed upon in advance if the nation is to truly prepare for 
recovery and reconstitution from a cyber disaster.  Ostensibly, 
DHS would have a leading role in planning. 
	These issues should be answered in the DHS's 400-plus page 
National Response Plan.  Unfortunately, the plan does not 
articulate clear answers on how federal agencies work with each 
other, with other government entities, or with the private sector 
in responding to a national disaster.  Instead of one coordinator, 
there are at least six: Homeland Security Operations Center, 
National Response Coordination Center, Regional Response 
Coordination Center, Interagency Incident Management Group, Joint 
Field Office, and Principal Federal Official.  The National Response 
Plan's discussion of cyber security is contained in the "Cyber 
Incident Annex."  The Annex mentions many other federal departments 
and agencies with "coordinating" responsibility for cyber incident 
response, including Defense, Homeland Security, Justice, State, 
the Intelligence Community, Office of Science and Technology Policy, 
Office of Management and Budget, and State, Local, and Tribal 
Governments.  The agency tasked with maintaining the National 
Response Plan is FEMA. 
	As I draw toward the end of my testimony, I wish to comment 
on one other topic that also requires close coordination of the 
government and private sector - namely, the need for a cyber early 
warning system that provides the nation with situational awareness 
of attacks.  DHS has sponsored some mechanisms toward this end, 
such as US-CERT, and Information Sharing and Analysis Centers 
(ISACs) that share some cyber alert data from the private sector 
with the federal government.  As noted by the Business Roundtable, 
however, the nation lacks formal "trip wires" that provide rapid, 
clear indication that an attack is under way.8  This mechanism 
would be akin to NOAA's National Hurricane Center, which usually 
can provide a day or so of advance notice before a dangerous storm 
lands ashore.  Cyber attacks provide far less notice to prepare 
and react.  DHS should lead the establishment of an efficient 
national cyber warning system because the private sector is most 
likely to first detect an attack, and data correlation and follow 
through coordination closely involves the government. 

Summary of Recommendations 
	In summary, CSIA offers the following recommendations for 
the Subcommittee's consideration: 
	Consider the need for a government-wide strategic national 
information assurance policy.  Cyber security is too important to be 
left to piecemeal and bifurcated approaches. There needs to be more 
active engagement by the White House to lead in developing a 
coherent national information assurance policy across all agencies. 
	Urge Congress to enact comprehensive data security 
legislation this year.  Sensitive personal information should be 
protected whether it is being held by a commercial enterprise, non 
profit organization or government entity.  Millions of Americans 
are looking to the government for help in safeguarding their 
personal information. 
	Increase Attention to Cyber Security.  DHS has inadvertently 
exposed the nation to another vector of attack by providing 
inadequate attention to cyber security.  The Department should 
reassess its priorities and shift some attention from an almost 
exclusive focus on physical security. 
	Appoint a Leader.  There is no leadership at DHS in terms of 
a person who is solely responsible for cyber security.  DHS should 
swiftly fill the open position of Assistant Secretary for Cyber 
Security and Telecommunications to close the leadership vacuum. 
	Plan to Prevent or Minimize a Major Cyber Disaster.  DHS 
should shift this energy to articulating a smaller set of priorities 
focused on preventing and/or minimizing the likelihood or severity 
of a massive cyber attack or telecommunications disaster. 
	Plan to Work with the Private Sector to Recover from a Major 
Disaster.  The existing DHS "plan" for recovery cites more than a 
dozen federal departments and agencies with "coordinating" 
responsibility - not including state, local and tribal governments.  
DHS needs to clearly articulate a chain-of-command between 
government and the private sector for recovery from a major cyber 
disaster. 
	With that, I appreciate the opportunity to testify today 
and am pleased to answer your questions. 

	MR. UPTON.  Mr. Clinton. 
	MR. CLINTON.  Thank you, Mr. Chairman.  
	The Internet Security Alliance represents about 500 companies 
operating worldwide from almost every sector.  We basically represent 
the major industrial users of the Internet.  
	My remarks today will focus on three messages. 
	First, the threat to this Nation's and the world's economic 
infrastructure from cyber attack is real and growing.  Second, not 
enough is being done either by government or by industry to secure 
cyberspace.  We can't manage the 21st Century technology solely 
based on regulatory models designed 2 centuries ago.  While 
regulation has its place, new more creative models built on market 
incentives must be built.  Third, there are concrete steps that can 
be taken both by industry and by government to create this new model. 
	Let me start with some core facts.  Today, there are more 
than one billion Internet users.  That is a 300 percent increase 
since 2000.  The gross in applications has increased nearly 2,000 
percent in that time.  Twenty-five percent of America's economic 
value, $3 trillion a day, moves over the connections on the 
Internet.  The main protocols to protect that data are 30 years 
old and contain multiple well-known security flaws.  The 
Congressional Research Services estimated the economic impact of 
cyber attacks to business is about $226 billion.  In the first 
half of '06, banks financial losses from cyber attacks were up 
450 percent since 2005.  In addition, international terrorists 
are also becoming increasingly sophisticated in their use of 
the Net.  A terrorist can sit at a computer and create havoc 
worldwide.  They don't need a bomb or explosives to cripple a 
sector or shut down a power grid. 
	To address these issues, we have to broaden our thinking 
about Internet security governance.  The Internet is 
international, interactive, constantly changing, and constantly 
under attack.  The national strategy to secure cyberspace, 
published in 2002, stated correctly that regulation in this space 
would be effective and possibly counterproductive.  Even if 
Congress enacted a lightened statute, it would only have reach to 
our national borders.  Even if some agency wrote a brilliant 
regulation, it is likely to be outdated before it gets through 
the process and could stunt innovation.  But we can't sit idly 
by and do nothing, either.  The best mechanism to ensure 
sustainable defense is to interject market incentives to 
motivate the corporations who own and operate the vast majority 
of the Internet to adopt best practices.  
	One of the untold stories of Internet security is that 
we already know a good deal about how to address these issues.  
Studies show that approximately 25 percent of companies who do 
currently follow best practices are still intact, but the 
resulting financial loss, down time, disruption, et cetera 
is greatly minimized.  While many have suggested, hopefully, 
that a positive return on investment would stimulate enough 
voluntary action, this has not been the case.  Recent research 
indicates that most companies still do not see security as a 
core value driver.  Various private sector entities are 
already doing a great deal to address these problems, some of 
which are detailed in my written statement.  We are doing 
research, creating best practices, providing incentives, 
coordinating with standard-setting bodies, reaching out to 
educate the corporate investment communities. 
	But the reason you asked us here today was to discuss 
what the Government's role would be, and more specifically, how 
we can work together.  Acting through a range of coalition 
activities known as the Corporate Information Security working 
group, the National Cybersecurity Partnership, the WYE II 
Coalition, et cetera, we have developed an outline of a 
market-based incentive program to breach the gap between a pure 
voluntary and regulatory approach.  Six weeks ago the National 
Infrastructure Protection Plan officially embraced the idea of 
developing a market incentive program by stating, and I quote, 
"The success of a public/private partnership depends on 
articulating the benefits of participating to the private sector." 
There is a clear national security and homeland security interest 
in ensuring collective protection of our Nation's critical 
infrastructure.  Government can engage industry to go beyond the 
efforts already justified by their corporate business needs by 
creating an environment that supports incentives for companies to 
voluntarily adopt widely accepted security practices. 
	Now, we move to the hard question: Exactly how do we do 
this?  Fortunately, there exist a number of paths, most with 
Congressional precedent, that may provide incentives that are in 
the national interest.  Among these paths are Congress can tie 
incentives such as civil liability safe harbors, such as those 
provided in the Safety Act, or provide procurement credits for 
companies who demonstrate compliance with generated best practices. 
Congress can stimulate the stunted cyber insurance market by 
temporarily insuring the risk of a massive cyber hurricane until the 
market is sufficiently large to take the risk themselves.  Congress 
can create industry, government, and university consortia, similarly 
to the Symantec model we developed in the 1980's to address our 
computer chip problem.  Congress can use tax incentives to 
motivate corporations, particularly small ones, to adopt best 
practices.  Congress can create awards programs, such as the 
Baldrige Program, to make security a market differentiator, just 
as we did quality a while ago. 
	My written testimony provides numerous other examples of 
private sector programs already underway, many without any Federal 
buy-in. 
	The bottom line is this, Mr. Chairman.  We have a major 
security problem revolving around the Internet.  If we attempt to 
use the traditional regulatory method to address it, we will be 
unsuccessful.  The Federal government, in cooperation with the 
private sector, can create an effective and sustainable security 
system with market incentives. 
	Thank you, Mr. Chairman. 
	[The prepared statement of Larry Clinton follows:] 

PREPARED STATEMENT OF LARRY CLINTON, CHIEF OPERATING OFFICER, 
INTERNET SECURITY ALLIANCE 

	Good Morning, I am Larry Clinton, Chief Operating Officer of 
the Internet Security Alliance. I also sit on the Board of the 
National Cyber Security Partnership, and both the IT and 
Telecommunications Sector Coordinating Councils. In addition, I 
chair the NCSP Committee on Incentives for Improved Corporate 
Security. I want to thank Chairman Upton for having this hearing 
and inviting me to participate on behalf of the Internet Security 
Alliance. 
	The ISAlliance represents about 500 companies operating 
on 4 continents who are primarily major corporate users of Internet 
services.  Our diverse membership includes companies from a wide 
variety of economic sectors including financial services, IT and 
Telecommunications, entertainment, manufacturing, food services, 
defense, business consulting and security services. Companies such 
as American International Group, Mellon Financial Corporation, 
Northrop Grumman, Visa, Verizon, Verisign, NAM, Sony, Tata 
Consulting, Raytheon, Nortel and Ceridian, among many others. 
Companies join ISAlliance because we believe we must work across 
corporate and national boarders, and engage both security providers 
and users in order to improve cyber security in a comprehensive 
fashion. Our goal is to improve cyber security across the nation 
and the globe through education, training and the creation of 
market based incentives for action. 
	My remarks today will focus on three main messages I would 
like to leave with the Committee today. 
	First, the threat to this nation's and the world's economic 
infrastructure from the risk of cyber-attack is real.  It is not 
science fiction.  It is not theoretical. It is happening today and 
in all likelihood will get worse. 
	Second, regrettably not enough is being done, either by 
government or industry, to secure cyber space.  We continue down 
this path at great peril.  If we are to address the threats we face 
in the Internet security space, we must broaden our thinking 
considerably.  We cannot manage what is, essentially, the first 
21st century technology solely using regulatory models designed 
two centuries ago. A new, more creative, model built on market 
incentives and creative solutions must be developed and added to 
the mix. 
	Third, fortunately, there are concrete steps that can be 
taken to both by industry and government to create this new model. 
Some of these steps have already begun, but we need to pick up 
the pace of activity considerably. 

CYBER THREATS ARE SIGNIFICANT AND GROWING 
	It was not that long ago that popular myth held that cyber 
attacks were largely propagated by some Matthew Broderick type 
High School student playing "war games" with the pentagon computer 
system to prove how smart he was.  If that ever was the case it is 
no longer.  Now the most likely perpetrator is more likely to be 
agents of foreign countries, organized criminal syndicates or 
highly educated and trained cyber-terrorists.  
	Here are some core facts:  

 The dot-com bust gave the illusion that Internet growth slowed down, 
but in fact it has grown at remarkable rates. At the height of the 
dot-com boom in 2000, for example, roughly 250 million people used 
the Internet. Today, according to Internet World Stats, more than 1 
billion users worldwide rely on the Internet, a 300 percent increase 
since 2000. 

The explosion of Internet-enabled devices and applications - text 
messaging, music downloads, VoIP, Blackberries and device-to-device 
communications - has created exponential growth in Internet traffic 
far surpassing the increase in users. While users have increased 
300 percent since 2000, the volume of traffic on .com and .net has 
increased 1,900 percent in that same period. 

 This very growth of Internet users, broadband capacity and number 
of Internet-enabled devices has created an opportunity for hackers, 
organized criminals and even more serious terrorists to attack our 
networks.  Some do so for technical trophies, some for political 
objectives, but today, most bad behavior on the Internet is done 
for financial gain. 

In fact, the very devices and increased bandwidth that make the 
Internet more robust and user friendly are being deployed to 
compromise the Internet. Now that computers are always-on, they 
are easily accessible to hackers and other abusers to hijack. 
And the increased bandwidth and computing power available 
literally gives hackers more ammunition to utilize against the 
infrastructure. 

 In October 2002, the Internet community got a wake-up call when 
the 13 DNS root servers, which serve as the heart of the Internet 
addressing system, came under heavy denial of service (DoS) attack. 
In these attacks, the hackers send countless bogus inquiries to 
domain-name servers, which are computers that direct Internet 
traffic. By sending phony website requests to these servers, they 
overload and disable them, making websites unavailable. 

The most alarming of attacks occurred in early January 2006, when 
a hacker systematically disabled over 1,500 websites using hijacked 
PCs. In these attacks, the hacker didn't directly attack the 
domain-name servers. Instead, they sent their traffic to a 
legitimate server with a DNS query and a forged source address.  

 Twenty-five percent of America's economic value ---up to 3 trillion 
dollars a day--- moves over network connections each day. The main 
protocol used to protect this data is over 30 years old and has 
multiple well-know security flaws. There are now more electronic 
financial transactions each day than there are paper checks written. 

     If the Internet were to go down for a just few hours, we would 
lose hundreds of millions of dollars of economic activity. If it went 
down for several days, U.S. economic activity would be severely 
curtailed; payrolls would not be met, securities transactions not 
cleared; invoices not paid. 

 In 2004 the Congressional Research Service estimated that the 
economic impact of cyber attacks on business grew to $226 billion. 
In truth, we don't know the precise amount of the economic losses 
because there is a tremendous disincentive to disclose this 
information.  But we do know it's huge and growing. 

 In August 2006 the SANS Institute claimed that bank's financial 
losses caused by cyber attacks were up 450% from the first half of 
2005. 

 August 2006 was the worst month in history for data breach 
notifications according to SANS. Consumers Union tells us that 
although about 98% of bank robbers get caught, only 1 in a thousand 
identity thefts are prosecuted. One of the main reasons is again 
the internet infrastructure itself makes tracing these thieves very 
difficult. 

 There has been a massive increase in cyber crime from organized 
groups in Eastern Europe and Asia. 

   This is the on-going chronic cyber security problem we face day in 
and day out. 
	However, the threat is not just from criminals.  
International terrorists are becoming increasingly sophisticated in 
their use of the global net creating a threat potentially more 
dangerous than physical explosives.  Of course, for some time now, 
terrorists have used the net for fund raising, communication and 
recruitment activities.  However, there is growing testimony from 
the intelligence community that they are pursuing methods to inflict 
a deadly combination of electronic breakdown and serious physical 
injury either using cyber means alone or in combination with 
physical explosives. 
	Former CIA Director George Tenent has said the Internet 
represents the "Achilles heel" of our financial stability and 
physical security. Former CIA Director Gates has warned that 
cyber-terrorism could be the most devastating weapon of mass 
destruction yet. 
	In April of 2002, then Homeland Security Director Tom Ridge 
probably said it best: "Terrorists can sit at one computer connected 
to one network and can create worldwide havoc.  [They] don't 
necessarily need a bomb or explosives to cripple a sector of the 
economy, or shut down a power grid." 
	A recent Google search on the term "cyber-terrorism" found 
over 900,000 entries. 
	Accordingly to the Insurance Information Institute, 2005 was 
the most costly on record for the insurance industry, with insured 
losses from Hurricane Katrina alone at $40.6 billion and total 
catastrophe losses for the year from 24 disasters totaling 
$61.2 billion.  We have but to watch the news to see vividly the 
misery and destruction caused to New Orleans and the surrounding 
areas.  
	Now, imagine a hurricane with intelligence.  One that learns 
and grows more destructive with each year.  Imagine a hurricane 
that methodically, intentionally with malice born of a lifetime of 
anger plans and executes a destructive force to precisely hit the 
very fabric of our economy and daily life.  That is a 
cyber-terrorism attack. 
	However, those of us who operate major information systems 
know that we must worry not just about that cyber-hurricane of the 
future but of the smaller attacks we are under every day---thousands 
of times a day.  
	Thus, it is our job in industry to work with you in 
government to address not just the large scale, massive, attack 
scenarios but also to address the chronic cyber security problems 
we face.  
	To do this, we must broaden our approach. 

WE NEED TO BROADEN OUR THINKING ABOUT INTERNET SECURITY GOVERNANCE 
	When I say we need to broaden our thinking about the 
Internet, I mean that we need to do at least three things. 
	First, we need to realize that the Internet is unlike 
anything we have dealt with before. 
 It transmits phone calls but it is not a phone line. 
 It makes copies but it is not a Xerox machine. 
 It houses books but it is not a library. 
 It broadcasts images but it is not a TV station.  
 It's critical to our national defense, but it is not a military 
installation. 
 It's all these things and much much more. 

  The Internet is international, interactive, constantly changing 
and constantly under attack.  
  Consequently, it will require a security system unlike anything we 
have designed before. 
   It's not even really an "It." Its actually lots of "Its" all 
knitted together. Some public, some private --all transmitting 
information across corporate and national boarders without stopping 
to pay tolls or check regional sensitivities. 
   The regulatory model we have traditionally used to govern business 
has not changed much since we created it to deal with the 
breakthrough technology of 2 centuries ago---the railroad. 
   To manage the railroad, Congress decided to create an expert 
agency, the ICC to pass specific regulations.  The ICC begat the 
rest of the alphabet soup, the FCC, the SEC and the FTC.  And that 
system has worked arguably well in most instances. 
   But that system, whatever its advantages, will not work with 
Internet security. Even if Congress were to enact an enlightened 
statute, it would not reach beyond our national boarders and hence 
would not be comprehensive enough.  Even if some agency wrote a 
brilliant regulation, it is likely to be out-dated before it went 
through the process, a process that can be further delayed with 
court challenges. 
	And that assumes, unrealistically, that the political 
process inherent in a government regulation system doesn't 
compromise, simplify and "dumb-down" the eventual regulations so 
that we end up with a standard which offends no one, where everyone 
can attest that they met the new federal regulations, but everyone 
knows the system is not really working. 
	That is not to say that regulation doesn't have its place, 
especially with traditionally regulated industries.  It is to say 
that regulation, standing alone, will not be sufficient. 
	We must, together, develop a mechanism to assure an 
effective and sustainable system of security that will accommodate 
the global breadth of the Internet and still result in a dynamic 
and constantly improving system of mutual security. 
	We, the Internet Security alliance, contend that the best 
mechanism to assure an adequate and sustainable defense system is 
to inject the market with a combination of motivations. 
       We need to have corporations, who own and operate the vast 
majority of the Internet, to perceive that it is their own self 
interest to continually improve not only their own security, but 
that of everyone else with whom they interact. 
	Sadly, this is not the case now.  
	A range of studies have demonstrated that corporations, for 
various reasons, tend to regard security and resilience, including 
cyber security, as a cost center to be minimized.  
	Moreover, the enlightened companies will do what they 
perceive is appropriate to assure the cyber defense within their 
corporate borders, however, the Internet is a shared infrastructure. 
	We need to develop a system that assures comprehensive 
security---and nothing motivates the private sector like market 
incentives. 
	Psychologists tell us that punishment as the sole means of 
behavioral modification doesn't effectively work past the age of 
two.   Rather, the best course of action is the use of the carrot, 
sometimes alone and sometimes in combination, with an already in 
place and existing stick. 

THE ROLE OF INSURANCE 
	Numerous private and governmental documents have encouraged 
the use of cyber-insurance and the creation of a robust 
cyber-insurance market.  There is little wonder about this.  
Insurance can: 
(1) 	motivate best practices by modifying the availability and 
affordability of insurance based on the degree of implementation of 
such best practices, 
(2) 	spread the financial costs of a cyber-attack, especially a 
massive cyber-attack, among society creating an efficient funding 
mechanism in the event of "digital Pearl Harbor", and 
(3) 	be a primary distribution channel for risk management 
information on preventing and mitigating cyber-risks given the 
history view of the insurance industry as the "risk management 
experts". 

   Given that a robust insurance market is necessary to achieve 
these essential public goods, the question is how best to achieve 
such a market.  While the primary burden is on the insurance sector 
itself to make this happen, left purely on its own, the industry 
will move "too little, too late".  One main reason for this is that 
the lack of historical loss information makes the creation of 
standard actuarial tables impossible leaving carriers to 
``quesstimate" correct rates, something most carriers do not want 
to do. Thus, the market is currently estimated to be less than 
$200 million in premium with only a handful of carriers willing to 
issue policies. 
	Fortunately, there are concrete steps, some easy and some 
hard, that can be taken by the insurance industry and government 
to achieve the goal of a sustainable and robust insurance system 
for the inevitable cyber-hurricane. 

THERE ARE CONCRETE STEPS THAT WE CAN TAKE TO DEVELOP A SUSTAINABLE 
MODEL OF INTERNET SECURITY 

A. What We Are Doing 
	The mantra of the Internet Security Alliance is that since 
the Internet is largely owned and operated by the private sector, 
it is up to the private sector to provide Internet security. 
	Consistent with that policy, the Internet Security 
Alliance has executed and supported a wide range of activities 
within the private sector to improve security. 
INFORMATION SHARING 
	ISAlliance was founded in April 2004---5 months before the 
tragedy of 9/11 placed an increased emphasis on security because, 
even then, we realized the need for advanced information sharing. 
We established one of the first and most sophisticated information 
sharing operations in conjunction with our partners at Carnegie 
Mellon University's CERT/cc.  This became the model used by DHS, 
which eventually took over that function from us with the creation 
of US-CERT. 

BEST PRACTICE DEVELOPMENT 
	One of the under-reported stories of Internet security is 
that we actually know how to solve much of these problems.  Best 
Practices in various areas of Internet security have been developed 
in the private sector and research has empirically demonstrated 
that these Best Practices work: though corporations, who follow 
them invariably still get attacked, they can better withstand 
and manage the attacks suffering little if any down time or 
financial loss.  
	ISAlliance has been a leader in the development of best 
practices, and has published a continuing series of works that 
communicate those best practices to the full range of large, small, 
and medium size enterprises.  
	Unfortunately, so far, only a minority of corporations 
follow these best practices.  

WORKING WITH THE INSURANCE INDUSTRY 
	AIG insurance has, in conjunction with ISAlliance, attempted 
to stimulate wider adoption of these best practices by offering 
credits on cyber insurance for corporations who comply with them. 
 Working closely with the ISAlliance technical team and Carnegie 
Mellon University, AIG developed the first cyber-insurance 
certification tool to be used in conjunction with ISAlliance's 
Best Practice Guides.  This tool permits companies to show that 
they are meeting the standards of the Best Practice Guides and 
are entitled to insurance credits where permitted by law. 

SMALL COMPANIES 
	In 2004 the private sector, in conjunction with DHS, held 
the first national Cyber Summit. The very first recommendation to 
come out of that summit was that something had to be done to bring 
more small companies into the perimeter of a secure cyber space. 
	The ISAlliance was asked to create a program specifically to 
address the needs of smaller companies.  In the past two years we 
have developed a separate set of best practices for them, developed 
a self assessment tool to assess these needs, offered private 
incentives such as lower insurance rates for compliant companies 
and created an innovative mechanism for small companies to 
participate in our information sharing and educational programs.  
Since the cyber summit, the ISAlliance has increased its reach 
into the small company community by several hundred new companies. 

REACHING OUT TO THE INVESTMENT COMMUNITY 
	Next month we, along with several coalition partners such 
as the Council on Competitiveness and BITS, will be holding a major 
event at NASDAQ.  The purpose of that event is to reach out to the 
investment community who we believe have been undervaluing 
corporate investment in security and business resilience. Based 
on recent research we hope to convince the investment community 
that companies who do invest in business resiliency projects are 
indeed better investments.  That is, companies that invest in 
cyber security are not dumping money in to economic black-hole. 
Rather, an investment in cyber security not only makes a company 
more resilient but also produces a positive return on investment. 
Clearly, if we can make this case strongly it would have a major 
impact on increasing the market incentive for improved security. 

REVIEWING CORPORATE STRUCTURES 
	In addition, based on a series of recent studies, we believe 
that in many corporations there is insufficient integration among 
CSO's, CIO's and Risk Managers leading to less commitment from the 
COO, CEO and Boards of Directors for security and resiliency 
investments. As a result, we are engaged in a program to get this 
message out and achieve results in improved corporate governance. 

ADDRESSING PARTNERSHIP AND OUT-SOURCING SECURITY ISSUES THROUGH 
MODEL CONTRACTS 
	Companies who participate in organizations like the Internet 
Security Alliance are often also among those "best practices" 
companies who are actually doing a very good job of assuring the 
security of their own cyber systems.  However, with a shared 
infrastructure like the Internet you are only as secure as the 
company with whom you are interacting.  Hence, we needed to develop 
a market system to expand the state-of-the-art procedures we follow 
to all our partners including those who are based off-shore.  The 
mechanism we chose was commercial agreements recognizing that the 
agreement was an inherent part of setting up shared 
infrastructure.  We developed a set of model contract terms and 
conditions which provide contract trading partners with a market 
mechanism that assures that both sides are following the necessary 
procedures to assure each other's compliance, while at the same 
time cutting legal costs. 
	Our work in this model contract project was endorsed by 
the Information Systems Security Association, an international 
professional association of over 10,000 information security 
professionals.  

COORDINATING WITH RECOGNIZED STANDARD SETTING BODIES 
	As a next step within the Model Contracts Project, 
ISAlliance is collaborating with the American National Standard 
Institute (ANSI).  We have agreed to work cooperatively to take 
the adopted standards for information security programs and 
develop contract language that embraces these standards.  We are 
also hoping to broaden this effort to embrace international 
standards, and are working with internationally based partner 
corporations to incorporate legal requirements in other 
countries. 

INTEGRATION OF MULTI-FACETED SECURITY ISSUES 
	It is a misnomer that cyber security is a technical problem. 
 While it obviously has many technical aspects maintaining cyber 
security has technical, legal, business operational and public 
policy dimensions.  Unfortunately, many organizations are 
ill-equipped to address these issues in an integrated fashion 
leading to uncoordinated and inefficient security programs.  
In cooperation with our partners at Carnegie Mellon University 
CyLab, ISAlliance is developing integration programs including 
legal/technical and business analysis coordinated with web-based 
education and training to improve our member's performance in 
their own management of cyber security as part of the business 
agenda. 

ADDRESSING THE INSIDER THREAT 
	Many of the breakdowns in cyberspace (including the recent 
highly publicized personal security breeches on the part of agencies 
of the federal government) have been the function of personnel 
misconduct rather than technology failures. DHS Chief for Cyber 
Security research, Scott Borg, has reported that the single 
biggest vulnerability in industry is the lack of adherence of 
senior corporate personnel to cyber security policies and best 
practices.  ISAlliance in conjunction with CMU and the US Secret 
Service has developed a separate set of best practices for 
addressing insider threats.  This is coupled with web-based 
training which is also made available to Congressional and 
government personnel at no charge. 

COOPERATION WITH INDUSTRY AND GOVERNMENT COALITIONS   
	The ISAlliance contributes both time and resources to support 
a range of voluntary industry and government coalitions such as 
the Information Technilogy Sector Specific Council, the 
Telecommunications Sector Specific Council, The National Cyber 
Security Partnership, and US-CERT. 

B. What government Can Do 
BACKGROUND 
	As I have already outlined, the private sector must take a 
leadership role in assuring the security of cyber space.  Many 
organizations, including ISAlliance, its members, and the many 
coalition partners we have referred to above are doing a great 
deal.  
	But, the current level of effort is not enough. 
	Although research indicates that by following already 
identified best practices companies can make substantial progress 
toward mitigating the effect of cyber attacks. However, current 
research also suggests only about 1/4 of corporations adhere to 
them. 
	The biggest obstacle is cost, weighed against perceived 
value. 
	The National Strategy to Secure Cyberspace, published almost 
exactly 4 years ago, correctly concluded that reliance upon 
government regulation in this domain was not the proper course of 
action.  Given the ever changing nature of the Internet, it would 
be largely ineffective and most likely counter productive for 
American industry. 
	Yet, we have also maintained, since our comments filed in 
the development of that document, that there was a missing link 
in the strategy.  While regulation would likely be ineffective, 
largely for the reasons detailed above, a pure voluntary program 
would also likely fail. 
	Although many have hopefully suggested that there would be 
a positive return on investment to cyber security spending, it has 
not so far been demonstrated effectively in most corporate board 
rooms.   
	Since the publication of the National Strategy, the 
ISAlliance has campaigned for the development of an incentive 
program to assure an effective and sustainable program of cyber 
infrastructure protection. 
	The road has been a long one, involving substantial 
dialogue and productive analysis of the alternatives available.  
Here are several notable activities to which the ISAlliance has 
contributed. 

CISWG 
	In 2004, the then Chairman of the House Information 
Policy Subcommittee on Government Reform appointed a group of 
45 industry executives to present a program that would take a 
deregulatory approach to cyber security.  I was honored to serve 
as co-chair (along with ISAlliance COO Larry Clinton) of the 
Incentives Committee.  We issued a series of fairly detailed 
reports covering issues such as best practices, educational 
outreach, and incentives. 

WYE II 
	In 2005, the National Cyber Security Partnership engaged 
with DHS and 13 federal agencies in a series of off-site meetings 
built on DHS's own conference on cyber security held in December 
of 2004 at Wye River. The Wye II program also recommended an 
incentive program built on and extending the work done by CISWG. 

NIPP and the SECTOR COORDINATING COUNCILS 
	In 2006, as part of the process in developing the National 
Infrastructure Protection Plan (NIPP), DHS requested that each sector 
form a Coordinating Council to help provide input on and 
eventually implementation of the Sector Specific plans that are 
expected to grow out of the NIPP. 
	As with the CISWG reports and the WYE II reports, both the 
IT and Communications Sector Coordinating Councils provided almost 
identical comments to DHS suggesting that the NIPP include the need 
to develop a value proposition and market incentives to improve and 
sustain cyber security. 

NIPP ESTABLISHES THE NATIONAL SECURITY LINK FOR ESTABLISHING A 
VALUE PROPOSITION FOR INDUSTRY INCLUDING INCENTIVES 
	The NIPP was published on June 30, 2006.  It embraces the 
notion that as a matter of national security and homeland security 
a value proposition for industry must be developed including the 
creation of economic incentives. 
	"The public private partnership called for in the NIPP 
provides for the foundation for effective CI/KR protection...The 
success of the partnership depends on articulating mutual benefits 
to government and private sector partners.  While articulating the 
value proposition to the government typically is clear, it is often 
difficult to articulate the direct benefits of participation for 
the private sector...In assessing the value proposition for the 
private sector there is a clear national security and homeland 
security interest in ensuring the collective protection of the 
Nation's CI/KR. Government can engage industry to go beyond 
efforts already justified by their corporate business needs to 
assist in broad-scale CI/KR protection through activates such 
as:...
	Creating an environment that supports incentives for 
companies to voluntarily adopt widely accepted sound security 
practices" (NIPP page 9) 
	ISAlliance wants to thank and congratulate DHS Assistant 
Secretary for Infrastructure Protection Bob Stephan and Acting 
Cyber Security Director Andy Purdy and their staff for making 
this paradigm shifting assessment and including it in the 
National Infrastructure Protection Plan. 

NOW IT'S TIME FOR CONGRESS 
	It is now time to move from the general notion of 
recognizing the national security need to develop a value 
proposition for industry for improved security to the much 
harder question, "how exactly do we do it?" 
     The ISAlliance does not come to the Committee today with 
legislative language to be introduced.  That is premature today, 
but it may not be in a few months. What we do come to you today 
is specific legislature ideas which, once agreed to, will then 
be translated into suggested legislative language. 
	Congress should continue the process you have started 
today and hold hearings on the various ideas we have identified 
for creating an incentive-based security model so that we can 
address the issue with the attention that the national security 
perspective suggests. 
	What I can provide for the members today is a fairly 
specific list of suggestions that have been developed through the 
CISWG, WYE II and NIPP comment processes I have discussed.  In 
brief we can identify numerous paths, most with Congressional 
precedent for Congressional action to provide incentives that 
are in the national interest.  These are all appropriate for 
adaptation and application in the cyber security space. 
	Among the alternatives we believe are appropriate for 
Congressional review are: 
1. Congress can tie incentives such as civil liability safe harbors 
or procurement credits to companies who can demonstrate compliance 
with market generated best practices for cyber security. As I 
previously noted, research has demonstrated that a substantial 
minority of corporations currently follow industry generated 
cyber best practices which yield empirical success. The problem 
is motivating more companies to adopt these procedures. In the 
last Congress Chairman Putnam of the Information Policy 
Subcommittee of Government Reform created the Corporate Information 
Security Working Group. The Incentives Committee of that group 
proposed a system though which this can be accomplished. 
2. Congress can stimulate the stunted cyber insurance market. 
Cyber insurance can help achieve social goals by managing government 
risk in a cyber hurricane while providing a mechanism to maximize 
corporate security behavior that is dynamic enough to address the 
fast changing and international characteristics of cyberspace. 
This can be done by: 
a. Having government serve as an insurer of last resort to stimulate 
the market (Precedent: Terrorism Risk Insurance Act of 2002). 
b. Establish a revolving fund reinsurance system funded by taxes on 
insurance products (Precedent: Federal Aviation Act 1958). 
c. Requiring government contractors to purchase cyber insurance. 
(Precedent: Federal Acquisition Regulations) 
d. Promote cyber security information sharing allowing for the 
creation of better actuarial tables resulting in lower premium 
costs, increased competition and broader coverage. (Precedent 
The Year 2000 Information Readiness Disclosure Act of 1998) 
3. The Congress can create an industry/government/university 
consortium to stimulate the needed research, development and 
adoption of security protocols. This will enable government, 
academia and industry to work together to replace today's security 
poor Internet protocols with security rich protocols. Congress 
followed a similar model (Sema-Tech) in the late 1980s to address 
the computer chip gap. 
4. The Congress can use tax incentives to motivate corporations to 
adopt security practices beyond those already justified by their 
own corporate needs but conducive to the national and Homeland 
Security needs cited in the National Infrastructure Protection Plan 
(NIPP July 2006). (Precedent: IRS Code 26 U.S.C; IRS Code 26 
U.S.C.832 (e); Energy Policy Act 2005). 
5.  The Government can create awards programs to highlight the 
contributions of corporations and senior executives who have gone 
beyond their own corporate interests and expended resources. In the 
1980s when industry believed that "Quality" was a luxury they could 
not afford the federal government initiated the "Baldrige Awards" 
for quality which eventually became a sought after market 
differentiator for corporations. 
6. The government can support private sector initiatives to use 
market forces to enhance cyber security.  As noted, the ISAlliance, 
in conjunction with the ISSA and ANSI is developing a series of 
publications of model contract language that enable traditional 
and emerging standards of security within commercial agreements 
utilizing the market power of business alliances as a means to 
expand security.  The ISAlliance in conjunction with BITS and the 
Council on Competitiveness is sponsoring a series of studies and 
forums educating the investment community as to the business 
benefits of security/resiliency and the corporate organizational 
reforms needed to expand this concept.  All this is simultaneously 
in the public's national security interest. DHS, the Department of 
Commerce and other federal agencies should identify, promote and 
support these programs aggressively as a cost effective mechanism; 
doing so serves to expand their culture of security message. 

	I would like to thank the committee again for allowing 
ISAlliance to testify today and I would be happy to answer any 
questions the Committee may have. 

	MR. UPTON.  Thank you all for your testimony.  It seems as 
though we have our work cut out for us.  I am glad that my Chairman 
is here, because that means if we do all the things that you 
explain, Mr. Clinton, that we would have jurisdiction over all the 
other committees, and I think we would welcome that here. 
	MR. CLINTON.  Know your audience, Mr. Chairman. 
	MR. UPTON.  Mr. Foresman, how long has this vacancy been in 
terms of the Assistant Secretary at DHS? 
	MR. FORESMAN.  Mr. Chairman, as you know, Secretary 
Chertoff now announced last July the second stage review and the 
creation of the Preparedness Director and the creation of this new 
position that was officially established on October the 1st, so 
since that period of time. 
	MR. UPTON.  So almost a year? 
	MR. FORESMAN.  That is correct.
	MR. UPTON.  And I am pleased to hear that you are getting 
close.  Is this a position that has to be confirmed by the Senate? 
	MR. FORESMAN.  No, sir, it does not. 
	MR. UPTON.  Good.  That may be the best news we have this 
morning. 
	I would like, as you go back this morning, to just underscore 
the need to see that this position is filled as quickly as we can, 
so that we can, in fact, have a high profile leadership spot willing 
to tackle this and to be able to work with the other agencies that 
are out there. 
	Mr. Weafer, we appreciated your testimony.  I would be very 
interested in the difference or the changes in the attacks from 
perhaps this year to previous years.  You talked a little bit about 
a rapid response.  Obviously, the impact of what would happen to the 
economy, but I am interested how these attacks change as 
particularly the private sector has prepared themselves for it.  
What has been the next stage?  What has been the evolution? 
	MR. WEAFER.  Well, the good news is we do believe a lot of 
people have listened to some of the best practices defense in depth, 
which is why some of the pandemic, the local events have died down.  
However, they have been replaced by a level of intensity in volume 
that we have not seen since a long time for us.  We are seeing this 
driven by fraud, cyber crime, people trying to invade personal 
privacy.  Largely, it is also driven by the use of broadband 
connectivity and home users, bringing work home, having data 
leakage from there. 
	MR. UPTON.  Do a lot of these attacks originate from 
overseas? 
	MR. WEAFER.  Actually, we find that most of the attacks 
originate within the U.S., attacking victims inside the U.S.  Of 
course, cyber crime is very international.  The people controlling 
those machines could be sitting over in Europe or South America, 
or anywhere around the world.  So it is a very international 
problem. 
	MR. UPTON.  Mr. Powner, you indicated in your testimony, you 
said that the Internet recovery was by far incomplete.  We had real 
threats.  You painted a pretty bleak picture.  Do you see that we 
are making some progress?  What are the most critical things that 
we can do in the coming months? 
	MR. POWNER.  Well, clearly there is some progress with some 
of the plans and working groups that are being put in place within 
the Department, but--and I think some of the panel members mentioned 
we need to move beyond plans and some of the initial stages. 
	One of the key things that we learned in our study for 
you, Mr. Chairman, is that what the private sector wants during 
a time of crisis isn't exactly where we are right now within the 
Department of Homeland Security with their planning efforts.  They 
want items like what we learned in Katrina: help with logistics, 
help with prioritization, backup communications.  Those types of 
things aren't being discussed.  We are talking about these great 
large-scale plans, and we need to get together on the same page on 
this to have a plan that would be helpful to the private sector 
infrastructure owners. 
	MR. UPTON.  I know that you studied the Business Roundtable 
report that was put out.  Did you find that it helped you interface 
at all in terms of your report that you made? 
	MR. POWNER.  The Business Roundtable report was very 
consistent with the number of findings that we had, and a number 
of those recommendations were quite consistent.  We obviously 
weren't as critical as the private sector, because we couldn't look 
at that.  
	When you look at that report, and I think some of our panel 
members mentioned today, it is clear there is room for improvement 
on the private sector side of things also.  There was one 
recommendation in that report, though, that talked about another 
group being formed.  I think we need to stop forming groups and we 
need to hold the current groups accountable.  We have enough groups 
that are looking at this.  Let us just get some accountability here 
and get the job done. 
	MR. UPTON.  That leads, actually, to my next question to 
Mr. Kurtz, who said we needed more of a role by the White House and 
others that try and take a leadership role.  Now, Mr. Kurtz, 
I don't know all of your background, but I know that you once 
worked at the White House.  Is that correct? 
	MR. KURTZ.  Correct.  In the early part of the first term 
of the Bush Administration, President Bush spent a great deal of 
time looking at putting together a national strategy to secure 
cyberspace.  It came out in February '03.  It is actually a good 
document.  The problem is since that strategy was issued in 
February of '03, we have actually been running in place.  
We--keep in mind-- 
	MR. UPTON.  Do you think that once an assistant secretary 
is named, that that will be a big help? 
	MR. KURTZ.  I think it will help.  One of the issues that 
I am trying to point out in the testimony is that DHS, under 
Homeland Security directive Presidential 7 and under the National 
Strategy, clearly have a lead coordinating role in putting together 
our national strategy to secure cyberspace.  But what we need to 
understand is that while DHS has that leading role, there are 
multiple other agencies involved in this process, in particular, 
when we talk about an issue that is important to this committee 
when it comes to recovery and reconstitution issues.  You know, 
agencies like the FCC have a role.  Agencies like DOD have a role. 
The classic example is Hurricane Katrina.  At the end of the day 
when the problems were so significant with Hurricane Katrina, the 
President ultimately turned to DOD for their assistance. 
	So what would happen in an event of a large-scale cyber 
disaster?  What is the chain of command?  Who is calling the 
shots?  And at the end of the day, you may not have a situation 
where the Internet is, if you will, dark, that there is a 
blackout.  In fact, I think that would be a pretty extreme case.  
But what you may have is a situation where you have very limited 
bandwidth or certain sectors cannot connect with each other.  That 
means real decisions about priority need to be made.  What traffic 
gets through?  What traffic gets stopped?  Likewise, can FedEx or 
UPS deliver their packages by the way--they base all their 
operations on the Internet.  
	A lot of these key questions require resolution, and that is 
why we are arguing for a national information assurance policy to 
put in place a directive across agencies, so we have a firm 
understanding of roles and responsibility and who is doing what in 
the event of a crisis. 
	MR. UPTON.  My time is expired. 
	Mr. Gonzalez. 
	MR. GONZALEZ.  Thank you very much, Mr. Chairman. 
	The first thing I want to do is read from Mr. Clinton's 
submitted written testimony.  I don't think you covered it, 
Mr. Clinton, but I really liked it, and I think it tells the 
American people exactly what we are talking about.  It says "First 
we need to realize that the Internet is unlike anything we have 
ever dealt with before.  It transmits phone calls, but it is not 
a phone line.  It makes copies, but it is not a Xerox machine.  
It houses books, but it is not a library.  It broadcasts images, 
but it is not a TV station.  It is critical to our national 
defense, but it is not a military installation.  It is all these 
things and much, much more."  It seems that what I am hearing is 
that we have got a piecemeal way of addressing many of these 
different uses and such, and we really need something that is 
holistic.  I just really enjoyed reading what is a very 
thoughtful written statement. 
	It appears that we are talking about a couple of things, 
of course.  One is prevention.  Obviously, we need to prevent the 
disruption of this incredible system that we have in the United 
States.  The other thing is what do we do to respond once we have 
the disruption or the attack or whatever.  And yet, we don't seem 
to be coordinated or getting a handle on what the problem really 
is.  We haven't even figured out where the agencies--we are not 
even staffing them timely.  It seems so overwhelming, and I don't 
mean to sound defeatist, but if we took the totality of your 
testimony today, we would have to admit that Congress is not really 
meeting its challenge effectively or timely.  I am part of that 
Congress. 
	The first thing that comes to mind is the lack of 
cooperation between government and the private sector, more so on 
the private sector.  In fact, I think Mr. Powner indicated that 
there is somewhat--I guess they guard jealously what they may 
sense is proprietary in nature, the edge, or whatever it is.  
	I want to break down the players in this scheme when we talk 
about the Internet.  We have networks, AT&T, cable, and so on, 
right?  We have ISPs, the Internet service providers, and we have 
the content aggregators, the search engines, the Googles.  Everybody 
that goes out there--and this is all part of a communication system. 
 It seems to me, Mr. Powner, that the private sector really is 
looking to the Government when there is disruption to make sure 
that it is minimal and will not interfere or interrupt or disrupt 
the doing of business, yet, they don't see that it is a two-way 
street, that they have to be making their contribution to make sure 
that we prevent and that we are able to respond.  Am I correct in 
that particular assumption? 
	MR. POWNER.  I think when you look at a potential 
large-scale disruption, it is very clear that we need to work 
collectively on it.  So the private sector, the owners of the 
Internet components, telecom companies, the route server operators, 
all those folks clearly are in charge of recovery. 
	What can the Federal government do to assist?  That is 
really the question, because the private sector is ultimately in 
charge.  They know their equipment, they deal with minor disruptions 
on a daily, weekly basis.  They know how to respond to things.  
But when it becomes at a certain scale, when does the Government 
get involved?  That is unclear.  What is their role on involvement?  
That is really what needs to be defined moving forward. 
	MR. GONZALEZ.  The other thing that we touched on is, of 
course, the information security and the security of the systems 
themselves, and the fact that we have many in the private sector 
in users that don't take that into account at all.  Again, 
Mr. Powner, I think you heard Mr. Clinton and others saying 
that--and I am going to go back, I guess, to Mr. Clinton's 
testimony, if I can find it quickly, about trying old methods 
in an environment that doesn't work anymore.  A regulatory scheme, 
maybe, and I know that someone indicated that maybe this will be a 
conflict of philosophies.  This is from Mr. Clinton's testimony.  
"We cannot manage what is essentially the 21st Century technology 
solely using regulatory models designed 2 centuries ago.  A new, 
more creative model built on market incentives and creative 
solutions must be developed and added to the mix." 
	Mr. Powner, in your research and what you have done, do you 
agree that there has to be maybe a totally different way of 
approaching and getting these parties together and involved? 
	MR. POWNER.  Mr. Gonzalez, that is an excellent point, 
looking at market incentives.  I have been involved in critical 
infrastructure since the mid-'90s when Presidential Directive 
Decision 63 was initially signed, left the Government for a while, 
worked for a major telecommunications company, and since have come 
back.  So I have been on both sides of the fence. 
	Frankly, we haven't been successful from the mid-'90s on 
having an approach to secure our critical infrastructures.  We have 
had a lot of good starts.  We have progressed certain ways.  We 
have taken some steps backwards.  But when you look at how we 
identify threats, whether we are working collectively in 
public/private partnerships, we have had mixed success dating 
back to the mid-'90s.  So I think looking at some new approaches, 
I think that we ought to keep our eyes open and consider those 
ideas. 
	MR. GONZALEZ.  Okay.  I sure do thank you, and my time 
is up. 
	MR. UPTON.  Mr. Shimkus. 
	MR. SHIMKUS.  Thank you, Mr. Chairman.  A great debate, 
great hearing, an important one, as you all have noted. 
	In listening and trying to get a handle on where we are 
at and where we need to go, I am struck by this whole debate on 
who is supposed to do what, when, where, and how, and that is what 
we are trying to get focused.  Hopefully getting an assistant 
secretary will at least bring some coordination and focus and 
leadership.  It is really all a definition of leadership and 
getting people to move and setting the tone and going forward. 
	The private sector has a--especially those who are highly 
invested in data issues--I mean, they have a compelling financial 
reason to secure their data and to harden it.  Isn't that correct?  
Anyone want to--let us start with Mr. Kurtz, and then we will go 
to Mr. Clinton. 
	MR. KURTZ.  Yeah, I would agree, and this goes back to the 
point that Mr. Gonzalez said.  I would actually disagree with you 
in part about where the private sector is on this.  I can answer 
both at the same time. 
	The private sector, over the past several years, and Larry 
can add to this as well, over a decade, at least, has spent a great 
deal of time working to try to protect the critical infrastructure 
and working to shore up the critical information infrastructure in 
large part, for their own reasons.  The energy and oil has to flow 
through the pipelines, over the power lines.  The banking systems 
need to work; the health systems need to work.  They all need to 
do that for their own reasons, and I think in fact a great deal 
of progress has been made along the way.  I would also note that 
there are several organizations, the National Cybersecurity 
Partnership, organizations that have been set up at the behalf 
of the Department of Homeland Security, like the IT Sector 
Coordination Council, that have been stood up to address issues 
with regard to cybersecurity.  
	We are, if you will, Larry and I are a piece of a much 
larger set of people, both in Washington and across the country, 
that are working on IT security issues on behalf of the private 
sector.  I think the key issue that we are at today, if I may, 
is looking for more government leadership to work with the 
private sector to solve some of those key questions that I 
outlined in my testimony.  What happens when the balloon goes 
up?  What happens when we really have a problem?  The private 
sector, for its own part, wants and needs to ensure the critical 
information infrastructure, but there will be problems, so what 
happens when that happens?  Who is in charge, who is supposed 
to do what?  That is what we are looking for. 
	MR. SHIMKUS.  Thank you.  
	Let me stop you.  I am going to interject, and then I am 
going to allow Mr. Clinton to respond also, because for us, large 
versus small, what do you define?  What is large breach, and then 
if--based upon testimony, if there is--the other question I am 
going to throw out eventually will be do you believe that whatever 
is defined as a large disruption, will all communications go dark, 
or will there be a reduced bandwidth?  And if there is a reduced 
bandwidth, then I agree definitely that there needs to be some--in 
fact, we already do it.  I pulled out of my wallet this Government 
Emergency Telecommunications Service little phone--fortunately, I 
have never had to use it, and sometimes I forget it is even here, 
but someone is going to allow me in a degraded environment for 
telecommunications, if I have to call back to Washington then I 
hopefully will get some expedited service because of this. 
	So we are already doing this at the national level in one 
arena of communications.  So really, the debate is bandwidth, what 
the prioritization or what would go through and how it would go 
through.  
	Mr. Clinton, why don't you add, subtract, or delete. 
	MR. CLINTON.  Maybe I can just extend. 
	MR. SHIMKUS.  Good. 
	MR. CLINTON.  First of all, let me thank Mr. Gonzalez and 
refer partly to, Mr. Shimkus, with respect to a point that Paul made 
that I, too, think that probably the record for the private sector, 
in the instance of a major disruption, is actually very good, 
including the sharing of information and bypassing some of the 
concerns that they would have on a normal instance.  I think it 
is real important that we segment the problem here.  You have the 
concern about the major, the big one, the Hurricane Katrina, and 
then you have the hurricanes of all the other sorts that we also 
face every day.  So it is two different things. 
	With respect to the big one, people--just like they did 
on 9/11, bypassed their normal concerns.  They just get in and they 
do what they need to do, and that has been the case.  But you are 
correct sir, Mr. Shimkus, that what we need is a unifying motivator 
to get people to do the right thing all the time so that when the 
big one hits--if I can use the Chairman's metaphor a little bit, 
the levees are higher already.  And what we are arguing for is 
that sort of resilience needs to be put into the system, and 
frankly, the private sector, just like the Federal government, 
and perhaps even the Congress, needs to readjust because we are 
dealing with something very, very different. 
	You are right.  There is a compelling interest for companies 
to defend their systems, but frankly, the research indicates that 
corporations are not currently valuing that responsibility as 
highly as they probably should.  
	We are having a big event next month, up at NASDAQ, where 
we are going out to the investment community and saying you guys 
are not properly valuing the investments on security and resiliency 
that the companies are making, so you are providing a disincentive 
to do this.  So we have to find a way to get the market incentive 
moving so that the levees are built and people better appreciate 
that.  If we can do that, when the big one hits we won't have to 
worry about bypassing our normal concerns and sharing information 
we would otherwise normally--would be in position.  So that is what 
we need to do, and that is going to require reorganization at DHS, 
the White House, in corporate America--and we can go into that in 
greater detail if you like, and perhaps even in the Congress, 
because it is difficult to deal with you guys. 
	MR. SHIMKUS.  I got elected in 1996, took office in '97.  
We had this big disaster coming in the future, which now seems 
pretty minimal, which was Y2K.  There was a financial aspect of the 
private sector to get their act in order so that come the change 
over of the clock that there wouldn't be--how many people on 
December 31, 1999, as they welcomed in the new year, were kind of 
looking at the lights to see if the lights would continue to be on?  
	And so it is good to have leadership, is it good that we 
fill this position so that we can have communication.  We started 
talking about how you prioritize, and we appreciate your 
testimony.  Hopefully, this will lead us forward in ensuring that we 
are ready to define minor versus major and that--we know we live in 
a dangerous world, and we just have to do--we don't want to be sitting 
on the sidelines and say we didn't act. 
	So thank you, Mr. Chairman.  My time is expired. 
	MR. UPTON.  Ms. Eshoo. 
	MS. ESHOO.  Thank you, Mr. Chairman, for holding this 
important hearing on an issue that I think has really, for the most 
part, been overlooked.  It is too important to overlook.  As a member 
of the House Intelligence Committee, I take very seriously the range 
of threats to our country, from terrorists and other enemies, 
including threats to our basic infrastructure, which includes our 
telecommunications network and the Internet.  If you spend any time 
with the NSA, you know that this is not only the most valued of infrastructures, but how it serves our national security.  So this 
hearing is really important, not only to identify how we can 
cooperate with one another, but also really to put, I think, the 
Administration's feet to the fire on this, in plain English. 
	We have gone without a cybersecurity czar for far too 
long.  I heard some testimony that an application and its approval 
is in the works, but make no mistake about it--to have gone this 
long without any attention to this and without having someone 
direct this part of the orchestra, I think is dangerous for our 
country, in plain English.  I am not one to try to hype up fear 
and all of that, but simply put, we have placed ourselves in a 
real ditch here by not having the Administration name someone. 
	I remember when Richard Clark, former cybersecurity czar, 
described the potential for a telecom disaster as an electronic 
Pearl Harbor.  And whether he is there or not, I think his words 
should be taken seriously here.  
	So I have a couple questions.  Why has it taken so long 
to fill this position? 
	MR. FORESMAN.  Congresswoman, let me make two points first.  
This is not-- 
	MS. ESHOO.  I mean, there hasn't even been a permanent 
director, so this is just like having erased something very 
important on the blackboard.  We are just operating without-- 
	MR. FORESMAN.  Congresswoman--
	MS. ESHOO.  --anyone there.
	MR. FORESMAN.  --I would strenuously object to that 
characterization. 
	MS. ESHOO.  Well, who has been in charge? 
	MR. FORESMAN.  I have been in charge since January. 
	MS. ESHOO.  January of this year? 
	MR. FORESMAN.  January of this year.  And let me offer that 
the success or failure of efforts in the Nation's cybersecurity 
efforts does not rest with one position in one agency or 
organization. 
	When you look at the challenge that we have gone through, 
and I am sure you are aware, Congresswoman, that to get an-- 
	MS. ESHOO.  Do you wear any other hat, or you are full-time 
as cybersecurity czar? 
	MR. FORESMAN.  Congresswoman, as I think you know, I am the 
Under Secretary of Preparedness.  I have a number of areas of 
responsibility, of which cybersecurity is-- 
	MS. ESHOO.  What percentage of your time do you spend 
on cybersecurity? 
	MR. FORESMAN.  Approximately 25 percent of my personal time, 
and I have a deputy who is assigned to it 75 percent of his time. 
	MS. ESHOO.  And who is that deputy, is he or she here? 
	MR. FORESMAN.  No, ma'am, but I will make the point that 
Andy Purdy, who has been our Acting Director of the National 
Cybersecurity Division, Andy has done an exceptional job and 
Congresswoman, I understand the importance of getting this position 
filled, but I want to be very clear with you.  This was the number 
one personnel priority that I had on my plate when I walked into 
this position.  We have been through numerous candidates, 
Congresswoman, and we have had a wide variety of candidates who, 
for a variety of reasons, have not made it through the process.  
We have had a number who started into the process and decided 
that the vestiture of their businesses, many of them were owners 
of firms in the IP community-- 
	MS. ESHOO.  Does that fit with other timelines in terms 
of hiring people?  
	MR. FORESMAN.  It doesn't, and I think it points to the 
unique nature, just as all of the panelists have talked about, 
 with dealing with IT issues.  The sector is unique-- 
	MS. ESHOO.  I want to get to another point, and I have 33 
seconds to do that. 
	Given the many vulnerabilities which exist as a result of 
users and businesses with inadequate security or vulnerable 
networks, what are you identifying that should establish an 
environment where users and the private sector do what is 
appropriate to really fill this gap to protect our 
telecommunications infrastructure?  That is what we are here 
for.  We need to identify that.  I am still not pleased with 
your answer.  I mean, if, in fact, we are on this big search 
for a cybersecurity czar and you are saying that you have spent 
25 percent of your time, we have someone that is really able 
that spends 75 percent of their time, but they are not even here 
to testify about it, that says to me that we have a problem.  
You may not agree, but I think that we do. 
	So given the responsibility that you say is 100 percent 
covered, where is the plan to pull industry, businesses, private 
sector, and the Government together?  Because as far as I can see, 
we don't have a plan, and that is equally as disturbing. 
	MR. FORESMAN.  Congresswoman, no, we have action.  We have 
a Sector Coordinating Council that is working across the IT sector 
to-- 
	MS. ESHOO.  We don't have any standards or anything that 
has been pulled together.  We heard that in testimony here today. 
	MR. FORESMAN.  Absolutely, Congresswoman, and that is why 
we have this group working to develop those standards.  This is 
not something the Federal government is going to mandate on 
industry.  I think you heard all of the panelists from the private 
sector note that, and we are providing the leadership to get the 
players in the room to have the discussion to adopt the best 
practices. 
	MS. ESHOO.  I think that we can lead in this area.  I think 
that we have to lead, and you know, you used the word mandate.  I 
think that we can create something where people buy into it without 
forcing something on them.  But I think unless we do take a 
leadership position, it is not going to happen. 
	Mr. Clinton, you wanted to say something? 
	MR. CLINTON.  Yeah.  Congresswoman, what I wanted to try to 
do is offer an example of where we are working together.  Under the 
National Infrastructure Protection Plan, there is a requirement for 
each individual sector to prepare its own infrastructure protection 
plan, and I happen to be working on the IT sector-specific plan, 
working in partnership with some of the folks at the Department of 
Homeland Security.  We are making progress and we are seeking to 
make that, if you will, a joint plan.  In other words-- 
	MS. ESHOO.  Who has bought into it? 
	MR. CLINTON.  Right now, it is very much at the working 
level.  In other words, we have individuals within the private 
sector who are working on that plan in draft form.  We are working 
with our counterparts at DHS.  Now, if I were to offer some 
criticism here, and I think I have to, I wish there were more 
senior level involvement in the preparation of that plan, not 
only DHS, frankly, but other agencies as well, because there 
are critical policy questions that need to be addressed. 
	But I don't want to leave the impression that nothing 
is happening between the private sector and the Department of 
Homeland Security and other agencies.  There are things 
happening.  It is more leadership and attention to the problem 
that would be very useful and critical. 
	MR. UPTON.  The gentlelady's time is expired. 
	MS. ESHOO.  Can I have Mr. Clinton give an answer to the 
committee?  I think he wanted-- 
	MR. UPTON.  Very briefly. 
	MR. CLINTON.  Well, very briefly, I worked with Paul on 
the infrastructure protection plan, the sector-specific plan, 
and we are working very hard.  I am very hopeful about that. 
	The comment that I wanted to make, however, dealt with 
the issue of whether or not we don't have any standards.  That 
is--I would beg to differ.  I don't think that is actually--we 
have got a whole lot of stuff already out there: the NRIC 
standards, the best practices are really good.  The ANSI has 
just come up with a new set of standards.  The private sector 
is well along.  As I documented in my testimony, companies that 
follow these things are really doing a pretty good job.  If we 
could get everybody to do this, and there we need motivation.  
Some of this we can do on the private sector side.  We have a 
 program to establish model contract language so that the good 
actors, when they engage in contracts with the others, will put 
into their contract that you have to comply with these ANSI 
standards, for example.  So there is a whole lot of creative 
stuff that we can do.  
	We have to do a whole lot more on our side, absolutely, and 
so does DHS, but we also are really trying to establish an 
environment of working together.  That is something that is tough 
but we are working on it. 
	MS. ESHOO.  Thank you. 
	MR. UPTON.  Mr. Stearns. 
	MR. STEARNS.  Thank you, Mr. Chairman.  
	Under Secretary Foresman, let me just sort of follow up a 
little bit.  Ms. Eshoo had been talking about the Department of 
Homeland Security sponsored exercises such as a cyber storm.  Have 
you found that both the Government and the private industry are 
unprepared to respond to a major Internet disruption?  Can you 
specifically tell us how bad the situation and what is being done 
to fix it? 
	MR. MORAN.  Congressman, it is difficult to put a 
quantifiable measure on where we are, but let me offer a couple-- 
	MR. STEARNS.  Don't give me vague and general. 
	MR. MORAN.  I am not going to give you vague and general 
answers.  
	As a number of the panelists have said, we have got to have 
a clear appreciation of the roles and responsibilities of the 
private sector versus the Department of Homeland Security, and 
that was identified.  And as we go through the update of the 
National Response Plan, we will do those clarifications. 
	MR. STEARNS.  Well, on a 1 through 10 scale, it says here 
that you found that both government and private industries are 
unprepared to respond.  Ten being they are very prepared, and 1 
being they are not prepared.  On a 1 through 10 scale, how 
unprepared are they to respond to a major Internet disruption? 
	MR. MORAN.  Congressman, with all due respect, I am not 
going to put a measure on it because it would be unfair to the 
industry, it would be unfair to government to put a scope or a 
scale on here when as we have evolved through the development 
of our infrastructure protection efforts in this Nation, whether 
you are talking about-- 
	MR. STEARNS.  I don't want you to--just give me general 
language.  I would like to get--since the report said government 
and private industry are unprepared, are they very unprepared or 
not prepared?  In your opinion, how bad are they unprepared?  Is 
this significant? 
	MR. MORAN.  Congressman, let me leave it at this.  I would 
offer that we are moderately well-prepared, and there is more work 
to be done. 
	MR. STEARNS.  And what should be done to fix it? 
	MR. MORAN.  Well, Congressman, clearly the big thing is 
there is a wide range of ongoing discussions, planning activities, 
the exercise activities, the training activities, but I think one 
of the critical things that Larry Clinton raised in his testimony 
is that there are a number of policy issues that need to be 
addressed so that we drive this from a market incentive standpoint. 
 There are certain areas of the critical infrastructure where 
regulation is appropriate-- 
	MR. STEARNS.  Okay. 
	MR. MORAN.  --there are others-- 
	MR. STEARNS.  I will just move from there. 
	Mr. Powner, how would legislative changes improve the ability 
of the Department of Homeland Security to develop Internet recovery 
plans?  This is your chance to tee off and give the straight scoop 
here that-- 
	MR. POWNER.  I think that two areas could move the ball 
forward in a large way.  Hopefully with the assistant secretary 
position being filled soon, that there will be greater clarity 
between the roles between the National Communication System and 
the National Cybersecurity Division.  Right now, those roles and 
responsibilities-- 
	MR. STEARNS.  So you would want legislative overlap language 
for that? 
	MR. POWNER.  Well, the question is if they can't figure it 
out soon, perhaps you could help them. 
	MR. STEARNS.  Okay. 
	MR. POWNER.  Okay?  So I think that is the first one. 
	MR. STEARNS.  That is a nice way to put it. 
	MR. POWNER.  So that is the first point.  The second point is 
when you look at the Stafford Act and the lessons learned from 
Katrina, there were private companies that needed assistance, and 
they were denied.  When we have a major disaster, that should not 
be the case.  We ought to have waivers around some of those things 
during national emergencies where private companies can be assisted 
by the Federal government. 
	MR. STEARNS.  Mr. Clinton, what percentage of the United 
States companies are simply implementing best practices when it 
comes to protecting the IT infrastructure? 
	MR. CLINTON.  Well, the last part makes it a little bit 
tougher for me, because the statistic I was just going to quote you 
goes beyond just the IT infrastructure.  Well, the answer I would 
give you, sir, is that the research that I have seen, which is 
done by PricewaterhouseCoopers, indicates about 25 percent of 
corporations are currently following what we would identify as best 
practices. 
	MR. STEARNS.  So 80 percent, then, are not doing it? 
	MR. CLINTON.  In various degrees, yes, it is about 80 
percent. 
	MR. STEARNS.  And is there--within that 80 percent, can you 
break out in terms of groups?  Can you be more specific who those 80 
percent are? 
	MR. CLINTON.  Yes, although the degree to which I can do it 
off the top of my head is-- 
	MR. STEARNS.  I don't want to put you to too much trouble.  
If you could name a couple names that would be helpful. 
	MR. CLINTON.  Well frankly, Mr. Stearns, probably most of 
the companies that appear before this subcommittee are probably 
doing a pretty good job.  I mean, the major providers, et cetera.  
It is when we get particularly into the small business environment 
it becomes really-- 
	MR. STEARNS.  But 80 percent is a pretty big number, so is 
it possible you could give me some examples who are in that 80 
percent categories? 
	MR. CLINTON.  Well, we have a major problem with small 
business overall. 
	The first recommendation that came out of the National 
Cybersecurity Summit, which was held a couple years ago, was to 
reach out to small businesses and-- 
	MR. STEARNS.  Under 5 million, under 100 million, what-- 
	MR. CLINTON.  Under 50 million is-- 
	MR. STEARNS.  Under 250, so that is a lot of companies. 
	MR. CLINTON.  That is a lot of companies, sir.  And we 
did research on that to figure out why was this going on, and to 
really cut to the chase, we found that all the small companies 
that we dealt with, series of focus groups held nationwide, had 
one thing in common.  Every small company wanted one thing: to 
become a big company.  And so the economic difficulties, the costs 
involved, were really the major barriers.  So what we have attempted 
to do is develop a cost efficient way to deliver services to these 
companies, and we have expanded our reach by several hundred.  
	So there are efforts that need to be made here.  We need 
more best practices; we have to refine the best practices that are 
previously established so that they are more applicable to the 
small companies.  They have different needs than larger companies.  
We have to find ways that we can fund a delivery system that would 
be far more cost effective for them, develop assessment tools, all 
of which we have done.  So we are doing outreach, but sir, I am 
absolutely with you.  My testimony says a lot more needs to be 
done.  We have to find incentives to get these people more into 
the boat, and we would love to work with you on that. 
	MR. STEARNS.  Thank you, Mr. Chairman. 
	MR. UPTON.  Mr. Inslee. 
	MR. INSLEE.  Thank you.  There is a lot to be concerned about 
here, and I want to ask some of you gentlemen about excuses for 
inaction. 
	We have this blatant failure to have leadership for not 
filling the Assistant Secretary of Cybersecurity post at DHS.  The 
GAO has found that that has retarded any significant advances on 
cybersecurity.  That is on the Administration's side. 
	On the Congress's side, the House has failed to pass two 
meaningful pieces of legislation, the Data Accountability and Trust 
Act, H.R. 4127.  We passed that unanimously on our committee on 
March 29, 2006.  This is supposed to be the big security month in 
the House, but as far as we know, it is not scheduled for House 
action.  That, of course, would set national standards on how to 
handle data brokers handle personal information.  That hasn't 
passed.  The Provincia Fraudulent Access to Phone Records Act, 
H.R. 4943, that passed unanimously--I'm not sure it was 
unanimously-out of this committee on March 16, 2006.  That hasn't 
passed the House of Representatives yet.  
	So we have supposedly the big security month in the 
Republican Administration, Republican House.  We don't have a 
leadership post for cybersecurity for the Nation.  It has been 
empty for a year.  We have two major bills, one involving pretext 
calling--by the way, we know this is not an abstract problem.  We 
see at Hewlett Packard the situation where somebody in management 
basically hired a firm to do pretext calling to violate the privacy 
rights of the Board members of this corporation to get their phone 
records.  This is going on in the major board rooms of a major 
Fortune 500 company.  This is not an abstract problem.  It is 
happening.  And yet, we don't have the House passing either one 
of these bills to date.  I think that is a concern.  
	So I guess I will ask Mr. Foresman, is there any excuse 
for either of these failures? 
	MR. FORESMAN.  Congressman, let me first say with regard 
to what Congress has or has not done.  I am not in a position to 
exercise any level of judgment on that.  On the second piece with 
regard to the cybersecurity post, I would offer to you progress has 
been made.  The absence of an individual in that particular post 
has not stopped us from moving forward.  Earlier, I had talked 
about the fact that we had a very collaborative relationship with 
Microsoft just a couple of weeks ago to deal with the vulnerability 
issue. 
	So if it were the fact that we had a difficult time finding 
a candidate to fill this position had we been in neutral the entire 
time, I think there would be grave concern, but I think we have 
been in overdrive the entire time, and as all the individuals have 
said here today, we need to keep the pedal to the metal and 
continue our efforts forward. 
	MR. INSLEE.  Well, it is great on a ship that the people in 
the boiler room are doing a good job and the navigator is doing as 
good a job that he can, without a captain you just don't get the 
motivation to move an agency.  And sitting here, I don't think 
there is any excuse for that.  I don't think there is any excuse 
for us not passing these two bills, either, that are consensus 
products. 
	So I think constituents of any party ought to be 
dissatisfied with both the Administration and the House today, and 
I would hope this hearing, which I am glad we are having, I thank 
the Chair for having this hearing, will motivate all parties to move 
with the dispatch to get these jobs done. 
	Thank you. 
	MR. UPTON.  Mr. Walden. 
	MR. WALDEN.  Thank you very much, Mr. Chairman.  I 
appreciation the work of the GAO to give us some guidance, and the 
testimony of our panelists today. 
	I want to ask the gentleman from Symantec, is it Weafer? 
	MR. WEAFER.  Weafer. 
	MR. WALDEN.  Weafer.  What sort of changes have you seen in 
the cyber threats over the last couple of years?  I mean, we are 
all subject to them.  I get this garbage on my Blackberry, at home 
and everywhere else, and I realize that is junk mail, but in terms 
of the threat, what are you seeing? 
	MR. WEAFER.  Well, I think we have seen a very big change 
from the late '90s, which are very much driven by the teenagers, 
the cyber vandals, the attention, today are very much driven by
criminalization and commercialization.  
	The criminalization are the ones we have talked about, the 
phishers, the spammers, the people that are out there.  The 
commercialization is people like adware companies, bad actors, the 
people who are trying to exploit vulnerabilities, take over 
websites.  They are trying to get sludge onto your machine.  So it 
is the intensity in volume and the absence of high profile events 
is something of concern to us in terms of creating awareness for 
users. 
	We hear this from home users, we hear this from CEOs of 
companies, which is the problem has been solved because I don't see 
it on the news anymore, and we are seeing the opposite.  We are 
seeing the intensity of the volumes actually increase over the last 
couple of years. 
	MR. INSLEE.  And as you see that intensity increase, what 
sort of damage are you seeing to these systems? 
	MR. WEAFER.  Well, today it is very focused on loss of 
confidential, personal information: Social Security numbers, 
personal information stolen from data leakage from corporations.  
That seems to be where most of the money is concentrated on.  
That is where most of the attacks are.  Certainly, there is a lot 
of concern about critical infrastructure, not just on today's 
technology, but as we move into the next generation technologies 
like smart phones, mobile technologies, there is a lot of concern 
going forward about how prepared are we with those technologies, 
which is why one of the recommendations is certainly R&D into 
some of these new technologies to secure them. 
	MR. INSLEE.  And as you look at what is coming out of the 
Federal government, I mean, we have heard a lot about the lack of 
an appointment to the head of this Department and all, how 
important is that? 
	MR. WEAFER.  We think it is critical.  I think, to echo 
many of the comments made here today, which is we have identified 
many of the policies, we have identified some of the key players, 
we just need to implement and get many of these ideas moving. 
	MR. INSLEE.  All right.  
	Mr. Moran, what kind of security issues should we take 
into consideration as we migrate from sort of the traditional phone 
service to Internet-based services and communications? 
	MR. MORAN.  Well, the newer systems, the new Internet-based 
systems, they are much more open systems.  The old systems were 
closed systems where you had trusted a few people, trusted people, 
you knew them.  They were the ones that had access to like the 
signaling operations so the networks were easier to maintain the 
integrity of the networks.  The new systems are much more open.  
The channels that handle the data are the same channels that handle 
the controls in many cases.  This produces a lot of challenges, 
and it means that anyone who is a part of the system, if they want 
to maintain secure systems, they have to take a lot of steps to 
make sure that they are not being sloppy with how their networks 
are and whether--not being sloppy, but people into those systems 
that shouldn't be in. 
	Through the NRIC process, we posed some of those questions 
to NRIC and we have gotten a number of best practices on how to be 
more secure in those things to make sure that your system will not 
be so vulnerable. 
	MR. INSLEE.  All right. 
	Mr. Kurtz, I guess one of the issues that has always 
intrigued and yet troubled me with how we deal with the Internet 
is its international scope.  We can have people in place and 
policies coming out of the United States government.  How do you 
control it when a lot of this stuff is offshore?  What do you 
recommend?  How do we get at that issue? 
	MR. KURTZ.  Well, there is an important milestone just 
passed before the summer recess when the Senate ratified the 
Council of Europe's Convention on Cyber Crime, which puts in place 
that common infrastructure for investigating and prosecuting cyber 
criminals.  That was a very important step. 
	The next step now is to, if you will, take the show on the 
road and ensure that other countries around the world adopt that 
same convention, put in place the laws in order to investigate 
and prosecute cyber criminals.  It also requires the United States 
to reach out, in particular, to key allies and friends, to 
develop relationships about relating to infrastructure protection, 
information infrastructure protection.  In other words, if we have 
a major problem in Europe or in Asia with regard to a critical 
data link or multiple links at the same time, we are obviously 
going to need to know who is who on the other side so we can have 
those kind of relationships in place, getting into a broader 
exercise environment. 
	I will note that Cyber Storm, if you will, was international 
in nature.  They had some other countries participating, but we 
need to broaden that scope. 
	MR. INSLEE.  But doesn't it just take one outlier, I mean, 
one safe harbor, if you will, from international law where they can 
drive it all through servers and-- 
	MR. KURTZ.  Well, it depends on ultimately what you want to 
do at the end of the day.  If you are, in fact, talking about cyber 
crime, yes, if you want to have somebody who wants to go after 
people's sensitive personal information, it can be just one 
outlier.  But if you are talking about a concerted cyber attack, 
that takes more resources, more planning capabilities on the 
outside and on the inside, in other words, an insider threat 
capability as well.  It takes a little bit more, but it is very 
difficult with the Internet because I can, if you will, spoof that 
I am sitting in China or I am sitting in Iran, when I am really 
somewhere in Iowa.  It makes it difficult. 
	MR. UPTON.  Mrs. Blackburn. 
	MRS. BLACKBURN.  Thank you, Mr. Chairman.  I thank all of 
you for being with us today and bringing the information that you 
have.  Listening to you, I tell you, we have--in this committee 
and in Oversight and Investigations, we have talked quite a bit 
about looking at the new economy, the electronic commerce needs 
for drawing some bright lines distinguishing what is large 
businesses and small businesses.  Mr. Kurtz, listening to you it 
sounds like there again that needs to be a consideration, how we 
deal with the businesses and the type of business that it is, and 
then looking into folding that into the laws in the government and 
their responsibility. 
	Secretary Foresman, let me come to you first.  We talked a 
lot about what is not done.  I have looked at your testimony, and 
you lay out broad platitudes and goals that are there, and I will 
tell you quite frankly, reading it, it reminded me a little bit 
about the hearing that we did in New Orleans post-Katrina on the 
implosion of healthcare.  And as we talked with them about what 
their emergency preparedness was, we found out that they had a 
strategy, a plan on paper.  What they did not ever do was put in 
place an implementation plan.  So sometimes, we can look at goals, 
we can look at what a vision is, but that is not going to get 
things in place to deal with recovery of information or putting a 
cyber structure back in place, should we have an attack. 
	So for the record, why don't you articulate the steps that 
you all have taken, the things that you do have in process. 
	MR. FORESMAN.  Congresswoman, what I propose is to bring 
back a comprehensive list of those things and how they fit 
together in terms of implementers, but I am 110 percent with you.  
The Secretary and I have talked in the context of cybersecurity.  
The necessity of first defining the goals and doing that in 
collaboration with industry in a way that balances security and 
the national economy-- 
	MRS. BLACKBURN.  Okay.  If I may interrupt you-- 
	MR. FORESMAN.  And then, Congresswoman, if I just might 
say, we are going to put tangible timelines on all of these things 
as we move forward.  As you saw in the testimony, we are updating 
the National Response Plan.  The sector plan is due by December 31 
at the latest, earlier if possible.  We are just not going to 
simply throw them out there without specific deliverable timelines. 
	MRS. BLACKBURN.  So you can give this committee assurance 
that there are some tangible items that you all--some milestones 
that you have reached, some things that you have in place that we 
can point to, and when our constituents say, you know, post-Katrina, 
there was not communication in Southern Mississippi.  What are you 
looking at if we have a disaster that takes down everything again?  
You can say when it comes to Internet and to our cyber 
infrastructure, we have some deliverables that have been reached 
and we can document that and show you. 
	MR. FORESMAN.  Congresswoman, we will bring that and 
document it and provide it to you. 
	MRS. BLACKBURN.  Okay, thank you.  I appreciate that. 
	Mr. Kurtz, back to some of your comments, and kind of 
taking up where Mr. Walden had left off, do you think that the 
Federal government is capable of putting in place a recovery 
structure?  Do you think that this is something that needs to 
be done by the private sector and the stakeholders necessarily 
for helping put that in place for the government?  Do you think 
government has the ability to move quickly enough to address it? 
	MR. KURTZ.  I certainly think the Government has the 
ability to lead those efforts.  If I can go back to the 1980s and 
1990s when the national communication system was set up with a 
divestiture of AT&T, a group of companies came together, the 
telecom firms came together to work with DOD and the rest of the 
interagency on telecom issues.  If you will, the Government built 
the field and they all came.  I think we really can do the same 
thing with this situation as well. 
	MRS. BLACKBURN.  Okay.
	MR. KURTZ.  We can expand the pool to include the IT 
infrastructure folks, and as well as other key infrastructure 
providers, the finance and energy folks as well. 
	I do think it is doable.  It is really leadership and 
sorting out roles and responsibilities in the event of a crisis 
that is important. 
	MRS. BLACKBURN.  Okay.  Mr. Moran, you mentioned the 200 
best practices in your testimony that your work had led to, over 
200 best practices.  So what do you do with that list?  Are you 
actively communicating that or do-- 
	MR. MORAN.  Yes, the best practices have been developed.  
They are actually posted on the NRIC website.  But we have an 
outreach program.  We get out to parties who we think need to 
hear the message.  The ones who were involved in NRIC development, 
they obviously know them, they voted on them, they know what they 
are.  They are very attuned to it.  But for example, we get out 
to--a lot of the FCC focus is on the telecom networks, so one of 
the things we do, we try to get out to the State telephone 
associations and we get out and make some presentations about the 
best practices, why they are important.  We try to make the point, 
by the way, that there are costs to implement best practices, but 
the risks and the costs of not implementing the best practices and 
having networks go down, lost revenues among other things, we try 
to point out that there is a lot of risk and a lot of costs 
associated with not implementing best practices. 
	So we get out there.  We also get out at national 
conventions and conferences to get the word out on the best 
practices.  So we think it is extremely important for everyone to 
know about them who the best practices would be relevant to, and we 
try to make that happen. 
	MRS. BLACKBURN.  And I would assume that post-Katrina you 
have some lessons learned that are also included in that? 
	MR. MORAN.  Absolutely, yes. 
	MRS. BLACKBURN.  Thank you, Mr. Chairman. 
	MR. UPTON.  Thank you. 
	Mr. Gonzalez. 
	MR. GONZALEZ.  Thank you very much, Mr. Chairman, to indulge 
me this last question.  I just didn't want to leave this untreated, 
because I think we touched on it, but to make sure that we are 
comprehensive. 
	We have touched on the role of the major player, of course, 
government, and then the major players in the Internet, and I think 
we have identified those as the individuals that 
come--representatives that testified before our committee, 
Mr. Chairman.  We barely touched on the other, though, and that is 
going to be small business and consumer.  And so this question is 
more directed to Mr. Weafer, right?  Mr. Weafer, your testimony 
cites a study by the Small Business Technology Institute, small 
business information security readiness, and I quote "Shockingly, 
this study found that over 74 percent of small businesses perform 
no information security planning whatsoever."  That is the first 
point.  Now, let us get into the consumer, and I think small 
business more consumer than anything else.  "The growing use of 
always on broadband connections by home users and small businesses 
represents a significant amount of computing power, which left 
unprotected can be taken over and used as zombie machines to damage 
our networks and hinder the commerce and services that flow through 
them." 
	So on those two points, where are we today in addressing 
those particular groups that are essential, obviously, if it is 
going to be comprehensive, and again, what should we be doing if, 
in fact, you disagree with the progress that we are making at the 
present time? 
	MR. WEAFER.  Well, I think just a couple of things you need 
to do.  One is increasing awareness and education, particularly for 
the home user level.  I think it is a danger for the home users that 
they think that the problem is solved through one magic pill.  That 
is not the case.  As we have moved from dial-up connections to 
broadband connections, we have opened up our computers to not only 
more pressing power, but more threats coming in: network attacks, 
phishing attacks, spam attacks.  I think in many cases people are 
unaware of the dangers they are opening up. 
	Every country we look at and we log go, to broadband, we 
see a complimentary increase in the number of cyber attacks 
originating from within that country.  So it is not just a U.S. 
concept, we actually see it around the world. 
	So getting people to understand it is a defense in depth, 
getting them to understand it is about updating security patches, 
best practices, social awareness in terms of what parts of the 
Internet--don't go down the dark alleys of the Internet, what they 
are downloading on the machine, reading the user agreements, these 
are part of the education awareness. 
	Secondly, the infrastructure itself, we need to make sure 
we are protecting them as much as we can.  Some of this can be 
done at the telecommunications or the ISP layer, which is protecting 
them from spam, viruses, and things coming down that pipe towards 
them.  We do recognize a special place the home users have, 
because, of course, many of us are also remote workers.  So if we 
bring home our work, we are also exposing our company's data as 
part of this.  So this is another reason why we really need to 
focus on this group and try to get them the incentive as well as 
the awareness to try and improve security. 
	MR. UPTON.  Thank you, Mr. Gonzalez. 
	Well, this concludes our hearing.  We appreciate your 
thoughtful remarks and your testimony, as well as in your 
statements.  I must tell you that this subcommittee is going to 
stay on top of this issue.  Mr. Foresman, again, if you could take 
that message back that we are looking forward to working with an 
assistant secretary, as we know that this is a potential real 
problem that will cause just enormous damages if it is not dealt 
with correctly. 
	Thank you and have a good day. 
	[Whereupon, at 11:58 a.m., the subcommittee was adjourned.] 

SUBMISSION FOR THE RECORD OF JEANNINE KENNEY, SENIOR POLICY ANALYST, 
CONSUMERS UNION 


RESPONSE FOR THE RECORD OF DAVID A. POWNER, DIRECTOR, INFORMATION 
TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE 

RESPONSE FOR THE RECORD OF VINCENT WEAFER, SENIOR DIRECTOR, SYMANTEC 
SECURITY RESPONSE, SYMANTEC CORPORATION 



1. 
What are the risks and benefits of private companies sharing 
information with the Department of Homeland Security (DHS)? 

	Information sharing among government agencies and the private 
sector has emerged as one of the most critical challenges of the 
post 9/11 era. A key element of this challenge is that while the 
federal government is expected to keep the U.S. secure, the 
overwhelming majority (85 to 90 percent) of the nation's critical 
infrastructure is owned by the private sector. 
	In structuring its strategy for securing the national 
critical infrastructure, the Department of Homeland Security (DHS) 
has been designated as the lead agency and is charged with finding 
ways to improve information sharing while the IT systems that 
control the critical infrastructure -- such as telecommunications 
networks, the electrical power grid, oil pipelines, and water 
treatment plants -- remain protected from physical and cyberthreats. 
	In early 2005, the Government Accountability Office (GAO) 
published a report that criticized the DHS for not doing enough to 
reach out to the private sector. The report asserted that many 
organizations responsible for the nation's critical infrastructure 
"are either unaware of key areas of cybersecurity risks or 
unprepared to effectively address cyber emergencies. Further, DHS 
continues to have difficulties in developing partnerships -- as 
called for in federal policy -- with other federal agencies, state 
and local governments, and (the) private sector."  Without 
effective partnerships with the private sector, the government's 
mission to secure our nation's infrastructure will not be 
successful. 
 	While information sharing is necessary for critical 
infrastructure protection, it may also leave participants more 
vulnerable to attacks. In order to effectively protect the 
infrastructure, government agencies and private firms must work 
together to determine what kinds of information should be shared 
and why, develop the appropriate information sharing mechanisms 
(such as further development of the IT-ISAC and IT-SCC for the 
IT Sector), ensure that the public sector shares as much timely 
information as possible, and make the intelligence more actionable 
for all parties. Most of the information the private sector has 
received in the past has been old information or is not enough 
information to take any specific actions.  We have seen some 
improvement recently in this area.  The advent of the Protected 
Critical Infrastructure Information (PCII) program is also a 
positive step toward protecting sensitive information and only 
sharing it with appropriate parties.  However, there are still 
some questions that remain about the PCII program, including how 
the information which is submitted will be protected and to what 
extent a company can control the information once submitted. 
	Before the government can expect the private sector to fully 
cooperate and share valuable IT information and assets, the 
government should be able to demonstrate a secure, resilient 
infrastructure of its own. The most recent FISMA scores signal that 
 many agencies still have a lot more to do in the area of IT 
Security.  By combining the right technologies, processes, and 
policies, agencies can dramatically reduce the risk of unexpected 
disruptions, increase their ability to maintain continuity of 
normal business operations, protect highly sensitive information, 
and tightly align IT to changing operational goals. 

2. What improvements could DHS make in building its working 
relationships with private sector information technology and 
communications companies and major industrial users of the Internet? 

	The Department of Homeland Security should streamline 
communication with private firms holding a stake in the nation's 
critical infrastructure sectors. In addition, DHS should expedite 
recommendations provided by private sector representatives serving 
on the National Infrastructure Assurance Council (NIAC). 
	Symantec's Chairman and CEO, John W. Thompson, was appointed 
in 2002 to the National Infrastructure Assurance Council (NIAC) by 
U.S. President George W. Bush. The NIAC was established by the 
President to provide advice on the security of information systems 
for critical infrastructure supporting key sectors of the national 
economy, including banking and finance, transportation, energy, 
manufacturing, and emergency government services. 
	During the summer of 2005, the NIAC established a Sector 
Partnership Model Working Group from a DHS requested study and 
provided recommendations on its structure, function and 
implementation. 
	In October 2005, the Working Group presented its initial 
report and findings to the NIAC, affirming the structure of the 
partnership model presented in the National Infrastructure 
Protection Plan (NIPP), and recommending key operating principles, 
including that the partnership be considered a collaboration of 
equals between the government and the private sector. The approach 
includes sector based and cross-sector partnerships. 
	We believe that DHS should implement a "sector partnership 
model" in which leaders from the private sector and government 
counterparts that do similar work would share information about 
sector-specific topics. Unlike formal governmental advisory 
committees that involve private sector voices, these groups of 
leaders would be self-organized bodies and remain independent of 
government control. 
	Symantec recommends that DHS should also continue to work 
with private industry to discuss the key challenges the Department 
faces that impede the private sector's willingness to share 
sensitive information.  Some of these key challenges for DHS 
include:  
defining specific government needs for critical infrastructure 
information, 
determining how the information will be used, 
assuring the private sector that the information will be protected 
and who will be authorized to have access to the information, and 
demonstrating to critical infrastructure owners the benefits of 
sharing the information. 

	If DHS were able to surmount these challenges, it and other 
government users may begin to overcome the lack of trust that 
critical infrastructure owners have in the government's ability to 
use and protect their sensitive information. 
	Finally, Symantec has made numerous recommendations over the 
last several years related to information sharing functions that 
have been transferred to DHS. One significant area concerns the 
federal government's CIP efforts, which is focused on the sharing 
of information on incidents, threats, and vulnerabilities, and the 
providing of warnings related to critical infrastructures both 
within the federal government and between the federal government 
and state and local governments and the private sector. Although 
improvements have been made, further efforts are needed by DHS in 
coordination with the private sector to address the following 
critical CIP challenges: 
 developing a comprehensive and coordinated national plan to 
facilitate CIP information sharing  that clearly delineates the 
roles and responsibilities of federal and nonfederal CIP entities, 
defines interim objectives and milestones, sets timeframes for 
achieving objectives, and establishes performance measures; 
 developing fully productive information sharing relationships 
within the federal government and between the federal government 
and state and local governments and the private sector; 
 improving the federal government's capabilities to analyze 
incident, threat, and vulnerability information obtained from 
numerous sources and share appropriate, timely, useful warnings 
and other information concerning both cyber and physical threats 
to federal entities, state and local governments, and the private 
sector; and 
 providing appropriate incentives for non-federal entities to increase information sharing with the federal government and enhance other CIP 
efforts. 

	The success of homeland security also relies on establishing 
effective systems and processes to facilitate information sharing 
among and between government entities and the private sector. The 
ISAC's have identified critical success factors and other key 
management issues that DHS should consider as it establishes 
systems and processes to facilitate information sharing among and 
between government entities and the private sector. 
	These success factors include establishing trust 
relationships with a wide variety of federal and non-federal 
entities that may be in a position to provide potentially useful 
information and advice on vulnerabilities and incidents. As part of 
its information technology management, DHS should continue to 
develop and implement enterprise architecture to integrate the 
many existing systems and processes required to support its mission 
and to guide the department's investments in new systems to 
effectively support homeland security in the coming years. Other 
key management issues include ensuring that sensitive information 
is secured, developing secure communications networks, integrating 
staff from different organizations, and ensuring that the 
department has properly skilled staff. 

3. Describe (a) the involvement of private sector firms in the 
development of the National Infrastructure Protection Plan and your 
views on the efforts to develop this plan; and (b) the involvement 
of private sector firms in the ongoing development of the 
IT/Communications Sector specific plan in response to NIPP and 
your view of the process by which the sector-specific plan is being 
developed. 

	(A.) As the focal point for critical infrastructure 
protection, DHS has many cybersecurity and other IT related 
responsibilities that are called for in law and policy. In 2005 and 
2006, DHS initiated efforts to address these responsibilities, but 
much more remains to be done.  
	On June 30, pursuant to Homeland Security Presidential 
Directive 7, the Department of Homeland Security (DHS) released a 
final (NIPP).  The final NIPP builds on the framework established 
in both the interim and draft versions of the NIPP, issued in 
February 2005 and November 2005 respectively. Symantec believes 
that DHS has made significant progress on these responsibilities 
with the June 2006 release of the National Infrastructure 
Protection Plan; however, supplemental sector-specific plans have 
not yet been finalized. 
	Private sector firms were allowed little time to review and 
comment on the finalized version of the NIPP.  Many 
IT/Communications sector specific firms had hoped to be consulted 
earlier by DHS to participate in the drafting process for the NIPP 
up front as opposed to being asked to comment on a DHS completed 
document without prior industry consultation. 
	Symantec is encouraged that the final NIPP includes more 
references to the IT Sector.  However, we believe the plan needs to 
go one step further by addressing avenues for merging physical and 
cyber protection. Reconciling the two won't be any easy task but 
that is what the 17 sector-specific councils are charged with doing 
in 180 days; that's the deadline for preparing individual 
infrastructure protection plans for the telecommunications, IT, 
financial service, chemical and other industries 
designated "criticial" by the DHS. These plans will be based on the 
NIPP and sanctioned and released by DHS, but issued as guidance, 
meaning compliance by companies will be voluntary. The key part 
of each of those sector specific plans will be a risk assessment 
of the possibility of a cyber or physical attack and an estimation 
of its effects. 
	Symantec believes that it will be most difficult for 
security professionals in each industry to merge those two risk 
assessments, especially given the lack of specificity in the NIPP. 
There is a complex web of issues which have not been dealt with 
in the NIPP. For example, a dam -- and most physical assets -- are 
built to certain specifications in order to resist threats, such 
as a storm, of a specified magnitude. If the dam breaks, the 
result can typically be predicted. But if vulnerability in an 
operating system is exploited, the asset, i.e. the computer, is 
not damaged. Rather, there is a loss of functionality throughout 
a network, the extent of which cannot be predicted in advance. 
Symantec is concerned that the sector-specific plans will confine 
network security to the backseat as concern over dams, rivers, 
buildings and other physical assets drives each plan. The NIPP 
focuses more directly on protection of physical assets and still 
needs greater emphasis on cybersecurity.  Symantec recommends 
greater inclusion of cyber security in the NIPP.  We have 
identified several clear and present cyber security threats to 
U.S. critical infrastructure which exist from many sources. 
	(B.) Symantec is a member of the Information Technology 
Sector Coordinating Council (IT-SCC) which was established on 
January 27, 2006 for the purposes of bringing together 
companies, associations, and other key IT sector participants 
on a regular basis to coordinate strategic activities and 
communicate broad sector member views associated with 
infrastructure protection, response and recovery that are broadly 
relevant to the IT Sector.  
	The IT-SCC was formed, in part, to support the "Sector 
Partnership Model" developed by DHS and endorsed by the NIAC.  
Symantec remains closely engaged with DHS, specifically the National 
Cyber Security Division (NCSD) as our lead Sector Agency, in CIP 
policy development and coordination.  For operational information 
sharing issues, the IT-ISAC will take leadership, with the support 
of the IT SCC.  The IT sector envisions a secure, resilient, and 
protected global information infrastructure that can rapidly 
restore services if affected by an emergency or crisis, ensuring 
the continued and efficient function of information technologies, 
infrastructures and services for people, governments, and 
businesses worldwide. 
	Symantec and other Council members are working in 
partnership with DHS in developing risked based, private sector 
driven critical infrastructure protection (CIP) initiatives.  
Specifically, the IT SCC is working with the NCSD to develop a 
new understanding of IT assets that is function based, as opposed 
to the traditional physical structure conception of assets.  The 
IT SCC has developed a Plans Working Group to coordinate the IT 
SCC's input to the government's National Infrastructure 
Protection Plan (NIPP) and co-development of the IT Sector Specific 
Plan (SSP). 
	Additionally, the IT-SCC is looking to build more robust 
information sharing between DHS and the private sector.  As such, 
the IT SCC has asked DHS to use the powers granted to it in Section 
871 of the Homeland Security Act and develop a FACA exempt structure 
to more easily share information.  The April 2006 announcement by 
DHS of the formation of the Critical Infrastructure Protection 
Advisory Committee (CIPAC) responds to that need, and the IT-SCC 
is working with DHS to refine architecture and operation of that 
committee.  Additionally, the IT-ISAC continues to engage DHS on 
operational information sharing. 
	Symantec has been pleased with our participation in the IT 
SCC and the process to collaboratively work together with other 
industry players on an IT sector specific plan. 

4. What factors make private/public working groups more/less 
effective in planning for or responding to major Internet 
disruptions? 

	The Internet and its communications infrastructure serve 
as the backbone of information exchange that is vital to our 
nation's security and our economy. Yet many feel the United States 
is not sufficiently prepared for a major attack, software incident 
or natural disaster that would lead to disruption of large parts 
of the Internet. Despite a series of efforts in recent years to 
address this issue, some gaps still exist in the response plans 
of the U.S. government and the private sector for reconstituting 
the Internet in the event of an unprecedented massive Internet 
disruption. 
	The primary factor that can make private/public working 
groups ineffective in planning for or responding to major Internet 
disruptions is that there is currently no well-coordinated 
processes or roles and responsibilities which exist today that 
would integrate the disparate plans of industry and government 
to restore Internet functioning when recovering from a major 
cyber attack. Some of the recent government exercises demonstrate 
that there is much to improve on from both sides.  
	According to the GAO, DHS has so far failed to establish 
a comprehensive plan for responding to cyberthreats against 
critical infrastructure. Criminal groups, foreign intelligence 
services and terrorists all have the ability to launch disruptive 
physical and cyberattacks. While the DHS developed high-level 
plans for infrastructure protection, components that address 
Internet recovery are "incomplete. In addition, while the DHS has 
begun working with private industry on processes for jointly 
responding to cyberattacks, the initiatives are "immature" and 
lack deadlines for completion. 
	Also hampering the department's efforts to establish a 
recovery plan is a lack of agreement over what the agency's role 
should be when a disruption does occur and when it should get 
involved. In addition, the private sector has been reluctant to 
share information with the DHS because "it doesn't currently see 
a value in sharing" and lacks trust in the leadership. 
	A July 2005 GAO report has stated that the government is 
not prepared to effectively coordinate public and private-sector 
plans for recovering from a major Internet attack. "Until these 
challenges are addressed, DHS will have difficulty achieving 
results in its role as a focal point for helping the Internet to 
recover from a major disruption," the report noted. 
	That said, there are definite benefits to having 
private/public working groups in planning for or responding to 
major Internet disruptions.  Specifically, by working together, 
stronger trust relationships can built, processes can be developed 
and streamlined, roles can be identified, and actionable information 
can be shared to better protect our nation's infrastructure. 
	Symantec encourages more comprehensive exercises by DHS 
such as the Cyber Storm Exercise involving simulated cyberattacks 
against the nation's critical infrastructure that were conducted 
in February. Cyber Storm was conducted by the DHS's NCSD on 
Feb. 6-10. More than 110 public, private and international 
organizations took part in the exercise, which simulated a 
cyberattack directed at critical infrastructure. Among the key 
findings in the report is the need for a well-established chain 
of command in a time of crisis, the importance of information 
sharing across government and industry sectors and a better 
ability to correlate incident information across the two groups.  
There was some negative press regarding this exercise, but the 
important thing to remember is that exercises are conducted 
specifically to find the problem areas or gaps and fix them before 
the next exercise or real-life event occurs. 
	Symantec looks forward to continuing important work with 
private industry, Congress and the Administration to better 
enhance our nation's preparedness for a major Internet disruption 
or physical attack.  As I noted in my testimony to the Committee, 
I firmly believe that it's not a question of "if", but "when".  
Thank you. 

RESPONSE FOR THE RECORD OF PAUL B. KURTZ, EXECUTIVE DIRECTOR, CYBER 
SECURITY INDUSTRY ALLIANCE 

CSIA's responses to follow-up questions from the September 13, 2006 
hearing, "Cybersecurity: Protecting America's Critical 
Infrastructure, Economy, and Consumers," House Committee on 
Energy and Commerce, Subcommittee on Telecommunications and the 
Internet. 

1. What are the risks and benefits of private companies sharing 
information with the Department of Homeland Security (DHS)? 

	Private sector companies and organizations have invested 
enormous financial and human resources into developing proactive and 
effective partnerships with government to protect our valuable 
critical information infrastructure. Despite significant progress, 
barriers remain, and more needs to be done to improve the quality 
of information sharing partnerships between government and 
industry. 
	Risks: Private sector companies and the government have 
identified a number of risks and barriers with respect to sharing 
information with DHS or other federal entities.  The 
U.S. Government Accountability Office released a report in 
April, 2006 that identified the following items as key challenges 
that impede the private sector's willingness to share sensitive 
information: 
- defining specific government needs for critical infrastructure 
information; 
- determining how the information will be used; 
- assuring the private sector that the information will be protected 
and who will be authorized to have access to the information; and 
- demonstrating to critical infrastructure owners the benefits of 
sharing the information. 

	Separately, the National Cyber Security Partnership's Working 
Group on Information Sharing identified additional barriers that 
require improvement: 
- Industry is brought into the process once government consensus is 
achieved, which makes meaningful change or input difficult. 
- Government consensus on major initiatives developed prior to 
substantial industry input creates resistance when presented to 
industry, on both substantive and partnership grounds. 
- Every process that DHS develops to collect information 
(i.e., HSIN, US-CERT) should be done with industry partnership to 
ensure that both industry and government will have something to 
gain out of sharing information and thus an incentive to share. 
- Outdated clearance requirements do not fit new-era information 
sharing requirements.  A new, enhanced partnership with the private 
sector requires a new information classification system. 

	Both of these lists identify fundamental problems with the 
existing information-sharing process that require clarity of purpose 
on the part of DHS, and inclusion of the private sector on program 
planning and implementation.  In order to establish functional and 
effective information-sharing partnerships, DHS and other 
government agencies need to establish trust among organizations and 
create "true" partnerships. 

Establishing Trust 
	DHS operates under the premise that once information or 
data is provided, it is then "owned" by DHS and can be used as DHS 
sees fit.  This impedes trust and eliminates any incentive by 
industry for information sharing.  Unfortunately, the Final Rule 
regarding procedures for Handling Critical Infrastructure 
Information issued by DHS this September (implementing the 
Critical Information Infrastructure Act of 2002) provides no 
further clarity for industry.  Industry needs a clear understanding 
of what information they are being asked to provide, why they are 
being asked for it, and how it will be used.  They have concerns 
with sharing sensitive proprietary information, and industry needs 
assurance that this information, when shared, will be protected.  
Conversely, DHS needs to reciprocate by providing industry with 
critical information in a timely manner. 

Establishing a "true" partnership 
	There are many barriers to establishing a "true" partnership.
  DHS must ensure the partnership reflects all relevant parties and 
sector-specific entities.  Senior leadership buy-in and support from 
both DHS and industry are critical in establishing this "true" 
partnership.  Finally, the information sharing partnership must 
be voluntary and built on trust; each member must be personally 
responsible for their trusted behavior. 
	Benefits: There are several businesses and organizations 
with the tools, resources and expertise that can provide 
invaluable information DHS may not otherwise have access to, or the 
ability to produce.  Likewise, DHS and other government agencies 
have their own internal organizations, plus, previously-established 
public-private partnerships that have made strides in information 
sharing and program and policy development. 
	Private sector organizations can gather data on threats and 
malicious Internet activity and present this information to DHS and 
other government agencies in order to raise awareness and encourage 
action.  McAfee's AVERT Labs, for example, has developed a general 
ranking system that indicates the severity of known global threats 
and how they impact the Internet, business operations, and home 
users' systems.  Their 100 researchers in 14 countries continuously 
monitor the latest threats and provide remediation.  Internet 
Security Systems' (ISS) X-Force Threat Analysis Service (XFTAS) 
provides real-time threat information from ISS' international 
network of Security Operations Centers and delivers customized 
information about potential threats to networks. 
	Likewise, Symantec Corporation releases a semi-annual 
Internet Security Threat Report, or ISTR, which is a comprehensive 
analysis of security activity in today's information economy.  It 
offers an overview of threat activity over a six-month period and 
is based on data collected from more than 40,000 sensors deployed 
in over 180 countries in addition to a database covering more than 
18,000 vulnerabilities affecting over 30,000 technologies from 
more than 4,000 vendors.  The Report includes an analysis of 
network-based attacks on the Internet with a review of known 
threats, vulnerabilities, malicious code and other security 
risks.  It also offers security best practices for consumers and 
businesses in order to help them protect themselves against 
current and emerging cyber threats.  The underlying data 
associated with such reports can help guide the government and 
Congress toward addressing the problem. 
	Presidential Decision Directive 63 (PDD63), Homeland 
Security Presidential Directive (HSPD-7) and Executive Order 
13231 (EO - 13231) helped promote the idea of a concentrated 
effort regarding the sharing of various sector issues leading 
to unified and strengthened industry sectors  entities.  The 
IT-ISAC, or Information Sharing and Analysis Center, is a 
non-profit organization, providing users with real-time 
information about urgent alerts, security news, vulnerabilities, 
viruses and other Internet threats, thus providing a coherent 
picture of the current health of the Internet to IT-ISAC members.  
The purpose of the IT-ISAC is also to provide a forum for sharing 
threat related information, and ways to protect against those 
threats. Members can submit vulnerability, virus and general 
notifications for distribution. 
	Below is a description of other public-private 
partnerships, organizations and committees that generate 
strategies, programs, and best practices, where sharing critical 
cyber information data with the federal government has certainly 
been a benefit: 
	CERT-CC: a center of Internet security expertise, located 
at the Software Engineering Institute, a federally funded research 
and development center operated by Carnegie Mellon University; it 
studies Internet security vulnerabilities, researches long-term 
changes in networked systems, and develops information and training 
to help improve security. 
	National Security Telecommunications Advisory Committee 
(NSTAC): created by President Ronald Reagan in September 1982; it 
is composed of up to 30 industry chief executives representing 
the major communications and network service providers and 
information technology, finance, and aerospace companies, and 
provides industry-based advice and expertise to the President on 
issues and problems related to implementing national security 
and emergency preparedness (NS/EP) communications policy. 
	National Infrastructure Advisory Council (NIAC): an advisory 
committee within DHS that is composed of a maximum of 30 members, 
appointed by the President from private industry, academia, and 
state and local government; they provide the President through 
the Secretary of the Department of Homeland Security with advice 
on the security of the critical infrastructure sectors and their 
information systems. 
	North American Network Operators Group (NANOG): an 
educational and operational forum for the coordination and 
dissemination of technical information related to backbone/enterprise 
networking technologies and operational practices. 
	National Cyber-Forensics and Training Alliance (NCFTA): 
provides a neutral collaborative venue where critical confidential 
information about cyber incidents can be shared discreetly, and 
where resources can be shared among industry, academia and law 
enforcement. 
 	National Cyber Security Alliance (NCSA): a non-profit, 
public-private partnership that offers resources for cyber security 
awareness and education for home user, small business, and 
education audiences.  NCSA sponsors include the DHS, the Federal 
Trade Commission, and many private-sector corporations and 
organizations. NCSA provides tools and resources to empower home 
users, small businesses, and schools, colleges, and universities 
to stay safe online. 
	National Cyber Security Partnership (NCSP): led by the 
Business Software Alliance (BSA), the Information Technology 
Association of America (ITAA), TechNet, and the U.S. Chamber of 
Commerce; a voluntary public-private partnership with academicians, 
CEOs, federal government agencies and industry experts tasked to 
develop shared strategies and programs to better secure and 
enhance America's critical information infrastructure. 

2. What improvements could DHS make in building its working 
relationships with private sector information technology and 
communications companies and major industrial users of the 
Internet? 

	Since the establishment of DHS, there has been a tension 
regarding what entity - public or private - is responsible for the 
protection of the critical information infrastructure.  DHS has 
jurisdiction over these matters, however industry generally owns 
and operates the critical infrastructure; unfortunately, this 
tension interferes with producing a constructive 
industry-government partnership. 
	Both DHS and industry can take steps to improve this 
partnership: 

Delineation of Roles and Responsibilities 
	Clear, defined roles for DHS/Federal agencies and industry 
must be established regarding situational awareness and early 
warning, emergency communications, continuity of operations 
planning, reconstitution, and resiliency.  As Paul Kurtz, the 
Executive Director of CSIA stated in his testimony, currently, 
there is little strategic direction or leadership from the 
federal government in the area of information security.  CSIA 
believes the government has a responsibility to lead, set 
priorities, and coordinate and facilitate protection and 
response. 
	DHS must consider and articulate how it will work with the 
private sector to respond to and recover from a massive failure of 
information technology systems - whether from a cyber attack or a 
natural disaster.  In preparing to respond to a significant cyber 
event, the question that should be asked is: What is a suitable 
role for DHS as well as other key federal agencies, including DoD 
and the FCC, in facilitating recovery and reconstitution from a 
cyber "incident of national significance?  The existing DHS 
"plan" for recovery cites more than a dozen federal departments 
and agencies with "coordinating" responsibility - not including 
state, local and tribal governments.  DHS needs to articulate a 
chain-of-command for each step of recovery and reconstitution.  
For example, the DHS's U.S. Computer Emergency Readiness Team 
(US-CERT) may be aware of a network attack, but the North American 
Network Operators Group (NANOG) as the operational forum for 
backbone/enterprise networking, will play the key technical role in 
actually mitigating and recovering from a cyber attack. 
	In the event of a natural disaster, a terrorist attack, or a 
failure of any kind of our critical infrastructure, both the 
private and public sector need to have timely access to 
situational information; they need to communicate with one another 
in order to assess and remedy the situation, and oversee COOP, 
reconstitution and recovery efforts.  Having distinct 
responsibilities identified and carried out in practice scenarios 
will result in stronger public-private working relationships, 
proper planning, and effective response. 

Identification of Specific Needs for Information Sharing 
	According to the aforementioned GAO report, DHS has not 
explicitly identified or defined specific needs, nor has it 
explained how the information submitted to the Critical 
Infrastructure Information (CII) Program Office will be utilized.  
GAO also recognized that the information that has already been 
submitted to the Program Office has not been utilized to issue 
advisories, alerts or warnings.  GAO recommends that DHS define 
the CII needs of the department and other agencies, specify how 
that information will be used, assure the information will be 
protected, and demonstrate the benefit of information sharing. 

Early and Substantive Engagement/Reciprocity of Information-Sharing 
	DHS should coordinate with the private sector prior to 
developing plans or activities designed to protect critical 
infrastructures in order to get a better understanding of the 
sector-specific characteristics and operational realities.  Too 
often, the government develops a plan which fails to reflect 
unique sector needs and requirements, and the government later 
tries to sell the plan to the private sector.  Likewise, the 
private sector needs to provide expertise, time and resources to 
identify CIP issues, and provide guidance on sector-specific 
issues associated with infrastructure protection and response 
planning. 

Develop and Endorse Cyber Security Best Practices 
	The private sector needs to coordinate across infrastructure 
sectors, national borders, and industries to develop cyber security 
best practices that are realistic, responsive, adaptable, and 
forward-looking.  The government should then encourage and endorse 
private sector cyber security best practices.  It is important, 
however, that these best practices are viewed as advisory, flexible 
enough to accommodate differences in risks, and not be 
prescriptive. 

3. Describe (a) the involvement of private sector firms in the 
development of the National Infrastructure Protection Plan and your 
views of the efforts to develop this plan; and (b) the involvement 
of private sector firms in the ongoing development of the 
IT/Communications Sector Specific Plan in response to NIPP and your 
views of the process by which the sector specific plan is being 
developed. 

	The National Infrastructure Protection Plan (NIPP) provides 
a basic flexible framework to translate the needs of both the 
government and private sector into planning activities to enhance 
national and economic security.  The IT-Sector-Specific Plan (SSP) 
provides a unique vehicle for articulating common goals for 
partnering to accomplish specific objectives.  
	The private sector and government security partners over the 
past six months have jointly engaged to develop an Information 
Technology (IT) Sector Specific Plan (SSP) as required under the 
NIPP.  While we have made good progress, the IT Sector Coordinating 
Council (SCC), the IT Government Coordinating Council (GCC), and 
the National Cyber Security Division (NCSD) have identified three 
sets of issues that require resolution to ensure effective 
implementation of the IT SSP. 

I.    Managing Risk 
	There are at least three issues requiring resolution between 
government and the IT sector.:  (a) designation of critical 
functions, (b) risk assessment and mitigation, (c) the resources 
necessary to identify and protect critical functions.  
	(a)  Critical Functions: Under the NIPP, each sector is 
required to identify critical infrastructure assets.  Given the 
dynamic nature of the information infrastructure, government and 
private sector partners jointly agreed to focus on critical 
functions associated with the IT infrastructure.  
	(b) Risk Assessments:  Implementing the IT Sector risk 
assessment approach outlined in the SSP and mitigating 
vulnerabilities in an effective and efficient manner requires 
clarity on process.  Owners and operators of the IT infrastructure 
today engage in risk assessments based on widely accepted standards 
and best practices in order to ensure uninterrupted service to 
customers in both the public and private sector, and significant 
corporate resources are dedicated to performing risk assessments 
on a regular basis.  In most cases, current best practices would 
be sufficient for identifying the critical functions outlined 
above.  In some cases, risk mitigation may exceed what is required 
to serve customers, especially in the case of low probability 
catastrophic losses.  In such instances, the private sector needs 
clarity on how such assessments are performed, how conclusions can 
be protected from public disclosure, and how any recommendations 
for mitigation shall be adjudicated.  
	(c)  Resources:   In such instances identified above in (b), 
the IT sector needs clarity on who shall pay for additional risk 
assessments and any subsequent mitigation if deemed necessary. 

II.  Cyber Incidents of National Significance (CINS) 
	There are three related issues associated with Cyber Incidents 
of National Significance: (a) there are no clear criteria for 
designating a CINS; (b) there is no clear protocol for reaching such 
a decision; and (c) there is no clarity on such a declaration's legal 
or policy significance.  The third issue is most critical as owners 
and operators in the private sector need to understand the meaning 
and potential liability if such a declaration is issued.  The 
issues related to CINS are very important.  The Business Roundtable 
issued a June report ("Essential Steps Toward Strengthening America's 
Cyber Terrorism Preparedness") highlighting the importance of this 
issue.  Specific programs have not been implemented by DHS which need 
to be.  Congress should ask DHS about its programs via oversight 
hearings. 
	(a)  Criteria for Designating a Cyber Incident of National Significance:  The National Response Plan (NRP) defines incidents of 
national significance and the NRP's Cyber Incident Annex describes at 
a high level what may constitute a CINS.  
	(b)  CINS Protocol:  There is no protocol for determining a 
declaration for a disruption of the Internet or communications 
infrastructure sufficient to cause catastrophic risk to public 
health and safety.  Such a protocol should include consultation 
with the White House and appropriate federal agencies as well as 
the leadership of the IT and/or Communications Sector Coordinating 
Councils and other potentially affected sectors.  
	(c)  Implications of Declaring a CINS:  There is no clear 
understanding of the policy or legal authority of a CINS declaration 
for the IT sector.  

III.   Response, Recovery and Reconstitution 
	(a)  Recovery and Reconstitution:  Policies and procedures are 
needed to clarify the roles and responsibilities of both government 
and the private sector in response, recovery, and reconstituting in the 
event a CINS is declared.  DHS leadership should facilitate efforts to 
create these policies and procedures. 
	(b)  Ensuring Robust Response: The capability to respond and 
recover from a CINS is critical to promoting the resiliency of 
critical infrastructure sectors.  An all hazards operational response 
and recovery capability that brings government and the private sector 
together to coordinate activities involving events (whether potential 
or actual CINS) is needed.  Existing operational capabilities for 
prevention, detection, response, and recovery (e.g., US-CERT) need 
additional resources to ensure that necessary enhancements are 
made.  In addition, new capabilities are needed to ensure 
effective communication and reconstitution of data, services, and 
networks. 

4. What factors make private/public working groups more or less 
effective in planning for or responding to major Internet disruptions? 

	Many of the impediments (described in our answer to Questions 
#1) have made public/private working groups less effective.  DHS has 
consistently prepared plans and reports without first seeking industry 
input; trust has not effectively been established between the public 
and private sector; proper roles and responsibilities have not been 
delineated; and manageable, pointed plans for next steps have not 
been carried out or implemented.  Ineffective partnerships result in 
ineffective planning and response. 
	As the GAO report noted, creating a trusted environment for 
information sharing among the private sector will lead to stronger and 
more organized working groups.  Currently, the lack of defined 
specific needs of DHS, the uncertainty of what information is needed, 
how it will be used, and who or what entities will have access to 
it all prevent proper, trusted information sharing.  And without 
proper, trusted information sharing, neither the government nor the 
private sector has the proper tools, ideas, or strategies that 
will lead to effective planning for or response to major Internet 
disruptions. 
	Congress' Role: Congress can oversee the progress of breaking 
down these boundaries and minimizing these risks by holding 
oversight hearings, and requesting progress reports from both DHS 
and from established public-private working groups.  Specifically, 
Congress should request updates from DHS and industry to report on 
progress toward achieving top objectives such as: 

- Increase Leadership: The assistant secretary for cyber security 
and telecommunications should crystallize and take steps toward 
achieving key priorities 
- Sponsor Prevention and Mitigation Programs: DHS should establish 
programs that aim to prevent or minimize a major cyber disruption, 
such as greater focus on research and development (R&D) and viable 
uses of private-sector insurance coverage for cyber attacks 
- Establish an Early Warning System: There are similar warning 
mechanisms in place, such as the Information Sharing and Analysis 
Centers (ISACs), but we still lack a federally-supported, formal 
system that provides rapid and clear indication that an attack is 
underway and alerts all key stakeholders. DHS should support the 
ISACs and ensure that a more holistic system is put into place. 
- Institute Command and Control Procedures: DHS should work with 
industry to establish a clear "chain of command" in the case of 
massive failure of information technology systems, either due to 
a cyber attack or natural disaster.  There are critical questions 
to be answered such as: what defines an incident of national 
significance? which government agencies should be involved? which 
private sector entities? what is the legal significance of such a 
declaration? 
- Articulate an Emergency Communications System: DHS should ensure 
that we have a resilient communications system in place to execute 
command and control in the case of a major cyber disruption. Such a 
system will need to work even when telecommunications and Internet 
connectivity are unavailable. This requires processes and protocols 
to communicate reliably and effectively and advance identification 
of the key stakeholders who need access to the emergency 
communications systems in order to perform their recovery and 
reconstitution duties. 
- Create a National Information Assurance Policy: A national policy 
is needed that outlines the key roles that relevant government 
agencies should play in the protection of our cyber infrastructure. 
While the establishment of a national information assurance policy 
is not solely the responsibility of DHS, it has a critical role to 
play in its development and implementation and its support of such 
a government-wide policy is needed. 


RESPONSE FOR THE RECORD OF LARRY CLINTON, CHIEF OPERATING OFFICER, 
INTERNET SECURITY ALLIANCE 

ANSWERS TO QUESTIONS RAISED BY THE HONORABLE JOHN DINGELL AT THE 
HEARING ON "CYBER SECURITY PROTECTING AMERICA'S CRITICAL 
INFRASTRUCTURE, ECONOMY AND CONSUMERS" SEPTEMBER 13, 2006. SUBMITTED 
BY LARRY CLINTON, CHIEF OPERATING OFFICER OF THE INTERNET SECURITY 
ALLIANCE 

1. What are the risks and benefits of the private sector sharing 
information with the Department of Homeland Security? 

  As was the case of 9/11 and after hurricane Katrina, industry will 
generally sweep aside long standing concerns and provide whatever 
assistance the government needs, information or otherwise, in times 
of crisis.  
	I doubt this will ever change. 
	However, cyber security is more than crisis management. It 
is an ongoing fight fueled by thousands of attacks on the system 
every day. A reliable and sustainable system of defense must be 
established. 
	Industry has often remarked, through a variety of fora, that 
information sharing with the government is critical to the maintenance 
of the Internet in cases of Cyber Incidents of National Significance 
(CINS). 
	Industry needs prompt, reliable and actionable information 
about significant impending threats as well as an ongoing flow of 
information to address the steady stream of threats and incidents 
that occur every day. 
	Moreover, industry and government need to share information 
 on a regular basis to address the thousands of attacks the Internet 
experiences every day.  It is also these chronic attacks, not just 
the prospect of an acute CINS, which drive the need for a reliable 
exchange of information between the government and industry. 
	For the relationship between industry and government to 
operate in the most efficient manner, cyber defense requires a far 
greater degree of trust. 
	Much of the risk industry perceives in sharing information 
with DHS has to do with uncertainty:  
	What is a CINS, specifically? 
	What are the roles and responsibilities to share information 
(as well as other tasks) between industry and government in case of 
a CINS, specifically? 
	How can industry be sure that information it provides the 
government will not be misused? 
	Why are so many government requests placed on such short 
timelines? And why so often are there no clear explanations as to 
what the information requested will be used for, even post facto? 
	The lack of trust in the current relationship between 
government and industry is the prime impediment to more efficient 
and effective information sharing. 


2. What changes could DHS make in building its working relationships 
with private sector information technology and communications 
companies and major industrial users of the Internet? 

	First, it should be noted that there is general consensus 
within the IT and Communications communities that there has been 
substantial progress made in improving the relationship between DHS 
and these sectors over the past year and a half. 
	The Internet Security Alliance, in conjunction with the 
National Cyber Security Partnership, organized an off-sight meeting 
with DHS and numerous other government agencies in the fall of 2005 
(called "Wye II") which highlighted a wide variety of issues that 
needed to be addressed along these lines. 
	Many of these issues have been, at least initially, 
addressed. 
	In particular, DHS has demonstrated willingness to bring the 
private sector into its planning process at a far earlier time 
period than previously. 
	In addition, DHS has shown some willingness to actually 
develop plans in conjunction with the private sector rather than 
developing their own plan and putting it out for comment. The latter 
process often resulted in little more than lip service. 
	These attitude changes have led to improvements in the 
recently published NIPP and appear at this stage to be evident in 
the drafting of the Sector Specific Plans as well. 
	However, the "Wye II" process also produced a list of items 
that could still be addressed more comprehensively.  Among the 
recommendations to come out of the Wye II process are those quoted 
below: 
 The partnership's objectives must be clearly defined and embody 
common goals 
 Institutionalized processes are important to provide lasting 
benefits 
 The partnership needs to be an evolving relationship 
 The partnership needs champions and institutional support 
 Working members of the partnership should interact frequently 
 The partnership should build on existing organizations and 
mechanisms first; while people may come and go, the institution 
remains 
 Legal and liability issues can be powerful tools that may align the 
interests of the partners; legal issues can be points upon which 
cohesion can be built 


3. Describe (a) the involvement of private sector firms in the 
development of the National Infrastructure Protection Plan and your 
views on the effort to develop this plan and (b) the involvement 
of firms in the ongoing development of the It Sector Specific plan 
in response to the NIPP and your views on the process by which the 
sector specific plan is being developed. 

	As stated above, the NIPP process was generally seen as a 
major step forward in the development of a real partnership between 
the government and the IT and Communications sectors. 
	In addition to the process improvements I have already 
referred to, there were some substantial policy directions 
articulated that are very promising. 
	One principle example is the NIPP's articulation of the 
need to develop a value proposition for industry as part of the 
NIPP. 
	Clearly, companies will do what they perceive in their own 
corporate interest to protect their information systems. And as 
stated above, they have proven willing to go the extra mile(s) 
needed in time of crisis. 
	But Cyberspace is a shared space, and there are likely gaps 
between what the government feels it needs to defend it and what is 
automatically done via convenient corporate self-interest.  
	It is vital to identify any such gaps and provide a value 
proposition for industry to fill them in, because they are, by 
definition, beyond what they will do in their own corporate 
interest.  The NIPPs recognition and commitment to developing 
this value proposition is a critical element in developing the 
sort of partnership that will create an effective and sustainable 
cyber defense.
	As to the Sector Specific Plans, apart from some of the 
process improvements, there remains substantial issues that are 
still being addressed (we are just over the half way mark in the 
process at this writing). 
	In general, there are still a number of key issues that 
lack definition. The required delineation of roles and
responsibilities are currently lacking. The question of resources 
has not been directly addressed and there has not been ample time 
to fully integrate the wide range of companies into the process 
which attempts to deal with extremely complicated problems. 
	These and other issues have been commented on in the 
current developmental drafts and we can only hope there will be 
acceptable progress by the Congressionally imposed 
deadline---which may have been overly optimistic in light of the 
difficulty of the task. 
	After all, the important thing is to get these plans right 
in terms of effectiveness, sustainability and real world practicality. 


4. What factors make private/public working groups more or less 
effective in planning for or responding to major internet disruptions. 

	There are many factors that relate to the effectiveness of 
these efforts but the most important are: 
A) The tendency to try to do too much and force a "regulatory fix" 
of the problem; and  
B) The lack of resources devoted to planning efforts; and 
C) Needed basic research is not funded. 
D) In point of fact, we already know a great deal about good cyber 
defense.  Large independent studies tell us that the corporations 
that engage in best security management (not necessarily technical) 
practices have great success in preventing, mitigating and 
recovering from attacks. If the IT SSP would simply start with 
encouraging the 75% of US corporations who do not currently follow 
these practices to do so (probably by reaching out directly to 
senior executives) real progress in overall cyber defense could be 
made rather quickly. Instead, we have a plethora of random programs 
and consultant driven grand schemes geared toward regulatory 
solutions that cannot possibly work. 
E) Almost all of the private sector efforts in cyber security 
that I am familiar with are being done by a small cadre of 
volunteers from the private sector.  There is virtually no money 
available for the sort of planning and practice that would engender 
long term cyber security, probably because such efforts are not 
glitzy enough.  But clearly more priority driven funding is required. 
F) The core protocols upon which the Internet is based are 30 years 
old.  They were never designed with the current environment in mind 
and they are in need of a heavy lift of R&D. This is not something 
the private sector is ever going to do. It will require a government 
effort in cooperation with industry and academia similar to the 
SemaTech program of the 1980s. 


RESPONSE FOR THE RECORD OF THE HON. GEORGE W. FORESMAN, UNDER 
SECRETARY OF PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY 

Questions from Representative John Dingell

1. After more than a year since announcing the position, I was pleased 
to see the appointment of a new Assistant Secretary for Cybersecurity 
shortly after our Committee's hearing. 
Please describe how this new position will elevate the matter of 
cybersecurity and differ from the Acting Director position of the 
past two years.  Specifically: 

(What new resources, budget, and staff will the Assistant Secretary 
have, and how does that compare to the Acting Director's prior 
resources, budget, and staff? 

	Response:  The Department of Homeland Security (DHS) is very 
pleased that Mr. Greg Garcia has been appointed the Assistant 
Secretary for Cyber Security and Telecommunications (CS&T).  The 
position of Assistant Secretary reflects the importance of cyber 
security and communications to our homeland security and to the 
Department.  Assistant Secretary Garcia comes to the Department 
with significant expertise and has the ability to focus resources 
for cyber security and communications in a manner that is 
consistent with our risk-based approach to homeland security. 
	In addition to the existing position of Director and 
Deputy Director of the National Cyber Security Division (NCSD), 
the staffing for the Assistant Secretary will include the 
following new positions: Deputy Assistant Secretary for CS&T, 
Chief of Staff, and an executive assistant.  DHS is working 
expeditiously to fill these positions.  
	With respect to CS&T budget and resources, the Assistant 
Secretary will continue to leverage and expand collaborative 
efforts with cyber security and communications stakeholders and 
will be working under the President's Budget for Fiscal Year 
2007.  Additional needs will, of course, be evaluated as part 
of ongoing budget development. 


( What new authorities does the Assistant Secretary have, and how 
does that compare to the Acting Director's prior authorities? 

	Response:  The Assistant Secretary for CS&T occupies an 
elevated tier within the DHS organizational structure and reports 
directly to the Under Secretary for Preparedness, whereas the 
Acting Director reported to the Acting Assistant Secretary for 
Cyber Security and Telecommunications. The Assistant Secretary 
will continue to operate under the National Strategy to Secure 
Cyberspace, Homeland Security Presidential Directive 7, and the 
National Infrastructure Protection Plan. In addition, the 
Assistant Secretary has both a mandate for integrating cyber 
security related to national security and emergency preparedness 
(NS/EP), as well as communications needs for Federal, State, local 
and tribal governments and private industry, including mandates 
outlined in Executive Order 12472.  Moreover, with the recent 
enactment of the DHS Appropriations Act for Fiscal Year 2007, 
the Assistant Secretary will also be responsible for the new 
Office of Emergency Communications established in Subtitle D of 
the Act.  


( What new levels of access to senior decision makers within the 
Department will the Assistant Secretary have, and how does that 
compare to the Acting Director's prior level? 

	Response:  The Assistant Secretary joins the DHS senior 
leadership participating in high level Departmental decisions.  He 
reports to the Under Secretary for Preparedness.  Previously, the 
Acting Director of NCSD reported to the Acting Assistant Secretary 
for Cyber Security and Telecommunications, who in turn reported 
to the Under Secretary for Preparedness. One of my key 
responsibilities is to enable effective discussion and 
decision-making on key issues.   As such I will ensure Mr. Garcia 
is both actively and intimately engaged.   


( What new programs, initiatives, or operations will the Assistant 
 Secretary be launching that were not contemplated or designed 
under the Acting Director? Will any programs or initiatives that 
the Acting Director was administering be discontinued under the 
Assistant Secretary? 

	Response The Assistant Secretary has responsibility for 
NCSD, the National Communications System (NCS), and the new Office 
of Emergency Communications. The Assistant Secretary is currently 
conducting program reviews within CS&T. Once the Assistant 
Secretary has had an opportunity to fully evaluate the depth and 
breadth of existing programs, initiatives, and operations, he 
will make programmatic adjustments as necessary.  We will, of 
course, engage Congress as appropriate in these actions.    


2. Following the release of the National Infrastructure Protection 
Plan (NIPP), the Department is charged with assuring that each of 
the critical infrastructure sectors develops a sector-specific 
plan. 

( What, specifically, are these plans supposed to yield?  For 
example, will they be emergency blueprints?  Will they be overall 
strategic plans as to how corporations should organize and perform 
ongoing security operations? 

	Response:  The release of the final NIPP Base Plan 
formalized a framework for assessing and addressing the risk to 
our national critical infrastructure in a public/private 
partnership.  The implementation of the NIPP and the accompanying 
17 Sector Specific Plans (SSPs) will help build a safer, more 
secure, and more resilient America by enhancing protection of 
the Nation's Critical Infrastructure and Key Resources (CI/KR). 
	Based on guidance from DHS, SSPs are developed jointly 
by Sector-Specific Agencies (SSAs) in close collaboration with 
Sector Coordinating Councils (SCCs), Government Coordinating 
Councils (GCCs), and others, including State, local and tribal 
homeland security partners with key interests or expertise 
appropriate to the sector.  The SSPs provide the means by which 
the NIPP is implemented across all sectors and each SSP is 
tailored to address the unique characteristics and risk 
landscapes of the 17 CI/KR sectors. 
	The objective of the SSP is to outline each sector's 
unique implementation of the NIPP risk management framework.  
It will also provide a statement of security goals and objectives 
and identify initiatives to meet these goals.  Lastly, it will 
identify resources needs and performance metrics for ensuring 
that the goals can be met which will be sustained by an ongoing 
process for coordinated private and public sector planning. 
	The SSPs are intended for long-term enhancement of CI/KR 
protection including proactive identification and management of 
risks.  While enhancement of CI/KR protection may improve emergency 
response capabilities of all security partners, the SSPs are not 
 emergency blueprints. Rather the SSPs describe each sector's 
unique implementation of the NIPP risk management framework, 
provide jointly developed public and private sector security 
goals and objectives; identify and align initiatives to meet 
these goals; and create an ongoing process for coordinated private 
and public sector planning.  
	The SSPs are strategic policy and planning documents that 
may include suggestions of best practices for security partners, 
but their primary purpose is to establish the framework  for  
public and private partners to work together and align their 
respective efforts to protect the Nation's CI/KR.  


( My understanding is that the Department is attempting to engage 
the private sector in the development of these plans.  What is the 
specific degree of private sector participation in the 
IT/Communications Sector specific plan? 

	Response:  The SSPs for both the Information Technology (IT) 
and Communications Sectors are currently under development with 
significant private sector participation.  Within the NIPP construct, 
DHS is the Sector Specific Agency (SSA) responsible for both the 
IT and Communications Sectors.  The SSA responsibility for the 
IT Sector is handled by NCSD within CS&T, which  works closely 
with the IT-Sector Coordinating Council (IT-SCC).  The SSA 
responsibility for the Communications Sector is handled by NCS 
within CS&T, which  works closely with the Communications Sector 
Coordinating Council (CSCC).  Through these partnership 
arrangements, the Department is fostering robust working 
relationships with the private sector toward the development of 
SSPs.
	DHS/NCSD has engaged the private sector in every aspect 
of the plan.  There are approximately 7 working groups made up of 
SCC and GCC members engaged in identifying the basic principles and 
ideas for each chapter of the plan.  Each of these working groups 
meets about once a week to review comments and propose changes.  
The draft plan has been reviewed by the GCC and a large part of 
the SCC multiple times within the last two months. 
	The IT SCC was formally launched in January 2006 and is 
comprised of over thirty members from across the sector, including 
hardware, software, IT system and service providers.  For the IT 
SSP, NCSD has been working closely with the IT SCC on the 
development of the plan.  In anticipation of the final release of 
the NIPP Base Plan, the IT SCC and IT GCC held a joint meeting in 
May to develop a process for co-writing the IT SSP.  A writing 
team was established, consisting of members from the IT GCC and 
IT SCC to ensure overall coordination of the IT SSP.  This team 
developed a consensus outline for the IT SSP based on the SSP 
Guidance and then divided into working groups with members from 
both the IT GCC and IT SCC to collaboratively write each chapter 
of the plan. The writing team meets on a monthly basis to review 
and incorporate the chapter working groups' products into 
iterative drafts of the IT SSP.  The collaborative and iterative 
process has ensured a coordinated plan with broad participation 
from both the public and private sectors. 
	DHS/NCS, has historically engaged with the private sector 
on many plans and initiatives.  Their Sector Specific plan has been 
compiled from NCS' work and vetted to the private sector multiple 
times since as a draft.  The private sector is engaging with NCS 
on methodologies and processes for the plan. 
  	For the Communications SSP, the NCS initiated a series of 
meetings with the Communications Sector to coordinate NIPP 
activities and draft the Communications SSP in 2004.  Working 
closely with DHS, the CSCC was established in May 2005, to work 
 with the NCS on matters related to the NIPP, including: the 
identification of communication critical infrastructure and 
resources; critical infrastructure protection (CIP) policy issues; 
and drafting a sector specific plan. In addition, the CSCC seeks to 
foster and facilitate the coordination of sector-wide policy 
related activities and initiatives designed to improve both physical 
and cyber security of communication critical infrastructure.  The 
CSCC is made up of communication owners and operators, and is led 
by an executive committee of corporate senior executives from 
wireline companies, wireless companies and the Telecommunications 
Industry Association.  


3. The NIPP generally takes the laudable perspective of dealing 
with the largest needs first, but seems to be less clear when it 
begins to consider "awareness." 

( Describe the Department's vision of "awareness" efforts, and how 
the Department plans to engage senior network operators in 
specific cybersecurity initiatives. 

	Response:  The Department's vision is to improve situational 
awareness of the IT sector within normal operations and during 
significant threats and disruptions, intentional or unintentional 
incidents, crippling attacks (cyber or physical) against IT Sector 
infrastructure, technological emergencies and/or failures, and 
Presidentially declared disasters.  In order to realize this 
mission, the IT sector and the government need to collaborate, 
develop, and share appropriate threat and vulnerability 
information more efficiently.  When completed, the SSP will 
establish the mechanisms through which the Department can engage 
all stakeholders regarding cyber security initiatives.  HITRAC 
has also just announced a program to hire private sector 
critical infrastructure experts to collaborate with DHS 
Intelligence and Infrastructure Protection analysts on the 
Department's sector assessments and related products. 
	The NIPP addresses the importance of awareness towards 
its overall goal of building a safer, more secure, and more 
resilient America by enhancing the protection of the Nation's 
CI/KR and strengthening national preparedness.  As such, the NIPP 
Base Plan highlights the need to build national awareness to 
support CI/KR protection, related protection investments, and 
associated protection activities by ensuring a focused 
understanding of the threat environment. 
	With respect to cyber security, the Department's vision 
of "awareness" efforts is based on Priority III of the National 
Strategy to Secure Cyberspace, "A National Cyberspace Security 
Awareness and Training Program".   The Strategy calls for 
promoting a comprehensive national awareness program to empower 
all Americans, including the business community, the general 
workforce, and the general population, to secure their own 
parts of cyberspace.  NCSD maintains an Outreach and Awareness 
program that includes working with stakeholders to raise the 
cyber security awareness of the general public.  NCSD works with 
the National Cyber Security Alliance (NCSA) to reach home users, 
small businesses, and all levels of students.  NCSD also works 
with the Multi-State ISAC (MS-ISAC) to enhance cyber security 
awareness among state information security professionals and the 
general public.  In collaboration with NCSA and the MS-ISAC, NCSD 
promotes the annual National Cyber Security Awareness Month, 
which occurs each October.  This year, the National Cyber Security 
Awareness Month initiatives included all fifty states and promoted 
cyber security awareness to approximately 75 million Americans 
through TV, radio, print, web and other media.  Key programs 
also included Congressional outreach, educational webcasts for 
4th and 5th graders, and, a Small Business Workshop Series. 
	With respect to engaging senior network operators in 
specific cyber security initiatives, the Department engages in 
a number of activities.  For example, the United States Computer 
Emergency Readiness Team (US-CERT) established the Government 
Forum of Incident Response and Security Teams (GFIRST), which 
makes up the government's critical group of cyber first 
responders.  GFIRST meets regularly, and DHS has hosted two 
GFIRST conferences to enhance information sharing and collaborative 
efforts to secure government cyberspace.  With respect to the 
private sector, US-CERT has established working relationships 
with a number of groups representing network operators, including 
the Information Technology Information Sharing and Analysis Center 
(IT-ISAC), the North American Incident Response Group, and the 
North American Network Operators' Group (NANOG). 

( In terms of spending priorities, how much money is the Department 
devoting to reaching out to the senior executives who control much 
of our Nation's IT/communications infrastructure? 

	Response:  The overall budget for NCSD is $92,000,000, and 
the budget for NCS is $143,272,000.  Outreach and collaboration 
with the private sector is a key component of nearly all cyber 
security and communications programs and related activities.  
Significant examples include the following: 
       The NCSD coordinates with the IT-Sector Coordinating Council 
(IT-SCC) and IT-ISAC.  In each of its program areas, as a lead 
for the IT Sector, NCSD's activities involve senior executives 
on control systems security, software assurance, and Internet 
disruption. 
	Similarly, NCS engages senior executives in the 
Communications Sector through the Communications Sector Coordinating 
Council (CSCC), the National Coordinating Center for Communications 
(NCC), and the Communications Information Sharing and Analysis 
Center (ISAC).  
	The NCS serves as the executive secretariat for the 
President's National Security Telecommunications Advisory Committee 
(NSTAC).  The NSTAC, made up of up to 30 Chief Executive Officers 
(CEOs) and other senior executives in the Communications Sector, 
provides advice to the President on communications matters.  DHS 
works closely with the NSTAC on a wide range of NS/EP, CIP, and 
response and recovery issues.  


4. The NIPP encourages the private sector to implement 
recommendations in the National Strategy to Secure Cyber Space.  
At our hearing, witnesses from the private sector indicated that 
a series of incentive programs would be critical to create the 
necessary effect, and the Government Accountability Office 
supported these comments.  Does the Department recommend any 
specific measures to develop the sort of incentive plans alluded 
to in the NIPP? 

	Response:  DHS recognizes that the private sector makes 
cyber security risk management decisions based on the return on 
investment, including ensuring business continuity.  Market-based 
incentives for cyber security investments include protection of 
intellectual capital, security influenced procurement, market 
differentiation, and public confidence. 
	The private sector acknowledges that there must be 
collaborative approach with the Federal Government to secure 
cyberspace.  DHS is committed to working closely with the private 
sector to ensure that this partnership increases overall 
preparedness.  The NIPP value proposition is based on sharing 
the responsibility of cyber security with industry and State 
and local governments, and DHS believes that this cooperation 
will help encourage all parties to take the proper steps to 
secure cyber assets.  As CI/KR protection efforts mature, DHS 
will examine specific incentive programs tailored to each 
sector to encourage private sector participation in CI/KR 
protection.  

5. GAO reports that the private sector has expressed concerns 
about the Department's ability to execute its plans and is 
reluctant to share information with the Department.  Does the 
Department recommend any steps that can be taken to improve its 
 working relationships with private sector information 
technology and communications companies? 

	Response:  The Department relies heavily on its engagement 
with the private sector and has taken a number of steps to improve 
its working relationships with the private sector in general, 
specifically with information technology and communications 
companies.  
	The Department has taken significant measures to provide for 
a more conducive information sharing environment, including 
establishing and improving the Protected Critical Infrastructure 
Information (PCII) Program and, importantly, establishing the Critical 
Infrastructure Partnership Advisory Council (CIPAC) to provide for 
the public-private collaboration for the NIPP framework.  The 
CIPAC encompasses all seventeen critical infrastructure sectors 
and facilitates the information sharing and collaborative 
environment needed to implement the NIPP. 
	In addition to these measures, the Department continues to 
build its working relationships with information technology and 
communications companies through collaboration with the IT-SCC and 
CSCC.  Furthermore, NCSD/US-CERT and NCS/NCC strive to provide the 
analysis and information aggregation functions that enable timely 
and actionable dissemination of information to the private sector, 
including the IT-ISAC and the Communications ISAC.  The continued 
enhancement of the information sharing process through 
collaboration between the Department and the private sector helps 
to build a working partnership which allows critical information 
to flow efficiently between all stakeholders. 


1  "Information Battleground," Air Force Magazine,  http://www.afa.org/magazine/Dec2005/1205info.asp. 
2 "Information Battleground," Air Force Magazine, http://www.afa.org/magazine/Dec2005/1205info.asp.  
1 http://www.technology.gov/Index.html 
2 http://www.ftc.gov/bcp/bcpenf.htm
3 http://www.justice.gov/criminal/c ybercrime/ccips.html 
4 www.fcc.gov/homeland 
5 http://www.disa.mil/main/about/missman.html 
6 http://www.whitehouse.gov/omb/egov/ 
7 "Challenges in Developing a Public/Private Recovery Plan," 
GAO-06-863T (July 28, 2006). 
8 Business Roundtable, "Essential Steps to Strengthen America's 
Cyber Terrorism Preparedness" (June 2006); see also Section 15 
of Homeland Security Presidential Directive 5, "Management of 
Domestic Incidents" (Feb. 28, 2003), and the National 
Strategy to Secure Cyberspace (Feb. 2003). 







</pre></body></html>
